APPENDIX TABLE OF CONTENTS
FEDERAL COURT OPINIONS AND ORDERS
Opinion of the United States Court of Appeals
for the Tenth Circuit
(October 28, 2019) .............................................. 1a
Opinion of the United States District Court
for the Western District of Oklahoma
(April 19, 2017) ................................................. 93a
Order of the United States Court of Appeals
for the Tenth Circuit Denying
Petition for Rehearing
(December 24, 2019) ....................................... 184a
STATE OF OKLAHOMA OPINION
Opinion of the Court of Criminal Appeals of
Oklahoma (July 19, 2007) .............................. 186a
OTHER DOCUMENT
Neuropsychological Consultation Report on
Jimmy Dean Harris, Jr. by Jennifer
L. Callahan, Ph.D.
(Evaluation Date March 13, 2006) ................ 221a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT
(OCTOBER 28, 2019)
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
JIMMY DEAN HARRIS,

Petitioner-Appellant,
v.
TOMMY SHARP, INTERIM WARDEN,
OKLAHOMA STATE PENITENTIARY,

Respondent-Appellee.

________________________
No. 17-6109

Appeal from the United States District Court
for the Western District of Oklahoma
(D.C. No. 5:08-CV-00375-F)
Jack Fisher, Fisher Law Office, Edmond, Oklahoma,
and Emma V. Rolls, Assistant Federal Public
Defender, Oklahoma City, Oklahoma,
on behalf of the Petitioner-Appellant.

 Pursuant to Fed. R. App. P. 42(c)(2), Mike Carpenter is replaced
by Tommy Sharp, as the Interim Warden of the Oklahoma State
Penitentiary.

App.2a
Jennifer L. Crabb, Assistant Attorney General
(Mike Hunter, Attorney General of Oklahoma, with
her on the briefs), Oklahoma City, Oklahoma,
on behalf of the Respondent-Appellee.
Before: TYMKOVICH, Chief Judge, BACHARACH,
and McHUGH, Circuit Judges.
BACHARACH, Circuit Judge
Mr. Jimmy Dean Harris was convicted of firstdegree murder and sentenced to death. He appealed,
and the Oklahoma Court of Criminal Appeals (OCCA)
reversed his sentence and remanded for a retrial at
the penalty phase. After the retrial, the state district
court reimposed the death penalty. Mr. Harris appealed
and sought post-conviction relief in state court. When
these efforts failed, he brought a habeas petition in
federal district court. The court denied relief, and
Mr. Harris appeals.
On appeal, Mr. Harris argues in part that his
trial counsel was ineffective in failing to seek a pretrial
hearing on the existence of an intellectual disability,
which would have prevented the death penalty.1 The
federal district court rejected this claim. In our view,
the district court should have conducted an evidentiary hearing to decide this claim, so we reverse and
remand for further consideration. Given the need to
1 Older opinions often used the term “mentally retarded.” See,
e.g., Atkins v. Virginia, 536 U.S. 304, 316 (2002). But more
recently, we have used the term “intellectually disabled.” See
Postelle v. Carpenter, 901 F.3d 1202, 1210 n.4 (10th Cir. 2018); cf.
Rosa’s Law, Pub. L. No. 111-256, 124 Stat. 2643 (2010) (changing
references in federal law from “mental retardation” and “mentally
retarded” to “intellectual disability” and “intellectually disabled”).

App.3a
remand on this issue, we also remand for the district
court to reconsider the claim of cumulative error. But
we affirm the denial of habeas relief on Mr. Harris’s
other claims.
BACKGROUND2
Jimmy Dean Harris and Pam Harris were married
for about twenty years. Mr. Harris repaired transmissions, as did Pam, who worked for Mr. Merle Taylor.
With the passage of time came marital strain between
Mr. Harris and Pam.
In 1999, Pam obtained a divorce and restraining
order, requiring Mr. Harris to move out of their house.
He complied, moving his belongings into a storage
shed, but he grew distraught—crying, drinking, and
taking Valium.
The next day, Pam returned home and discovered
that Mr. Harris had vandalized the house and moved
some of her belongings into the storage shed. This
incident led Pam to change the locks and to obtain a
second restraining order, which required Mr. Harris
to stay away from the house.
Mr. Harris repeatedly asked Pam to allow him to
retrieve his tools. After a few days, Mr. Harris went
to Pam’s workplace and shot at her, Mr. Taylor, and
his daughter (Jennifer Taylor). Mr. Taylor died, Pam
was wounded, and Jennifer Taylor escaped without
injury.
2 Under the Antiterrorism and Effective Death Penalty Act
(AEDPA), we defer to the OCCA’s factual findings absent clear
and convincing evidence to the contrary. 28 U.S.C. § 2254(e)(1).
We thus state the facts as the OCCA found them unless noted
otherwise.

App.4a
At a 2001 trial, the jury found Mr. Harris guilty of
first-degree murder in the death of Merle Taylor and
recommended the death penalty, finding one aggravating circumstance (creation of a substantial risk of
death to more than one person).3 As noted above, the
death sentence was vacated by the OCCA in a prior
appeal. At the 2005 retrial on the penalty, the prosecution alleged two aggravating factors:
1.

Mr. Harris created a substantial risk of death
to more than one person.

2.

Mr. Harris posed a continuing threat to
society.

The jury found both aggravating factors and again recommended the death penalty. The trial court agreed
with the recommendation and resentenced Mr. Harris
to the death penalty.
THE STANDARD OF REVIEW
We engage in de novo review of the federal district
court’s legal analysis. Littlejohn v. Trammell, 704
F.3d 817, 825 (10th Cir. 2013). In district court, review
is deferential when the state appellate court rejects a
claim on the merits. After rejection of the claim in state
court, the federal district court can reach the merits
only if the state appellate court’s decision was


contrary to, or involving an unreasonable
application of, clearly established Federal law,
as determined by the Supreme Court of the
United States; or

3 The jury also found Mr. Harris guilty of attempted murder as to
Pam.

App.5a


based on an unreasonable determination of the
facts given the evidence presented in state
court.

Antiterrorism and Effective Death Penalty Act of
1996 (AEDPA), 28 U.S.C. § 2254(d).
To determine whether a state-court decision was
contrary to, or involved an unreasonable application
of, clearly established law, we engage in a two-step
process. Budder v. Addison, 851 F.3d 1047, 1051 (10th
Cir.), cert. denied, 138 S. Ct. 475 (2017). We first determine the clearly established law by considering
Supreme Court precedent. Williams v. Taylor, 529
U.S. 362, 379 (2000). We then ask whether the state
court’s decision was contrary to, or involved an unreasonable application of, that precedent. Id.
We must defer to the state court’s factual findings unless “the state court[] plainly misapprehend[ed]
or misstate[d] the record in making [its] findings, and
the misapprehension goes to a material factual issue
that is central to [the] petitioner’s claim.” Ryder ex
rel. Ryder v. Warrior, 810 F.3d 724, 739 (10th Cir.
2016) (quoting Byrd v. Workman, 645 F.3d 1159,
1171–72 (10th Cir. 2011)). To overcome the state
appellate court’s factual findings, the petitioner must
show that they are objectively unreasonable. Smith
v. Aldridge, 904 F.3d 874, 880 (10th Cir. 2018).
If the state’s highest court acted unreasonably in
applying Supreme Court precedent or finding facts,
the district court must decide whether the conviction
or sentence violated the Constitution. See Fry v. Pliler,
551 U.S. 112, 119 (2007) (stating that 28 U.S.C. § 2254
(d) provides “precondition[s] to the grant of habeas
relief . . . , not an entitlement to it”); Hancock v. Tram-

App.6a

mell, 798 F.3d 1002, 1010 (10th Cir. 2015) (“[E]ven

when petitioners satisfy the threshold in § 2254(d),
they must establish a violation of federal law or the
federal constitution.”).
APPELLATE ARGUMENTS COVERED IN
AN EXISTING CERTIFICATE OF APPEALABILITY

Our court previously granted a certificate of
appealability on Mr. Harris’s appellate arguments
involving ineffective assistance of counsel, an improper jury instruction on mitigation evidence, improper
closing arguments about the mitigation evidence,
improper victim testimony recommending a particular sentence, and cumulative error. We reverse and
remand for further consideration of the claims involving
(1) ineffective assistance in the failure to seek a
pretrial hearing on an intellectual disability and (2)
cumulative error.
I.

Ineffective Assistance of Counsel

The Sixth Amendment entitles a defendant to
effective assistance of counsel. Strickland v. Washington, 466 U.S. 668 (1984). Invoking this amendment, Mr. Harris argues that his attorney at the 2005
retrial was ineffective for failing to


seek a pretrial hearing on the existence of an
intellectual disability, which would have precluded the death penalty,



present additional trial evidence for mitigation based on an intellectual disability, and



present additional mitigation evidence at trial
regarding a lesser intellectual impairment or
mental illness.

App.7a
A. The Strickland Standard
To address Mr. Harris’s arguments, the district
court needed to apply the two-part test set out in
Strickland v. Washington, 466 U.S. 668 (1984).
Under the first part of the test, the court was to
determine whether Mr. Harris’s attorney was deficient.
Attorneys are deficient when their mistakes are so
serious that they stop functioning as “counsel” for
purposes of the Sixth Amendment. Id. at 687. In
making this determination, the court ordinarily presumes that counsel’s performance is reasonable and
might entail a sound strategy. Newmiller v. Raemisch,
877 F.3d 1178, 1196 (10th Cir. 2017). In capital cases,
however, courts scrutinize attorney performance particularly closely in the sentencing phase. Littlejohn
v. Trammel, 704 F.3d 817, 859 (10th Cir. 2013).
To overcome this presumption, a petitioner “must
show that counsel’s representation fell below an
objective standard of reasonableness.” Strickland, 466
U.S. at 688. This inquiry is “highly deferential,” and
courts should avoid “the distorting effects of hindsight.” Id. at 689. Strategic decisions after a “thorough
investigation” are afforded even greater deference and
are “virtually unchallengeable.” Id. at 690. “Even under
de novo review, the standard for judging counsel’s
representation is a most deferential one.” Harrington
v. Richter, 562 U.S. 86, 105 (2011).
When a habeas petitioner alleges ineffective assistance of counsel, deference exists both in the underlying constitutional test (Strickland) and the AEDPA’s
standard for habeas relief, creating a “doubly deferential judicial review.” Knowles v. Mirzayance, 556
U.S. 111, 123 (2009). Under this double deference, we

App.8a
consider “whether there is any reasonable argument
that counsel satisfied Strickland’s deferential standard.”
Ellis v. Raemisch, 872 F.3d 1064, 1084 (10th Cir. 2017)
(quoting Harrington v. Richter, 562 U.S. 86, 105 (2011)
(emphasis in original)).
The petitioner must show not only a deficiency in
the representation but also prejudice. Strickland v.
Washington, 466 U.S. 668, 692 (1984). For prejudice,
the petitioner “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.”
Id. at 694.
B. Failure to Seek a Pretrial Hearing on
Intellectual Disability as a Bar to Execution
Mr. Harris argues that his counsel was ineffective for failing to seek a pretrial hearing on an intellectual disability that would render him ineligible for
the death penalty. This argument is based on Atkins
v. Virginia, 536 U.S. 304 (2002), where the Supreme
Court concluded that the execution of intellectually
disabled persons violates the Eighth Amendment’s
prohibition on cruel-and-unusual punishment. 536
U.S. at 317, 321.4
Despite this conclusion, the Supreme Court
allowed states to establish their own standards for
an intellectual disability. Id. at 317 n.22. We thus
focus on the content of Oklahoma law (when Mr.
4 In the first direct appeal, Mr. Harris’s appellate counsel
invoked Atkins, urging the OCCA to remand for the state trial
court to determine the existence of an intellectual disability. But
the OCCA vacated the sentence without reaching this issue.
Harris v. State, 84 P.3d 731, 757 (Okla. Crim. App. 2004).

App.9a
Harris’s retrial took place). At that time, Oklahoma
law allowed consideration of an intellectual disability
only if the defendant had at least one IQ score under
70. See Murphy v. State, 54 P.3d 556, 567–68 (Okla.
Crim. App. 2002), overruled in part on other grounds
by Blonner v. State, 127 P.3d 1135, 1139 (Okla. Crim.
App. 2006). Upon such a showing, the defendant could
then establish an intellectual disability by proving
intellectual and adaptive deficits and manifestation
before age eighteen. Id.; see p. 31, below.
Mr. Harris argues that his attorney was ineffective
by failing to ask for a pretrial hearing on intellectual
disability. To address this argument, we consider
and apply the standard of review.
1. The Standard of Review
In denying relief on this claim, the OCCA explained that “[Mr.] Harris must [1] show that counsel’s
performance was so deficient that he did not have
counsel as guaranteed by the Sixth Amendment, and
that [2] the deficient performance created errors so
serious as to deprive him of a fair trial with reliable
results.” Harris v. State, 164 P.3d 1103, 1114 (Okla.
Crim. App. 2007). The OCCA rejected this claim on
the ground that Mr. Harris could not establish prejudice. See id. at 1115–16 (concluding that “Harris cannot
show he was prejudiced by counsel’s failure” because
“[w]e cannot conclude there was a reasonable probability that, but for counsel’s omission, the results of this
resentencing proceeding would have been different”).
The State nevertheless argues that the OCCA
implicitly decided the deficiency prong on the merits.
The State’s argument conflates two of the OCCA’s
determinations: One involves Mr. Harris’s claim that

App.10a
his counsel failed to seek a pretrial hearing on the
existence of an intellectual disability; the other determination involves Mr. Harris’s claim that his counsel
failed to adequately present mitigating evidence at
the trial. See Harris v. State, 164 P.3d 1103, 1118
(Okla. Crim. App. 2007). For the second claim (failure
to adequately present mitigating evidence at the trial),
the OCCA addressed the merits of the deficiency prong.
But the OCCA did not address the deficiency prong
on the first claim (failure to seek a pretrial hearing
on intellectual disability). For this claim, the OCCA
expressly rested on the prejudice prong without any
mention of the deficiency prong. Harris v. State, 164
P.3d 1103, 1115–16 (Okla. Crim. App. 2007).
Because the OCCA did not adjudicate the merits
of the deficiency prong on this claim, we engage in de
novo review of this part of the district court’s ruling. See
Rompilla v. Beard, 545 U.S. 374, 390 (2005) (reviewing
de novo the prejudice prong of an ineffective-assistance claim because the state court had not reached
this prong); Smith v. Sharp, 935 F.3d 1064, 1072
(10th Cir. 2019) (“[I]n cases in which a state court
addresses only one prong of a multi-prong analysis,
the Supreme Court requires that federal habeas
courts address the other prongs de novo.”).
But the OCCA did reach the merits of the prejudice
prong, rejecting Mr. Harris’s arguments. Still, Mr.
Harris argues that we should engage in de novo review
on this prong because the OCCA did not


sufficiently consider Dr. Callahan’s report or



permit an evidentiary hearing.

Mr. Harris did not raise his first argument
(insufficient consideration of the evidence by the OCCA)

App.11a
in district court. Even in habeas cases involving the
death penalty, we consider arguments forfeited or
waived when they are raised for the first time on
appeal. See Hancock v. Trammell, 798 F.3d 1002,
1011 (10th Cir. 2015) (forfeited); Owens v. Trammell,
792 F.3d 1234, 1246 (10th Cir. 2015) (waived).5
Mr. Harris’s second argument (the OCCA’s denial of an evidentiary hearing) is based on Wilson v.
Workman, 577 F.3d 1284 (10th Cir. 2009) (en banc),
where we considered the OCCA’s denial of an evidentiary hearing and rejection of an ineffective-assistance
claim without considering material non-record evidence.
In these circumstances, we concluded that the denial
did not constitute an adjudication on the merits under
§ 2254(d). Wilson, 577 F.3d at 1300.
After we issued this opinion, however, the OCCA
clarified its procedures for deciding these claims. Simpson v. State, 230 P.3d 888 (Okla. Crim. App. 2010).
Given this clarification, we concluded in Lott v. Trammell that
● Wilson no longer applies and

5 Our precedents are inconsistent in discussing preservation in
cases involving 28 U.S.C. § 2254. We sometimes treat unpreserved
issues as waived, sometimes as forfeited. See Harmon v. Sharp,
936 F.3d 1044, 1085–91 (10th Cir. 2019) (Holmes, J., concurring)
(discussing this inconsistency in our case law). The difference
here is academic. If the issue involves forfeiture rather than
waiver, we could consider the issue under the plain-error standard. United States v. Carrasco-Salazar, 494 F.3d 1270, 1272
(10th Cir. 2007). But Mr. Harris has not argued plain error, so
we would not entertain the issue even if it had been forfeited
rather than waived. See Hancock, 798 F.3d at 1011.

App.12a
● any denial of a request for an evidentiary hearing on an ineffective-assistance claim constitutes an adjudication on the merits.
705 F.3d 1167, 1213 (10th Cir. 2013). Mr. Harris’s argument is thus foreclosed by Lott.
Mr. Harris contends that (1) the panel in Lott
could not overrule the en banc opinion in Wilson and
(2) the OCCA’s clarification of the standard came
after the OCCA had rejected Mr. Harris’s argument.
We reject both contentions.
It is true that a panel typically cannot overrule
an earlier precedent. United States v. White, 782
F.3d 1118, 1123 n.2 (10th Cir. 2015). But a panel is
not bound by precedents that have been superseded
by a change in state law. Wankier v. Crown Equip.
Corp., 353 F.3d 862, 867 (10th Cir. 2003). Our interpretation of state law changed when the OCCA
clarified the standard for adjudicating a request for an
evidentiary hearing. Lott, 705 F.3d at 1213.
As Mr. Harris points out, the OCCA had rejected
his argument before the OCCA clarified the statelaw standard. But the same was true in Lott, and we
relied there on the OCCA’s clarification in deciding
that the denial of an evidentiary hearing constituted
an adjudication on the merits. Id. This approach
makes sense because the OCCA was clarifying what
its rules had already been and didn’t suddenly start
adjudicating the merits when denying evidentiary
hearings. Wilson v. Trammell, 706 F.3d 1286, 1311
(10th Cir. 2013) (Gorsuch, J., concurring). Before Lott,
we had simply misunderstood Oklahoma law. See id.
(“[T]he OCCA has explained that Wilson was mistaken in its understanding of Oklahoma law.”). Under

App.13a

Lott, we thus consider the OCCA’s denial of an evi-

dentiary hearing on an ineffective-assistance claim
as an adjudication on the merits.
We thus engage in de novo review of the OCCA’s
ruling on the deficiency prong, but we apply § 2254(d)’s
deferential standard of review on the prejudice prong.
2. Deficiency Prong
Applying de novo review, we conclude that Mr.
Harris’s attorney was deficient in failing to request a
pretrial hearing to assess an intellectual disability.
The State argues that defense counsel strategically decided to forgo a pretrial hearing after a thorough
investigation. Strategic decisions draw considerable
deference when the attorney has thoroughly investigated the law, the facts, and the plausible alternatives.
Strickland v. Washington, 466 U.S. 668, 690 (1984).
But merely calling something a strategy does not
prevent meaningful scrutiny. We must still determine
(1) whether an attorney has chosen to forgo a course of
action and (2) whether that choice was reasonable
under the circumstances. Brecheen v. Reynolds, 41
F.3d 1343, 1369 (10th Cir. 1994).
In assessing the reasonableness of an attorney’s
investigation, we engage in close scrutiny during the
penalty phase of capital cases. Littlejohn v. Trammell,
704 F.3d 817, 859 (10th Cir. 2013). In these cases, “we
refer to the ABA Guidelines for the Appointment and
Performance of Counsel in Death Penalty Cases.” Id.
These guidelines require that “[c]ounsel at every stage
of the case should take advantage of all appropriate
opportunities to argue why death is not suitable
punishment for their particular client.” ABA Guide-

App.14a
lines § 10.11(L). One appropriate opportunity involved
a pretrial hearing on the existence of an intellectual
disability.6 State ex rel. Lane v. Bass, 87 P.3d 629,
633 (Okla. Crim. App. 2004), overruled in part on
other grounds by Blonner v. State, 127 P.3d 1135, 1139
(Okla. Crim. App. 2006). Had Mr. Harris been found
intellectually disabled, he would have been ineligible
for the death penalty. Id. at 632.
When the 2005 retrial took place, Oklahoma law
permitted pretrial evidentiary hearings before a judge
on the existence of an intellectual disability. See State
ex rel. Lane v. Bass, 87 P.3d 629, 633–35 (Okla. Crim.
App. 2004), overruled in part on other grounds by
Blonner v. State, 127 P.3d 1135, 1139 (Okla. Crim.
App. 2006). If the defendant preferred a jury, he or
she could also opt for a jury finding on the existence
of an intellectual disability. If the jury found no intellectual disability, the defendant could ask the judge
to revisit the issue after the trial. Id. at 635.
So if the judge or jury found no intellectual
disability, the defense would have lost nothing. But if
either the judge or jury found an intellectual
disability, the death penalty would have vanished as
a possibility. Defense counsel thus had a risk-free opportunity to avoid the death penalty. Frazier v. Jenkins,
770 F.3d 485, 501 (6th Cir. 2014)7; see Clinkscale v.
6 Alternatively, Mr. Harris could have asked the trial jury to
determine the existence and impact of an intellectual disability.
Lane, 87 P.3d at 632. But Mr. Harris argues only that his attorney should have requested a pretrial hearing.
7 The Frazier court explained: “[W]e fail to see the downside in
having a non-frivolous Atkins hearing, and it is difficult to
ascertain a strategic reason for withdrawing the motion [for an
Atkins hearing] in this case.” 770 F.3d at 501.

App.15a

Carter, 375 F.3d 430, 443 (6th Cir. 2004) (holding that

defense counsel was deficient by failing to file a timely
notice of an alibi defense when counsel had “everything
to gain” and “nothing to lose”); see also Browning v.
Baker, 875 F.3d 444, 473 (9th Cir. 2017) (“[T]he obligation to investigate, recognized by Strickland, exists
when there is no reason to believe doing so would be
fruitless or harmful.”).8
Though no downside existed,9 a pretrial hearing
had considerable upside. The evidence of an intellectual disability was ready-made. For example, Mr.
Harris had IQ scores under the 70-point threshold
necessary for a determination of intellectual disability under Oklahoma law. Murphy v. State, 54 P.3d
556, 567–68 (Okla. Crim. App. 2002), overruled in part
on other grounds by Blonner v. State, 127 P.3d 1135,
1139 (Okla. Crim. App. 2006). One expert witness, Dr.
Martin Krimsky, had already diagnosed Mr. Harris
with a mild intellectual disability. And other evidence
of Mr. Harris’s difficulties in intellectual and adaptive
functioning had already been introduced at a competency hearing and the 2001 trial.
8 At oral argument, the State also suggests that Mr. Harris might
have wanted to avoid the delay from a pretrial hearing on intellectual disability. But the State had never before argued in
state or federal court that Mr. Harris wanted to expedite his
capital proceedings. See United States v. Gaines, 918 F.3d 793,
800–801 (10th Cir. 2019) (“We typically decline to consider an
appellee’s contentions raised for the first time in oral argument.”).
9 We do not suggest that counsel should always argue points
lacking any downside. See Knowles v. Mirzayance, 556 U.S. 111,
121–22 (2009) (stating that counsel may not be ineffective by
declining to assert a defense even when there is nothing to lose).

App.16a
The State contends that defense counsel did not
request a pretrial hearing because he believed that
Mr. Harris was not intellectually disabled.10 For this
contention, the State points to the voir dire, where
defense counsel conceded that Mr. Harris was not
intellectually disabled. We do not know why defense
counsel made this concession,11 and there is nothing
to suggest that he had investigated the possibility of
an intellectual disability. Before this concession, Dr.
Krimsky had already testified that Mr. Harris was
intellectually disabled. Even if defense counsel had
disagreed with Dr. Krimsky’s assessment, the ABA
guideline required him to take advantage of every
opportunity to argue against a death sentence. One
such opportunity existed for a pretrial hearing on an
intellectual disability, and the failure to request this
hearing fell outside the acceptable range of reasonable performance. See Williamson v. Ward, 110 F.3d
1508, 1517–18 & n.12 (10th Cir. 1997) (concluding that
the petitioner’s counsel was ineffective in failing to
10 In oral argument, the State also argues for the first time
that a pretrial hearing on intellectual disability might have
generated new evidence for the State to support an aggravating
circumstance. This argument was omitted in the briefs. See
note 8, above. But even if we were to consider this argument,
the State does not explain what new evidence would have been
elicited at the pretrial hearing that had not already been fully
aired in the 2001 proceedings. Those proceedings included a
competency hearing and trial, and both included considerable
evidence of Mr. Harris’s mental state. In fact, the State ultimately
conceded that any resulting evidence in aggravation had already
been created in the 2001 proceedings. We thus reject the State’s
eventual argument that the pretrial hearing might have generated
additional evidence of an aggravating circumstance.
11 When defense counsel made the concession, he was supposed
to be asking questions to the venirepersons.

App.17a
seek a competency hearing given the existing evidence
of incompetency and the lack of any strategic advantage).
[* * *]
Defense counsel had nothing to lose by requesting a pretrial hearing on an intellectual disability.
Prevailing would have eliminated the possibility of
the death penalty, and losing would have left Mr.
Harris precisely where he would be anyway, free to
urge acquittal and a life sentence upon a conviction.
Given the evidence already developed in the 2001
proceedings, any reasonable defense attorney would
have sought a pretrial hearing on the existence of an
intellectual disability. By failing to seek a pretrial
hearing, Mr. Harris’s attorney bypassed a risk-free
opportunity to avoid the death penalty. Bypassing
this opportunity constituted a deficiency in the representation.
3. Prejudice Prong
Because the OCCA adjudicated the prejudice
prong on the merits, the federal district court could
have reached the merits of the prejudice issue only if
Mr. Harris had cleared the hurdle under 28 U.S.C.
§ 2254(d). See pp. 3–5, above. Section 2254(d) prevents
consideration of the merits unless the OCCA’s decision on prejudice was (1) contrary to, or an unreasonable application of, clearly established federal law or
(2) based on an unreasonable determination of fact in
light of the evidence presented in state court. 28 U.S.C.
§ 2254(d)(1)–(2).

App.18a
In our view, the OCCA’s decision on prejudice
was based on an unreasonable factual determination,
so we consider the merits.12
(a) Unreasonable Determination of Fact
Mr. Harris contends that the OCCA’s decision
was based on an unreasonable factual determination
under 28 U.S.C. § 2254(d)(2). He points to this passage
in the OCCA’s decision: “All Harris’s experts, including
the ones who testified at his [2001] trial and competency hearing, considered these scores along with
Harris’s other characteristics and concluded he was
not mentally retarded.” Harris v. State, 164 P.3d 1103,
1115 (Okla. Crim. App. 2007). Mr. Harris contends that
this passage reflects an unreasonable determination
of fact because Dr. Krimsky had assessed an intellectual disability.13
The State argues that Mr. Harris failed to preserve this contention in district court by limiting his
argument to Dr. Callahan’s affidavit. We disagree.
To preserve the issue in district court, Mr. Harris
needed only to alert the court to the issue and seek a
ruling. See Ecclesiastes 9:10-11-12, Inc. v. LMC Holding Co., 497 F.3d 1135, 1141 (10th Cir. 2007) (“An
issue is preserved for appeal if a party alerts the district court to the issue and seeks a ruling.”); United
States v. Harrison, 743 F.3d 760, 763 (10th Cir. 2014)
12 Given this conclusion, we need not decide whether the OCCA’s
decision on prejudice was contrary to, or an unreasonable application of, clearly established federal law.
13 Dr. Krimsky actually used the term “mentally retarded.” But
in analyzing Mr. Harris’s claim, we use the term “intellectually
disabled.” See note 1, above.

App.19a
(stating that the test for specificity of an objection in
district court “is whether the district court was adequately alerted to the issue”). We thus consider whether Mr. Harris’s argument in district court encompassed
Dr. Krimsky’s opinion. The State answers “no;” we
answer “yes.”
In district court, Mr. Harris treated Dr. Callahan’s
opinion as significant new evidence of intellectual
disability. But Mr. Harris did not confine his argument to Dr. Callahan’s opinion. Mr. Harris’s argument
on prejudice spanned roughly 32 pages. Within this
discussion lay Mr. Harris’s challenge to the OCCA’s
characterization of the expert opinions. Mr. Harris
prefaces this discussion by explaining why the OCCA’s
decision was unreasonable under § 2254(d)(2). See
Habeas Pet. at 107 (“Below is a discussion of the three
(3) criteria, the impact of Dr. Callahan’s report and
argument why the OCCA decision was unreasonable
under both prongs of § 2254 (d).”). In the ensuing
section, Mr. Harris extensively discusses all of the
prior expert opinions on the existence of an intellectual disability.
For example, in discussing the criterion of significant sub-average intellectual functioning, Mr. Harris
discusses Dr. Callahan’s references to IQ tests administered by herself, Dr. Martin Krimsky, and Dr. Nelda
Ferguson. Mr. Harris notes that the IQ tests by Dr.
Ferguson and Dr. Krimsky would have met the statelaw criterion for IQ test results below 70. And Mr.
Harris underscores Dr. Krimsky’s test results and
assessment of mild intellectual disability:
Dr. Krimsky concluded the IQ scores indicated that Mr. Harris was mildly mentally
retarded. He did not believe Mr. Harris was

App.20a
malingering or “trying to fool the test.” He
again confirmed Jimmy Dean Harris “an
individual with mental retardation.”

Id. at 110 (citations omitted).
Mr. Harris also discusses the expert opinions by
Dr. John Smith, Dr. Wanda Draper, and Dr. Ray
Hand. In this discussion, Mr. Harris points out that
Dr. Smith confirmed Dr. Krimsky’s testing as an
indication of intellectual disability. Id. at 112.
Despite this broad record-based attack on the
OCCA’s factual determination, the State points to
two pages in which Mr. Harris discusses his reliance
on Dr. Callahan’s opinion. The State’s reliance on
these two pages disregards the other 30 pages in Mr.
Harris’s argument as well as the nature of Dr.
Callahan’s report. In this report, Dr. Callahan relied
not only on her own examination and testing but also
on the prior testing and diagnoses. For example, Dr.
Callahan noted that Dr. Krimsky, Dr. Ferguson, and
Dr. Smith had separately diagnosed Mr. Harris as
having a mild intellectual disability.
The State also argues that Mr. Harris was relying
solely on Dr. Callahan’s opinion. We disagree. Mr.
Harris addressed all of the expert witnesses, including
both Dr. Krimsky and Dr. Callahan. On appeal, Mr.
Harris narrows his focus to Dr. Krimsky. This narrower
argument is subsumed by the broader argument that
Mr. Harris had presented in district court. The district
court was thus alerted to Mr. Harris’s appellate
argument, which sufficed for preservation. See Joseph
A. ex rel. Wolfe v. N.M. Dep’t of Hum. Servs., 28 F.3d
1056, 1060 (10th Cir. 1994) (concluding that the
appellants had preserved their appellate argument

App.21a
because it had been subsumed by the argument presented in district court); accord PCTV Gold, Inc. v.
Speednet, LLC, 508 F.3d 1137, 1144 n.5 (8th Cir.
2007) (concluding that an appellate argument was
preserved because it had been encompassed in a more
general argument presented in district court). Because
Mr. Harris preserved the issue, we consider the merits
of his challenge to the reasonableness of the OCCA’s
factual determination.
We conclude that the OCCA was clearly mistaken as to Dr. Krimsky. The OCCA concluded that
all of the defense experts had opined that Mr. Harris
was not intellectually disabled. Harris v. State, 164
P.3d 1103, 1115 (Okla. Crim. App. 2007). But Dr.
Krimsky had opined that Mr. Harris was intellectually
disabled.
In our appeal, the State appears to acknowledge
expert testimony that Mr. Harris is intellectually
disabled: “The only experts who have opined that Petitioner is mentally retarded have relied upon unreliable
test results that contradict the experts’ experiences
with him.” Appellee’s Resp. Br. at 32–33. In oral argument, the State elaborates on this argument, insisting
that the OCCA could reasonably reject Dr. Krimsky’s
test results because Mr. Harris was psychotic at the
time of testing. But this was not the OCCA’s rationale.
The OCCA reasoned that all defense experts had
opined that Mr. Harris was not intellectually disabled,
and this was simply not true of Dr. Krimsky. Harris,
164 P.3d at 1115.
The State also denies that the OCCA misunderstood Dr. Krimsky’s opinion. The State points to a
footnote where the OCCA

App.22a


noted that one expert had believed that he
“had” to say that Mr. Harris’s test scores
indicated an intellectual disability but



added that it “was not his conclusion” after
examining Mr. Harris.

Id. at 1115 n.55.
The State’s argument misstates the testimony.
Dr. Krimsky testified that he had administered two
IQ tests: (1) the Slossen Intelligence Test Revised
(“SIT”) and (2) the Wechsler Adult Intelligence Scale,
Revised (“WAIS-R”). Mr. Harris scored a 66 on the SIT
and a 68 on the WAIS-R, and Dr. Krimsky regarded
these scores as proof of mild intellectual disability.
He explained that “[t]here was an ambiguity
comparing the result of the first test [the SIT] . . . and
[Mr. Harris’s] occupation of having been involved in
repair of auto transmissions.” 2001 Comp. Hearing, vol.
1, at 63. But Dr. Krimsky noted that the second test
[the WAIS-R] was “much more comprehensive” with
“a high validity in relation to occupational and socioeconomic status.” Id. at 64. Dr. Krimsky ultimately
considered both sets of results to be consistent and
accurate.
Dr. Krimsky also testified that Mr. Harris’s mechanical skills could have been acquired by someone
who was mildly intellectually disabled, pointing out
that Mr. Harris had spent “a long period of time
. . . observing his father and other people fix transmissions.” Id. at 65. Given this lengthy period of
observation, Dr. Krimsky opined that Mr. Harris’s
low IQ was consistent with his skill in fixing transmissions.

App.23a
Dr. Krimsky thus testified that Mr. Harris’s
skills did not undermine the assessment of mild
intellectual disability. In fact, Dr. Krimsky corrected
an attorney who had referred to Mr. Harris as
“borderline,” with Dr. Krimsky repeating his characterization of Mr. Harris as having “mild mental
retardation.”14 Id. The OCCA thus made an unreasonable factual finding that all of Mr. Harris’s experts
had opined that he was not intellectually disabled.
Dr. Krimsky was one of Mr. Harris’s experts, and he
specifically opined that Mr. Harris was intellectually
disabled.
The State also argues that even if the OCCA’s
factual determination had been unreasonable, this
factual determination had not formed the basis for
the OCCA’s decision. As the State points out, it is not
enough for Mr. Harris to show an unreasonable
factual determination; the state court’s decision must
14 At one point, Dr. Krimsky was asked, “[W]hat conclusions
did you come to regarding [Mr. Harris’s] mental state as far as
his IQ and the mental retardation?” Id. He answered that the
“mental retardation” was “incidental.” Id. In Dr. Krimsky’s view,
Mr. Harris was “in a psychotic status and in need of mental health
treatment, psychiatric treatment.” Id. at 65–66. Dr. Krimsky
used the term “mental state” to refer to Mr. Harris’s competency
and his ability to retain consistent contact with his “outer situation.” Id. at 66–67. With respect to this mental state, Dr.
Krimsky concluded that Mr. Harris was delusional and not
competent, adding that Mr. Harris’s competency could probably
be restored within a reasonable period of time. But Dr. Krimsky
did not testify that the delusions had affected the IQ scores or
that Mr. Harris was trying to manipulate the results. Indeed,
Dr. Krimsky’s assessment of Mr. Harris’s intellectual disability
remained consistent throughout the competency hearing. In Dr.
Krimsky’s unchanging view, Mr. Harris had mild intellectual
disability.

App.24a
have also been “based on” the unreasonable factual
determination. Byrd v. Workman, 645 F.3d 1159, 1172
(10th Cir. 2011).
In our view, however, the OCCA did indeed base
its decision on the unreasonable factual determination. The OCCA explained that it had found no prejudice:
Nothing in this record shows that, had counsel made [a request for a pretrial hearing],
evidence would have shown by a preponderance of the evidence that Harris was
mentally retarded. There is a great deal of
evidence in the record to show otherwise,
including the opinion of several experts who
testified that Harris was not mentally
retarded. We cannot conclude that there was
a reasonable probability that, but for counsel’s
omissions, the results of this resentencing
proceeding would have been different.

Harris v. State, 164 P.3d 1103, 1116 (Okla. Crim. App.
2007) (emphasis added).15 By highlighting the expert

15 In assessing the evidence, the OCCA disregarded the fact
that the controlling Oklahoma definition of intellectual disability
was set forth in a case decided after the competency hearing
and the first trial. Murphy v. State, 54 P.3d 556, 567-68 (Okla.
Crim. App. 2002), overruled in part on other grounds by Bloomer
v. State, 127 P.3d 1135, 1139 (Okla. Crim. App. 2006). Accordingly, none of the 2001 testimony applied the controlling standard for an intellectual disability. We have no way of knowing
what the expert witnesses would have said if they had applied
the standard for an intellectual disability that governed at the
time of the 2005 retrial. For example, Dr. Ray Hand testified at
the first trial that Mr. Harris had exhibited “borderline intellectual functioning” but was not “mentally retarded.” 2001 Tr.,
v. 15, at 133–34. But Dr. Hand based that conclusion in part on

App.25a
opinions rejecting an intellectual disability, the OCCA
suggested that this was the critical evidence on prejudice. The OCCU thus based its decision on its
perception of the various expert opinions, including
its mistaken perception of Dr. Krimsky’s opinion.
(b) The Need for an Evidentiary Hearing
We thus must tackle the prejudice prong in the
first instance. Magnan v. Trammell, 719 F.3d 1159,
1175 (10th Cir. 2013). To do so, we must consider the
evidence of intellectual disability.
Mr. Harris contends that a pretrial hearing could
have led to a finding of intellectual disability, pointing
to his history of IQ testing, Dr. Callahan’s report,
expert testimony, and evidence of difficulties in
adaptive functioning. In response, the State focuses
on Mr. Harris’s older IQ tests, the testimony of other
experts, and Mr. Harris’s employment history.

his view about which IQ scores were “more realistic and more
representative of [Mr. Harris’s] actual abilities.” Id. at 131. In
contrast, the controlling standard does not require the parties
or the court to identify the more realistic or representative
score. The question is instead whether the defendant has “an
intelligence quotient of seventy or below, as reflected by at least
one scientifically recognized, scientifically approved, and contemporary intelligence quotient test.” Murphy, 54 P.3d at 568. Dr.
Hand did not apply this test.
Dr. Hand also testified about various deficits in Mr. Harris’s
adaptive functioning. But Dr. Hand was not asked whether Mr.
Harris had “significant limitations in adaptive functioning in at
least two of the following skill areas: communication; self-care;
social/interpersonal skills; home living; self-direction; academics;
health and safety; use of community resources; and work.”
Murphy, 54 P.3d at 568.

App.26a
The issue of prejudice turns on whether a reasonable factfinder could find an intellectual disability. With this issue hotly disputed and the lack of
a factual finding, the district court could not grant
habeas relief. See Littlejohn v. Trammell, 704 F.3d
817, 856 (10th Cir. 2013) (stating that even though
counsel’s conduct may have been prejudicial, the
court could not grant habeas relief “[a]t this juncture”
because the persuasiveness of particular expert
testimony was disputed and the claim was “highly factbound”).
Nor could the district court deny habeas relief,
for no factfinder has considered Mr. Harris’s evidence of intellectual disability based on the Oklahoma test that applied during Mr. Harris’s retrial.
Without a factual finding based on the applicable
test, a court could not properly assess the extent of the
prejudice.
To decide the issue of prejudice, the district court
needed to assess the likelihood that defense counsel
could have proven the existence of an intellectual
disability. Like us, the district court had only a cold
record containing conflicting evidence on Mr. Harris’s
intellectual status. Dr. Krimsky assessed an intellectual disability; Dr. Callahan assessed borderline
intellectual functioning; and Dr. Draper considered
Mr. Harris to be intellectually impaired but not intellectually disabled.16

16 Dr. Hand and Dr. Smith supplied other assessments. Dr. Hand
did not believe that Mr. Harris was mentally retarded (under
his definition of mental retardation) but thought that he had
“mixed specific learning disabilities” and was likely “slow” or
had “borderline intellectual functioning.” 2001 Tr., v. 15, at 133–

App.27a
No court has had the opportunity to hear these
experts testify and apply the Oklahoma test on intellectual disability. If these experts had testified in a
pretrial hearing focused on that test, which experts
would have swayed the factfinder? To provide at least
a meaningful prediction, a court must at least hear
the conflicting evidence, apply Oklahoma’s test for an
intellectual disability, and determine which expert
witnesses to believe. See Smith v. Sharp, 935 F.3d
1064, 1077 (10th Cir. 2019) (stating that “Atkins clearly
establishes that intellectual disability must be
assessed, at least in part, under the existing clinical
definitions applied through expert testimony” and
recognizing “the centrality of expert testimony to our
review of Atkins verdicts”). No court has engaged in
this scrutiny, so any court would need an evidentiary
hearing to predict the outcome of a pretrial hearing
on an intellectual disability.
We addressed a similar situation in Littlejohn v.
Trammell, 704 F.3d 817 (10th Cir. 2013). There we
concluded that the availability of habeas relief turned
on a disputed factual issue that prevented a
meaningful decision based on the cold record alone.
Littlejohn, 704 F.3d at 856. We directed the district
court to conduct an evidentiary hearing on the issue
of prejudice. Id. Here we have the same need for an
evidentiary hearing.
An evidentiary hearing is ordinarily unavailable
when the petitioner failed to diligently develop the
factual bases of the claim in state court. Williams v.

34. And Dr. Smith believed that Mr. Harris had “normal intelligence.” Comp. Hearing, v. 1, at 215.

App.28a

Taylor, 529 U.S. 420, 432 (2000).17 Here, however, Mr.

Harris diligently tried to develop the factual foundations of his claim when he was in state court. For
example, he argued that his trial counsel had failed
to seek a pretrial hearing on intellectual disability.
With this argument, Mr. Harris requested an evidentiary hearing and supported the request with Dr.
Callahan’s affidavit. The OCCA denied this request.
Mr. Harris did all that he could to develop the
factual foundation for a showing of prejudice. By
denying the opportunity for an evidentiary hearing,
the OCCA left us with only a cold record and no
factual findings for the innately fact-intensive issue
of prejudice.
Because Mr. Harris was diligent, we consider
whether Mr. Harris’s proof of allegations would entitle
him to habeas relief. See Hammon v. Ward, 466 F.3d
919, 927 (10th Cir. 2006). That inquiry turns on the
issue of prejudice. Defense counsel’s deficient performance would be prejudicial if a pretrial hearing would
create a reasonable probability of a lesser sentence.
See Strickland v. Washington, 466 U.S. 668, 694 (1984).

17 Exceptions exist when the habeas claim is based on


a new constitutional rule that the Supreme Court has
made retroactive on collateral review or



a factual predicate not reasonably discoverable earlier
through reasonable diligence, along with clear and
convincing evidence showing that no reasonable factfinder would have found guilt without the constitutional
error.

28 U.S.C. § 2254(e)(2)(A)(i)–(ii).

App.29a
Mr. Harris argues that if his trial attorney had
requested a pretrial hearing, the trial court would
have granted the request and found Mr. Harris intellectually disabled, rendering him ineligible for execution. We thus gauge the likelihood that the state court
would have found an intellectual disability.
As noted, the Supreme Court has prohibited the
execution of intellectually disabled individuals, but
allowed the states to define the term “intellectual
disability.” Atkins v. Virginia, 536 U.S. 304, 317 (2002).
When Mr. Harris appealed his conviction, Oklahoma
law required a defendant to show at least one IQ
score under 70. Murphy v. State, 54 P.3d 556, 567–68
(Okla. Crim. App. 2002), overruled in part on other
grounds by Blonner v. State, 127 P.3d 1135, 1139
(Okla. Crim. App. 2006). If the defendant produced at
least one score under 70, he or she would need to
satisfy three elements:
1.

The person “functions at a significantly subaverage intellectual level that substantially
limits his or her ability to understand and
process information, to communicate, to learn
from experience or mistakes, to engage in
logical reasoning, to control impulses, and
to understand the reactions of others.”

2.

The disability “manifested itself before the age
of eighteen.”

3.

The disability “is accompanied by significant limitations in adaptive functioning in
at least two of the following skill areas:
communication; self-care; social/interpersonal
skills; home living; self-direction; academics;

App.30a
health and safety; use of community resources; and work.”

Id.; see p. 8, above.
Mr. Harris’s counsel could have satisfied the
threshold requirement for at least one IQ score below
70. And the State does not challenge the second
element (manifestation before the age of eighteen).
The dispute exists on the first and third elements,
which address Mr. Harris’s intellectual and adaptive
deficits.
Mr. Harris’s evidence on intellectual deficits
involves three categories:
1.

his history of IQ testing,

2.

the testimony of an expert witness, and

3.

the affidavit of an expert witness.

First, Mr. Harris’s IQ testing began in his childhood. Two childhood IQ tests yielded scores of 87 and
83. After the murder, new IQ tests yielded scores of
63, 66, 68, and 75. And after Mr. Harris’s retrial, Dr.
Jennifer Callahan tested Harris’s IQ and obtained
scores ranging from 67–75 and 72–77.

App.31a
Date

Type of
Test

By

Score

1964

StanfordBinet
Revised

Dr. Teresa Costi- 87
loe at University
of Oklahoma
Hospital

1964

WISC

Dr. Teresa Costi- 83
loe at University
of Oklahoma
Hospital
The Murder

Oct. 20,
2000

WAIS-III

Dr. Nelda
Ferguson

63

March 8,
2001
March 21,
2001
July 20,
2001

SIT-R

Dr. Martin
Krimsky
Dr. Martin
Krimsky
Dr. Elizabeth
Grundy at

66

WAIS-R
WAIS-III

68
75

Eastern State
Hospital
Sentencing, Resentencing, and Direct Appeal
March 13,
2006
March 13,
2006

WASI-I
WoodcockJohnson III

Dr. Jennifer
Callahan
Dr. Jennifer
Callahan

67-75
72-77

Second, Mr. Harris points to Dr. Krimsky’s testimony about his two IQ tests. Dr. Krimsky testified in
the 2001 competency hearing, explaining that his
testing showed “mild mental retardation.” See 2001

App.32a
Comp. Hearing, v. 1, at 58. When asked whether Mr.
Harris’s occupation was consistent with borderline
intellectual disability, Dr. Krimsky corrected the attorney, pointing out that Mr. Harris was “not borderline”
and reiterated that he had “mild mental retardation.”
Id. at 65.
Third, Mr. Harris points to an affidavit and report
by Dr. Callahan, who concluded that Mr. Harris’s IQ
fell in the “impaired to borderline impaired range.”
R. at 287. On one test, Mr. Harris’s scaled score was
67–75; on another test, the scaled scored was 72–77,
which Dr. Callahan said would approximate the
mental status of a child only 6 years and 10 months
old. Dr. Callahan explained the disparity in Mr.
Harris’s IQ scores, concluding that “greater consistency” existed in the scores than “one may appreciate
initially” because IQ is ideally viewed as a range and
IQ scores change over time based on a phenomenon
known as the “Flynn effect.” Id. at 288.
The Flynn effect is designed to account for two
facts:
1.

IQ tests measure intelligence relative to the
contemporaneous general population, not as
an absolute number.

2.

IQ scores tend to increase over time.

Given these two facts, an older IQ test would typically
yield a higher figure than a more recent test for the
same individual. For example, Mr. Harris took one of
the IQ tests in 1964. By the time of Mr. Harris’s test,
the grading scale was roughly fifteen years old. So
Dr. Callahan lowered Mr. Harris’s score from 83 +/-5
to 75.5 +/-5.

App.33a
Dr. Callahan concluded that her findings indicated
“borderline intellectual functioning,” but she acknowledged that Mr. Harris’s cognitive abilities were “not
uniformly at this level.” Id. at 289.18
Mr. Harris also presented six forms of evidence
involving adaptive deficits:
1.

Dr. Callahan’s testing showed adaptive
strengths, including Mr. Harris’s “visualspatial thinking abilities,” which explained
how he could work. But his “relative weakness[es]” included the inability to quickly
process information, difficulty in learning and
recalling new information, and impairment
in his ability to “plan and organize.” Id. at
289–90.

2.

Mr. Harris had a history of poor academic
performance. Even with tutors, he dropped
out of high school and experienced problems
in recognizing words, spelling, and doing
mathematics. These problems led Dr. Callahan to regard Mr. Harris as functionally
illiterate, with abilities approximating those
of a first or second grader.

3.

Though Mr. Harris worked as a mechanic,
he was “slow” and his wife needed to read
the technical manuals and call hotlines for
help. 2005 Tr., v. 5, at 55–56, 58, 157.

4.

A former employer testified about difficulty
in communicating with Mr. Harris, stating
that “[h]e would start one sentence and end

18 Dr. Callahan added that Mr. Harris was not malingering.

App.34a
it with a different sentence.” 2001 Tr., v. 12,
at 28–29.
5.

Mr. Harris engaged in very risky behavior
as a child and teen, leading to injuries.

6.

Mr. Harris had a lifelong addiction to alcohol
and narcotics, showing difficulties in selfcare (a feature of adaptive functioning).

This combination of evidence could lead to a reasonable
finding that Mr. Harris had satisfied the first and
third elements of an intellectual disability (impairments in intellectual and adaptive functioning).
The State disagrees, relying on Mr. Harris’s childhood IQ tests and employment history. But the tests
and employment history invoked by the State are
controverted by
1.

Dr. Callahan’s discussion of the Flynn effect,
which would contextualize the IQ scores
stressed by the State,

2.

expert testimony that an intellectual disability would not necessarily prevent work
as a mechanic, and

3.

OCCA decisions in other cases stating that
similar evidence of adaptive functioning and
borderline intellectual functioning did not
preclude relief.19

19 For example, in Pickens v. State, 126 P.3d 612 (Okla. Crim.
App. 2005), the OCCA concluded that a petitioner was intellectually disabled as a matter of law when his IQ testing
indicated borderline intellectual functioning and showed some
ability to function adaptively. 126 P.3d at 618–20.

App.35a
Thus, proof of Mr. Harris’s allegations would
support the finding of an intellectual disability. Given
the potential for this finding, a habeas court could
view defense counsel’s failure to request a pretrial
hearing as prejudicial.
Ultimately, however, we cannot accurately
resolve the dispute over the first and third elements
of an intellectual disability. Mr. Harris and the State
point to evidentiary disputes on these elements, and
these disputes have not been presented to a factfinder
for resolution under Oklahoma’s test for an intellectual disability. So a decision on the prejudice prong
should await an evidentiary hearing in district court.
See p. 29, above (discussing Littlejohn v. Trammell,
704 F.3d 817, 856–57 (10th Cir. 2013)); accord Sasser v.
Hobbs, 735 F.3d 833, 850 (8th Cir. 2013) (concluding
that “misconceptions about the Arkansas legal standard [for identifying an intellectual disability] led the
district court to answer the wrong factual questions,
leaving the pertinent questions unanswered” and that
“[t]he proper course . . . [was] to vacate the district
court’s finding that [the defendant] [was] not mentally
retarded and remand so that the district court [could]
answer the critical factual questions in the first
instance according to the correct legal standard”); Allen
v. Buss, 558 F.3d 657, 663 (9th Cir. 2009) (observing
that “the [state] trial court did not determine whether
[the petitioner] is mentally retarded under Indiana’s
test for mental retardation” and remanding the case
to the federal district court for an evidentiary hearing).
(c) Conclusion
Engaging in de novo review, we conclude that
Mr. Harris has

App.36a


shown a deficiency in defense counsel’s performance and



alleged a theory of prejudice that, if true, could
justify habeas relief.

Although factual disputes preclude us from deciding
the issue of prejudice, Mr. Harris is entitled to an
evidentiary hearing. We thus remand for an evidentiary hearing as to prejudice. At this hearing, the
parties should be able to present expert testimony on
whether Mr. Harris satisfied Oklahoma’s test for an
intellectual disability. Smith v. Sharp, 935 F.3d 1064,
1077 (10th Cir. 2019) (noting our prior recognition of
“the centrality of expert testimony to our review of
Atkins verdicts”).
C. Failure to Adequately Present Mitigation
Evidence
The Supreme Court has recognized that attorneys
in death-penalty cases are ineffective if they bypass
evidence that might have altered the jury’s selection
of a penalty. Williams v. Taylor, 529 U.S. 362, 398
(2000). Mr. Harris invokes this case law, arguing that
his attorney failed to adequately present mitigation
evidence on intellectual impairments and mental
illness.
Mr. Harris’s arguments encompass evidence that
would show not only an intellectual disability but also
lesser intellectual impairments that the jury could
regard as mitigating. Mr. Harris also points to evidence
of other mental illnesses.20
20 We consider three categories of mitigating evidence. The
first is an “intellectual disability,” meaning evidence that meets

App.37a
1. The Legal Standard and the Standard
of Review
For these arguments, we consider whether the
OCCA unreasonably applied Strickland v. Washington, 466 U.S. 668 (1984). To assess prejudice, we must
evaluate the totality of the evidence, including
1.

the aggravating circumstances found by the
jury,

2.

the mitigation evidence,

3.

the mitigation evidence that might have been
introduced, and

4.

“what the prosecution’s response to that evidence would have been.”

Littlejohn v. Royal, 875 F.3d 548, 553 (10th Cir. 2017),
cert. denied, 139 S. Ct. 102 (2018). Applying both
prongs of Strickland (deficiency and prejudice), the

OCCA rejected the mitigation-related claims on the
merits.21 Harris v. State, 164 P.3d 1103, 1118 (Okla.
Crim. App. 2007). We thus apply the standard set
out in 28 U.S.C. § 2254(d). See pp. 3–4, above.

the Oklahoma test at the time of the 2005 retrial. The second is
“borderline intellectual functioning,” which consists of lesser
cognitive and adaptive impairments that might be mitigating.
See 2001 Tr., v. 15, at 133–36 (testimony of Dr. Hand). The
third category consists of other mental illnesses that might be
mitigating.
21 Mr. Harris insists that the OCCA’s denial of an evidentiary
hearing could not have constituted a denial on the merits. But
as we explain above, this argument is based on a misunderstanding of Oklahoma law. See pp. 11–13, above.

App.38a
2. Intellectual Impairment as a Mitigating
Factor
Mr. Harris argues that his attorney performed
deficiently by calling only one expert witness (Dr.
Draper) to testify about an intellectual impairment
involving either an intellectual disability or borderline intellectual functioning. According to Mr. Harris,
his attorney should have presented better mitigation
evidence of an intellectual impairment. In our view,
however, the OCCA acted reasonably in rejecting
this claim based on a failure to show either deficient
performance or prejudice.
(a) Evidence of Intellectual Impairments
In the 2005 retrial, defense counsel presented
testimony by seven of Mr. Harris’s family, friends,
and associates. But Mr. Harris’s attorney called only
one expert witness, Dr. Wanda Draper. Dr. Draper was
not an expert in intellectual impairments; her expertise
instead involved development, an interdisciplinary field
involving psychology, sociology, and other disciplines.
She testified mainly about Mr. Harris’s “life path,”
which included his childhood, education, and personal
relationships. 2005 Tr., v. 5, at 35.
Some of Dr. Draper’s testimony concerned Mr.
Harris’s intellectual impairments. For example, Dr.
Draper testified that Mr. Harris had “[p]oor [s]chool
[p]erformance,” was “[s]low [i]n school,” had an IQ score
in the 80s, suffered from “[d]yslexia,” had a “[c]ompulsive personality,” and experienced a “[p]erception
disorder.” Def. Exh. 2. Dr. Draper added that (1) Mr.
Harris’s dyslexia had impeded his ability to read and
write and (2) he had suffered from a “perception

App.39a
disorder,” which led to compulsiveness and an inability
to see things in perspective. 2005 Tr., v. 5, at 43.
Dr. Draper explained that Mr. Harris “was not
retarded, but he was slow and he had to do things
very slowly and with help.” Id. at 58. According to
Dr. Draper, the need to act slowly rendered him
dependent on Pam. Dr. Draper also explained the
unevenness in Mr. Harris’s IQ test results:
Q:

[H]e was given IQ tests, for lack of a better
term, intelligence test, after the fact, after
he was arrested.

A:

Right.

Q:

And there was a scatter in those IQ tests?

A:

Yes, they were relatively low, but there was
a scatter. And because he had what we would
call high level of spatial and visual intelligence
he was able to do that transmission work.
He had good eye/hand coordination. And he
was able to look at a three-dimensional object
and figure how it goes together in a car.
And all of that comes from a pretty high
level of spatial intelligence. But his other
intelligences were much lacking.

Id. at 68. On cross-examination, Dr. Draper supplied

greater detail about Mr. Harris’s history of intelligence
testing:
[W]hen he was tested during his early school
years it was low/normal IQ, I believe, in the
low 80s as a full scale. And it was only later,
after the fact, after the incident, I think he
was given a battery of tests by several
different examiners and he was found to

App.40a
have an IQ that ranged from the 60s to the
80s.

Id. at 133.
Both sides presented closing arguments on Mr.
Harris’s intellectual functioning. In their arguments,
the prosecutors acknowledged that Mr. Harris had a
low IQ, but questioned the reliability of Dr. Draper’s
testimony about past IQ tests. The prosecutors also
pointed out that another expert witness had opined
that Mr. Harris was malingering and told the jury:
Who ever told you that he had a low IQ and
that made it difficult for him to solve problems? He can solve problems. He just doesn’t
solve them in a way that we think is appropriate. Jimmy Dean Harris doesn’t have any
problem with the way he solves problems. It’s
the rest of us that need to fear him for his
problem-solving abilities.
2005 Tr., v. 6, at 935.
The defense countered with Dr. Draper’s testimony. Defense counsel urged the jury to focus on
[t]he images of a kid who falls behind in
school because he just can’t read. He’s got
dyslexia, but he’s also close to mentally
retarded. We don’t have an exact number,
but Dr. Draper testified that 75 was the best
consensus of all the numbers that she looked
at in the 60 hours that she prepared, talking
to everybody in this case, looking into his
life.

Id. at 944. The attorney later emphasized Mr. Harris’s
“75 IQ and real lack of problem-solving skills,” noting

App.41a
that Dr. Draper had “talked about [how] a person
with a little better makeup, a little better development,” would have been able to navigate the marital
conflict without resorting to murder. Id. at 960.
(b) Mitigation Evidence Involving an Intellectual Disability
On appeal, Mr. Harris argues that his trial counsel
was ineffective in failing to present mitigation evidence involving both an intellectual disability and
borderline intellectual functioning. But in the OCCA,
Mr. Harris did not argue that defense counsel should
have presented mitigation evidence involving an intellectual disability.
In briefing the issue to the OCCA, defense counsel
was specific, confining his argument to mitigation
evidence involving borderline intellectual functioning.
In making this argument, defense counsel considered
intellectual disability an issue that could be addressed
only in a pretrial hearing. If the defendant prevailed,
he would be ineligible for the death penalty under
Atkins v. Virginia, 536 U.S. 304, 321 (2002). If the
defendant lost on this issue, defense counsel apparently
assumed that he would have been barred from urging
mitigation based on an intellectual disability. Cf.
Blonner v. State, 127 P.3d 1135, 1144 (Okla. Crim.
App. 2006) (stating that if the pretrial hearing results
in a finding of no intellectual disability, “[t]he issue
of mental retardation shall not be relitigated at the
capital first degree murder trial”).22
22 At oral argument, Mr. Harris contends the opposite, insisting
that he could have urged mitigation based on an intellectual
disability even if the state trial court had found no intellectual

App.42a
Defense counsel thus acknowledged that he was
not alleging a failure to present additional mitigation
evidence involving “mental retardation.” He was instead
confining the argument to additional evidence of a
lesser intellectual impairment that he called “borderline mental retardation,” presumably a synonym for
Dr. Callahan’s preferred term “borderline intellectual
functioning”:
Appellant is not here claiming only to be
borderline mentally retarded–his claim of
mental retardation is addressed in Proposition
I. However, given the procedural posture of
this case, counsel could not have argued that
Mr. Harris was mentally retarded since the
mentally retarded are exempt from the
death penalty. If counsel had simply taken the
previous testimony at face value and not
conducted an independent investigation into
Mr. Harris’ mental deficiencies, then he would
have had overwhelming evidence that Mr.
Harris was borderline mentally retarded. On
the other hand, had defense counsel independently investigated his client’s mental
condition and determined that a sufficient
basis existed for a jury determination of the
mental retardation issue, it is likely that
such a hearing would have been held. In
such a case, either Mr. Harris would have
been determined to be retarded, or not, by a
jury. In this scenario, counsel would have
disability as a bar to execution. But the OCCA did not have the
benefit of this argument. In the OCCA, Mr. Harris had disclaimed
any argument that he could relitigate the existence of an intellectual disability at the penalty phase.

App.43a
argued borderline mental retardation because
had a jury determined Mr. Harris to be
mentally retarded, then there would have
been no capital sentencing at all.
Appellant’s Opening Br. at 16–17 n.15, No. D-2005117 (Okla. Crim. App. May 18, 2006).
Given Mr. Harris’s framing of the issue, the
OCCA never referred to an issue involving an intellectual disability. See Strelecki v. Okla. Tax Comm’n,
872 P.2d 910, 925 n.1 (Okla. 1993), clarified on reh’g
(Okla. Mar. 23, 1994) (“[C]ourts are not free to act as
advocates and to raise claims that should be raised by
the parties.”). The court instead referred to “diminished
mental capacity,” presumably as a synonym for defense
counsel’s term “borderline mental retardation” or Dr.
Callahan’s preferred term “borderline intellectual
functioning.” So the OCCA addressed only the lack of
mitigation evidence involving borderline intellectual
functioning (not an intellectual disability).
Mr. Harris’s failure to present the OCCA with his
current argument would ordinarily constitute nonexhaustion of state-court remedies. See 28 U.S.C. § 2254
(b)(1)(A). But exhaustion is unnecessary when it
would be futile. Selsor v. Workman, 644 F.3d 984,
1026 (10th Cir. 2011). And exhaustion now would be
futile because the OCCA would undoubtedly consider
the claim waived. See Slaughter v. State, 105 P.3d
832, 833 (Okla. Crim. App. 2005).23 Mr. Harris’s claim

23 Mr. Harris has already pursued a direct appeal and postconviction proceedings in which he could have (but failed to)
raise this argument.

App.44a
is thus subject to a procedural default,24 and consideration of the merits would be available only if Mr.
Harris shows cause and prejudice. Banks v. Workman, 692 F.3d 1133, 1144 (10th Cir. 2012). Because
Mr. Harris cannot show cause and prejudice, we
apply an anticipatory procedural bar and decline to
consider this claim. See Pavatt v. Carpenter, 928
F.3d 906, 924 (10th Cir. 2019) (en banc) (holding that
the habeas petitioner’s appellate argument was subject to an anticipatory procedural bar because the
argument had not been fairly presented to the
OCCA).25
(c) Mitigation Evidence Involving Borderline
Intellectual Functioning
We also reject Mr. Harris’s claim that his counsel
was ineffective in presenting mitigation evidence on
borderline intellectual functioning.
24 The State contends that even if the claim is unexhausted,
the court could deny relief on the merits under the AEDPA. It’s
true that unexhausted claims can be denied on the merits. 28
U.S.C. § 2254(b)(2). But if the OCCA had not decided the claim
on the merits, the AEDPA would not apply. See pp. 3–4, 10, above.
25 Mr. Harris contends that the State failed to preserve its current
argument that defense counsel had not acted deficiently in
failing to urge mitigation based on an intellectual disability.
But we ordinarily consider an appellee’s arguments for affirmance
even if they had not been presented in district court. See United
States v. Mosley, 743 F.3d 1317, 1324 & n.2 (10th Cir. 2014)
(considering an argument for affirmance made by the government for the first time on appeal even though the argument
conflicted with the government’s position in district court); see
also United States v. Bagley, 877 F.3d 1151, 1154 (10th Cir.
2017) (“Though the government did not raise this argument in
district court, we can affirm on alternative grounds when the
district court record is adequately developed.”).

App.45a
i.

The OCCA’s Reliance on Both Prongs (Deficient
Performance and Prejudice)

On this claim, the OCCA concluded that Mr.
Harris had not shown either deficient performance or
prejudice. Harris v. State, 164 P.3d 1103, 1116–18
(Okla. Crim. App. 2007). On the prong of deficient performance, the court
● noted that counsel had presented some evidence
that involved intellectual impairments,
● discussed the virtually unchallengeable nature
of strategic decisions, and
● concluded that defense “[c]ounsel’s choice of
mitigating evidence did not amount to ineffective assistance.”

Id. at 1103, 1116, 1118. In this discussion, the OCCA
rejected the claim at least partly based on Mr.
Harris’s failure to show a deficiency in the representation.

On the prejudice prong, the OCCA referred to
Mr. Harris’s argument “that that the prejudice from
this decision is evident.” Id. at 1118. The OCCA
rejected this argument, finding that the jurors at the
retrial had chosen the death sentence even after
hearing some of this mitigating evidence. Id.
ii.

Deficient Performance

Mr. Harris claims that defense counsel should
have presented additional mitigation evidence on his
borderline intellectual functioning. For this claim,
Mr. Harris argues that the OCCA made an unreasonable determination of fact under § 2254(d)(2). According
to Mr. Harris, the OCCA unreasonably found that Mr.
Harris’s attorney had strategically chosen to bypass

App.46a
additional mitigation evidence. Mr. Harris argues that
if his attorney had conducted a reasonable investigation, he would have learned of the evidence presented
in the 2001 proceedings and would have used a better
expert witness to explain the evidence of borderline
intellectual functioning. The OCCA concluded that
trial counsel’s performance was neither deficient nor
prejudicial. Harris v. State, 164 P.3d 1103, 1116–18
(Okla. Crim. App. 2007). These conclusions were reasonable under § 2254(d)(2).
We begin with the OCCA’s determination that
defense counsel’s selection of evidence had been strategic. Mr. Harris argues that the OCCA made an unreasonable factual determination because the statecourt record shows that defense counsel had not made
a strategic decision. For this argument, Mr. Harris
states that


nothing in the record supported the OCCA’s
determination that Mr. Harris’s attorney had
made a strategic decision and



after the penalty phase in the 2005 retrial, the
attorney continued to list Mr. Harris’s low IQ
and inadequate problem-solving skills as mitigating factors.

But we do not regard a factual finding as unreasonable if “‘[r]easonable minds reviewing the record might
disagree’ about the finding in question.” Wood v. Allen,
558 U.S. 290, 301 (2010) (quoting Rice v. Collins, 546
U.S. 333, 341–42 (2006) (alteration in original)).
Reasonable minds could conclude that Mr. Harris’s
attorney had strategically decided how to present the
evidence. For example, the record indicated that the
attorney was aware of the evidence that had been

App.47a
presented in the state-court proceeding. In a colloquy
with the judge, the attorney said: “I’m not calling any
shrinks, I’m not calling any psychiatrists or all of the
other people that testified last time.” 2005 Tr., v. 5,
at 150. The OCCA could reasonably infer from this
testimony that defense counsel


had known of the evidence in the 2001 trial
and



had deliberately declined to present additional
evidence of intellectual deficiencies.

See Wood v. Allen, 558 U.S. 290, 301–02 (2010) (holding
that evidence that counsel had known about omitted
evidence and chosen not to present it to a jury could
“fairly be read to support” the state court’s judgment
that counsel had acted strategically).26

In the alternative, Mr. Harris argues that even
if the OCCA had reasonably found that counsel acted
strategically, this strategy would not have involved a
reasonable investigation. This argument fails because
the OCCA reasonably applied Supreme Court decisions
in finding that defense counsel had not performed
deficiently. Wiggins v. Smith, 539 U.S. 510, 523 (2003).
To assess this argument, we consider the investigation underlying the strategy. Wiggins v. Smith,
539 U.S. 510, 523 (2003). Mr. Harris argues that the

26 Mr. Harris also incorporates other arguments regarding an unreasonable determination of fact. These arguments are addressed
elsewhere. For instance, Mr. Harris’s other arguments about the
scope of the investigation are better understood as arguments
for reversal under 28 U.S.C. § 2254(d)(1); we thus consider these
in our discussion of Mr. Harris’s arguments under § 2254(d)(1).

App.48a
investigation was unreasonable because the attorney
had


known of evidence, presented in the 2001 trial,
that Mr. Harris was intellectually disabled
and



engaged Dr. Draper (instead of another expert
witness with better qualifications) to discuss
intellectual impairments.

The OCCA concluded that Mr. Harris’s attorney
had decided not to highlight the diagnoses and testing,
choosing to focus instead on Mr. Harris’s development throughout his life. Harris v. State, 164 P.3d
1103, 1118 (Okla. Crim. App. 2007). This conclusion
was supported by the record: Dr. Draper testified
about Mr. Harris’s intellectual development and his
IQ testing. And in closing argument, defense counsel
emphasized Dr. Draper’s testimony about Mr. Harris’s
overall development. Counsel used that testimony to
argue that an adult with greater development would
not have committed the murder.
This was not a case in which an attorney failed
to investigate or present any mitigation evidence on
intellectual impairments. Rather, the defense attorney pursued a strategy focusing on childhood development rather than Mr. Harris’s mental state after the
crime. And in implementing this strategy, the attorney used a witness with expertise in personal development. Applying the deferential AEDPA standard,
we conclude that defense counsel’s performance fell
within the broad range of acceptable strategies. See
Doyle v. Dugger, 922 F.2d 646, 652 (11th Cir. 1991)
(concluding that defense counsel was not deficient for

App.49a
presenting only some of the available evidence about
the defendant’s mental state).
iii. Prejudice
Mr. Harris urges prejudice from his attorney’s
failure to call an expert on intellectual impairments,
focusing on the “inherently mitigating” nature of evidence of intellectual impairments when the death
penalty is at stake. Supp. Mem. Br. of Petitioner at 8
(quoting Tennard v. Dretke, 542 U.S. 274, 287 (2004)).
The OCCA found no prejudice from defense counsel’s
failure to present additional mitigation evidence
involving borderline intellectual functioning. This
finding was based on a reasonable determination of
facts and Supreme Court precedent.27
We addressed an analogous issue in Grissom v.
Carpenter, 902 F.3d 1265 (10th Cir. 2018). In Grissom,

the petitioner claimed that his trial attorneys had
been ineffective by failing to investigate and present
evidence of organic brain damage because of “red
flags” pointing to a potentially fruitful defense on
mitigation. 902 F.3d at 1272–73. We affirmed the denial of habeas relief, explaining that the petitioner
could not show prejudice partly because his attorney

27 We assume, for the sake of argument, that other evidence of
intellectual impairments would have been mitigating. In Tennard
v. Dretke, the Supreme Court recognized the inherently mitigating
nature of evidence involving intellectual impairments. 542 U.S.
274, 287 (2004). But in Atkins v. Virginia, the Supreme Court
noted that “reliance on mental retardation as a mitigating factor
can be a two-edged sword that may enhance the likelihood that
the aggravating factor of future dangerousness will be found by
the jury.” 536 U.S. 304, 321 (2002). That risk was arguably
present here because the State had alleged an aggravating circumstance of future dangerousness.

App.50a
had already presented a robust mitigation case and the
omitted report had “largely reflect[ed] the mitigating
narrative already presented at trial.” Id. at 1279
(quoting Grissom v. State, 53 P.3d 969, 995 (Okla.
Crim. App. 2011)).
This explanation is equally fitting here. Although
a cognition expert might have better emphasized the
extent of an intellectual impairment, defense counsel
did not present the kind of “paradigmatic halfhearted
mitigation case” that we’ve regarded as constitutionally defective. Littlejohn v. Royal, 875 F.3d 548, 563
(10th Cir. 2017), cert. denied, 139 S. Ct. 102 (2018).
Instead, defense counsel presented seven fact witnesses
who testified about


Mr. Harris’s need for Pam’s help in reading
technical information, doing paperwork, and
calling hotlines,



Mr. Harris’s difficulties in school because he
was a slow learner,



Mr. Harris’s dependable work, verbal combat
between Mr. Harris and Pam,



Pam’s berating of Mr. Harris, childhood suffering of parental abuse, and



Mr. Harris’s loving relationship with his
siblings and daughters.

Defense counsel also presented Dr. Draper, who testified that Mr. Harris was “slow,” had trouble in school,
and needed help in working and functioning in society.
2005 Tr., v. 5, at 58. Dr. Draper added that Mr. Harris’s
IQ scores were low, reflecting a high visual and spatial
intelligence that facilitated work as a transmission

App.51a
mechanic despite shortcomings in other intellectual
abilities. Id. at 68.
This testimony was not qualitatively different
than Dr. Callahan’s affidavit. Dr. Callahan assessed
Mr. Harris’s intellectual status as “borderline intellectual functioning.” R. at 289. And like Dr. Draper,
Dr. Callahan explained that Mr. Harris had strengths
that allowed him to work despite his intellectual deficits.
In closing argument, defense counsel also used
Dr. Draper’s testimony to emphasize Mr. Harris’s low
intellectual ability and poor problem-solving skills.
Given the evidence and closing argument, the OCCA
could reasonably attribute little value to additional
mitigation evidence on borderline functioning. We thus
conclude that the OCCA reasonably applied Supreme
Court precedents in finding no prejudice from the
failure to present greater evidence of borderline intellectual functioning.
(d) Mitigation Evidence Involving Mental
Illness28
Mr. Harris also argues that his attorney was
ineffective by failing to


call an expert witness specializing in mental
health,



highlight diagnoses of mental illness, and

28 As noted above, we use the term “mental illness” to refer to
various cognitive and behavioral deficits not included in the
other categories of intellectual impairments (intellectual disability
and borderline intellectual functioning). See note 20, above.

App.52a


i.

show how mental illness might have contributed to the murder. According to Mr. Harris,
these shortcomings were prejudicial because
the additional evidence might have convinced
at least one juror to vote for life in prison
rather than the death sentence. We reject this
argument.

Mental-Health Evidence in the 2005 Retrial

At the 2005 retrial, defense counsel presented
some evidence of mental-health problems. But Mr.
Harris argues that defense counsel should have presented additional evidence from the 2001 trial and
the competency hearing.
At the 2005 retrial, defense counsel urged mitigation based on Mr. Harris’s mental condition, alcoholism,
drug abuse, and strong emotions. But defense counsel
did not call an expert witness specializing in mental
health; most of the evidence involving these mitigating
factors came from Dr. Draper.
tion:

Dr. Draper testified about three facets of mitiga1.

When Mr. Harris had been a child, he
suffered parental abuse and saw his father
abuse his mother.

2.

As a teenager, Mr. Harris had obtained
narcotics and alcohol from his father, which
led to a lifelong pattern of substance abuse.

3.

Mr. Harris had tried to commit suicide.

Dr. Draper added that eight to ten other doctors had
found “serious psychological problems”:

App.53a
Q:

You have been given various psychological
tests that have been administered to Jimmy
Dean Harris over the years. Have there
been reports in there of any mental illnesses?

A:

Well, there were. This was—I think these
were tests that were administered after the
incident.

Q:

And approximately how many different
doctors?

A:

Well, there were probably eight or ten. I listed
those in my report; although, I did not pursue
that area with any diligence because that was
after the fact. The significance of that is all
of those found that he had some serious
psychological problems.

2005 Tr., v. 5, at 67–68. Dr. Draper also testified that
Mr. Harris was taking medication to control his mental
illness:
Q:

And have you seen any records of medications given to him in the jail?

A:

Yes. I think he’s taking some psychotropic
drugs and some other medications for general
health problems.

Q:

And you’re not a physician, but you do know
that the drugs are for controlling mental
illness?

A:

Yes.

Id. at 68–69.

App.54a
ii.

Other Existing Evidence of Mr. Harris’s Mental
Illness

In the prior proceedings, counsel for both parties
elicited additional evidence of Mr. Harris’s mental
illness.
For example, Dr. John Smith testified that before
the murder, Mr. Harris had suffered from bipolar II
disorder with psychosis. But Dr. Smith conceded that it
was difficult to pinpoint when Mr. Harris had experienced the effects of drugs and alcohol.
An expert witness for the prosecution testified
that Mr. Harris had


suffered from a major depressive episode with
associated psychotic features and



stabilized through medication.

And a jail counselor diagnosed Mr. Harris with schizoaffective disorder. Dr. Smith and the jail counselor
described Mr. Harris after the murder as erratic,
delusional, psychotic, and suicidal.
Other evidence suggested that Mr. Harris was
responsive to medication. Dr. Smith described these
medications and opined that they had helped, allowing
Mr. Harris to attend the trial and testify with focus.
iii. Claim of Ineffective Assistance of Counsel
Mr. Harris argues that defense counsel was ineffective for failing to call a mental-health expert and
present this evidence in the penalty phase. The
OCCA rejected this claim without specifying whether
the court was relying on (1) the failure to show deficient
representation or (2) prejudice. Harris v. State, 164
P.3d 1103, 1116–19 (Okla. Crim. App. 2007). Given

App.55a
this ambiguity, we apply 28 U.S.C. § 2254(d) on both
prongs (deficient performance and prejudice). Premo
v. Moore, 562 U.S. 115, 123 (2011).29
a. Deficiency Prong
Mr. Harris contends that the OCCA unreasonably determined the facts and applied Supreme
Court precedents.
(i) Unreasonable Factual Determinations
Mr. Harris argues that the OCCA based its decision on two unreasonable determinations of fact:
1.

that defense counsel had presented evidence
of a mental illness and

2.

that defense counsel had strategically decided
to downplay the evidence of mental illness.

We reject both arguments.
Mr. Harris first points out that the OCCA said that
“[w]hile Harris’s specific diagnoses of mental illness
[had not been] presented to the jury,” jurors had been
told that he was diagnosed as mentally ill. Harris v.
29 On this claim, Mr. Harris contends that the district court
should have conducted an evidentiary hearing. But the reasonableness of the OCCA’s conclusion must be based on the existing
state-court record. See Cullen v. Pinholster, 563 U.S. 170, 181
(2011) (holding “that review under § 2254(d)(1) is limited to the
record that was before the state court that adjudicated the
claim on the merits”); Hooks v. Workman, 689 F.3d 1148, 1163
(10th Cir. 2012) (stating that habeas review under § 2254(d)(2)
is also confined to the record in state court). Thus, the district
court could not consider evidence newly presented in federal court
to determine whether the OCCA had unreasonably applied federal law or determined the facts.

App.56a

State, 164 P.3d 1103, 1118 (Okla. Crim. App. 2007).

According to Mr. Harris, this statement constituted an
unreasonable determination of fact because the State
had denied the existence of any evidence of a mental
illness.
We reject Mr. Harris’s argument. The OCCA
observed that the jury “had been told” of a diagnosis.
Id. This observation was accurate, for Dr. Draper
had testified about a prior diagnosis of “serious
psychological problems.” 2005 Tr., v. 5, at 67–68; see
p. 54, above. The OCCA’s statement was thus reasonable based on the evidence presented.
The OCCA also stated that defense counsel had
strategically decided to downplay the evidence of
mental illness. Mr. Harris argues that this statement
entailed an unreasonable factual determination. See
28 U.S.C. § 2254(d)(2). For this argument, he points
to three facts:
1.

Defense counsel asked Dr. Draper whether
Mr. Harris’s medications were for a mental
illness, but defense counsel was unable to
obtain a response.

2.

Defense counsel then tried to call an expert
witness regarding Mr. Harris’s medications,
but the trial court sustained an objection
based on inadequate notice.

3.

Despite the inability to obtain a response or
call an expert witness on medications, defense
counsel continued to list Mr. Harris’s “mental
condition” as a mitigating factor.

Mr. Harris argues that these three facts show that
defense counsel had tried to prove a mental illness

App.57a
through an expert witness but couldn’t because counsel
had violated evidentiary and disclosure requirements.
A state appellate court’s finding may be reasonable
even if we would have decided the issue differently.
Grant v. Trammell, 727 F.3d 1006, 1024 (10th Cir.
2013). The test is whether the state appellate court
had evidentiary support for its view. Id.
Under this test, the OCCA finding was reasonable. When defense counsel called an expert witness
to testify about Mr. Harris’s medications, the judge
asked the relevance. The attorney explained: “It goes
to mitigation, that he has something wrong with him
and we don’t know what it is.” 2005 Tr., v. 5, at 152.
The attorney added that “[a]ll he is going to do is say
these are his medications and one, two, three, and
four are mental health medicines the other ones are
for something else. And that’s all he is going to say.”
Id. at 149.
The OCCA could reasonably find that defense
counsel was trying to present limited evidence on
mental health, informing the jury of a mental illness
without enough detail to spark concern about continued dangerousness. The attorney couldn’t ultimately
execute this strategy, but the OCCA could view the
strategy itself as reasonable. We thus conclude that
the OCCA acted reasonably in viewing defense counsel’s
effort as strategic.
(ii) Unreasonable Application of Supreme
Court Precedents
The OCCA also reasonably applied Supreme
Court precedents on the deficiency prong. The ultimate
failure of the attorney’s effort does not undermine

App.58a
the reasonableness of the OCCA’s conclusion. United
States v. Haddock, 12 F.3d 950, 956 (10th Cir. 1993).
Mr. Harris contends that his attorney failed to
present expert testimony on the nature, extent, and
significance of the mental illness. Again, however, the
OCCA acted reasonably in rejecting this contention.
As we discuss below, the excluded evidence constituted
a “double-edged sword” with substantial aggravating
potential. See p. 62, below. Given this potential for
aggravation, the OCCA justifiably concluded that
defense counsel had acted reasonably.
b. Prejudice
Even if Mr. Harris could satisfy the deficiency
prong, the claim would have foundered on the prejudice
prong. Mr. Harris argues that his counsel’s failure to
present mitigation evidence of mental illness (1) opened
the door to evidence of malingering and (2) bypassed
powerful mitigation evidence that would have explained Mr. Harris’s violent actions and why, with
proper treatment, he would be unlikely to repeat this
crime.
In analyzing the prejudice prong, we consider
not only the mitigation evidence that defense counsel
should have presented but also what the prosecution
would have presented in response. Wilson v. Trammell, 706 F.3d 1286, 1306 (10th Cir. 2013). To identify
that evidence, we can consider the 2001 trial as a useful
guide. At that trial, the prosecution had used Dr.
John Call, who testified that


a “strong possibility” existed that Mr. Harris
was a psychopath and

App.59a


psychopaths were more violent than other
individuals.

2001 Tr., v. 16, at 75–78.
This testimony was supported by Mr. Harris’s own
expert at the 2001 trial, Dr. Smith. Dr. Smith regarded
Mr. Harris as bipolar and acknowledged that bipolar
individuals share traits with psychopaths. After acknowledging the sharing of these traits, Dr. Smith
refused to rule out Dr. Call’s diagnosis of Mr. Harris
as a psychopath or as someone with antisocial personality disorder, admitting the presence of “elements”
of these conditions in Mr. Harris’s history and in his
current psychological status. 2001 Tr., v. 18, at 182.
Dr. Smith thus admitted that Mr. Harris presented a
substantial risk of violence. Id. at 183. On crossexamination, Dr. Smith added that Mr. Harris had
antisocial traits:
Q:

But you don’t disagree with the diagnosis
that [Mr. Harris] has an antisocial personality disorder?

A:

As long as you mix it with a mixed personality disorder with narcissistic, obsessivecompulsive, and antisocial traits. I do believe
he does have that.

Id. at 192. Dr. Smith also acknowledged that Mr.
Harris had each clinical trait associated with antisocial
personality disorder.

Given this prior testimony, the OCCA could
reasonably conclude that further mitigation testimony
involving mental illness would have opened the door
to evidence of psychopathy with antisocial personality
disorder. “[C]ourts have characterized antisocial person-

App.60a
ality disorder as the prosecution’s ‘strongest possible
evidence in rebuttal.’” Littlejohn v. Royal, 875 F.3d
548, 564 (10th Cir. 2017) (quoting Evans v. Sec’y,
Dep’t of Corr., 703 F.3d 1316, 1327 (11th Cir. 2013)),
cert. denied, 139 S. Ct. 102 (2018).
We addressed a similar issue in Littlejohn v.
Royal, 875 F.3d 548 (10th Cir. 2017), cert. denied,

139 S. Ct. 102 (2018). There the petitioner presented
evidence of organic brain disorder. The State responded
with evidence of a diagnosis involving antisocial
personality disorder, and the defense expert admitted that the petitioner had displayed traits consistent with the diagnosis. Id. at 565. Given the nature
of antisocial personality disorder, we concluded that
the evidence of an organic brain disorder was likely
to be aggravating rather than mitigating. Id.
The same is true here. Like organic brain damage,
mental illness can be mitigating; but the OCCA could
reasonably view this possibility as outweighed by the
risk of rebuttal evidence of psychopathy and antisocial
personality disorder.
Mr. Harris argues that the jury at the 2005 retrial
heard testimony about his violent past with no explanation involving his mental illness. But the OCCA
could reasonably find that the aggravating nature of
the omitted evidence had outweighed the mitigation
value.
By focusing on Mr. Harris’s development rather
than his mental illness, defense counsel also kept
other possibly aggravating evidence from the jury.
For instance, the presence of an untreatable condition
could have suggested future dangerousness. Littlejohn,
875 F.3d at 565. And Dr. Smith admitted that

App.61a


he could not be confident that Mr. Harris would
refrain from violence while on medication,



Mr. Harris had probably been properly medicated during his 2001 competency trial (when
he attacked a detention officer), and



Mr. Harris had probably not been in a psychotic state when he committed the murder.

With these admissions, Dr. Smith could not say
whether Mr. Harris’s mental illness was connected to
the crime.
Finally, Mr. Harris argues that his counsel’s
actions opened the door to evidence of malingering.
Even if defense counsel had presented additional
mental-health evidence, however, the State could
still have presented evidence of malingering. Indeed,
at the 2001 trial, a prosecution witness had testified
that Mr. Harris was exaggerating the symptoms of any
mental illness. So the OCCA could reasonably consider
evidence of malingering as available irrespective of
defense counsel’s strategy.
In sum, the OCCA acted reasonably in concluding that the omissions were not prejudicial.30
30 Mr. Harris points out that


the jury at the 2001 trial had declined to find the
aggravator of future dangerousness after hearing evidence of mental illness and



the jury at the 2005 retrial did find this aggravator
without hearing that evidence.

But other possible explanations may account for the juries’ different
findings on future dangerousness. For example, the 2001 jury
was erroneously instructed on the availability of housing in a
minimum-security prison, and the jury at the 2005 retrial

App.62a
II.

Jury Instructions and Closing Arguments on
Mitigation Evidence

In capital cases, the Eighth and Fourteenth
Amendments ordinarily prevent the trial court from
barring consideration of any of the defense evidence
on mitigation. Lockett v. Ohio, 438 U.S. 586, 604
(1978) (plurality opinion).31 Mr. Harris argues that
the State violated this right in two ways:
1.

The trial court instructed the jury too narrowly on the evidence that could be considered
mitigating.

2.

In closing argument, the first prosecutor
exploited this instruction by telling the jury
that it should consider mitigation evidence
only if it diminished Mr. Harris’s moral
culpability.

These errors, according to Mr. Harris, created a reasonable likelihood that one or more jurors believed

heard new evidence about Mr. Harris’s violent actions. Given
these differences, we decline to speculate about why either jury
found as it did.
31 The Lockett plurality stated:
[W]e conclude that the Eighth and Fourteenth Amendments require that the sentencer, in all but the
rarest kind of capital case, not be precluded from
considering, as a mitigating factor, any aspect of a
defendant’s character or record and any of the circumstances of the offense that the defendant proffers
as a basis for a sentence less than death.

Lockett, 438 U.S. at 604 (emphasis in original) (footnote omitted).

A majority of the Supreme Court later adopted this view in

Eddings v. Oklahoma, 455 U.S. 104, 113–15 (1982).

App.63a
themselves unable to consider some of Mr. Harris’s
mitigation evidence.
A. The Standard of Review
The OCCA rejected this claim. Because Mr.
Harris did not object to the instruction or the closing
argument, the OCCA reviewed for plain error. Harris
v. State, 164 P.3d 1103, 1113 (Okla. Crim. App.
2007). Applying the plain-error standard, the OCCA
relied on its precedent to find the jury instruction
constitutional. E.g., Williams v. State, 22 P.3d 702,
727 (Okla. Crim. App. 2001), cited with approval in
Harris, 164 P.3d at 1113 n.40. The OCCA thus focused
on the prosecutors’ arguments, considering how they
might have affected the jury’s ability to consider
mitigation evidence. In considering this effect, the
OCCA found that


the first prosecutor’s argument had been
improper and



the second prosecutor’s argument and the jury
instruction had rendered the first prosecutor’s
argument harmless.

Harris, 164 P.3d at 1113–14.
We treat the OCCA’s decision under the plainerror standard as an adjudication on the merits.
Hancock v. Trammell, 798 F.3d 1002, 1011 (10th Cir.
2015); see pp. 3–4, above. We thus review this decision under 28 U.S.C. § 2254(d). Hancock, 798 F.3d at
1011–12; see pp. 3–4, above.32
32 As noted above, the OCCA stated that the first prosecutor’s
argument was improper but harmless. Harris v. State, 164 P.3d
1103, 1113–14 (Okla. Crim. App. 2007). But the test (discussed

App.64a
This review comprises two parts. We first ask
“whether there is a reasonable likelihood that the
jury has applied the challenged instruction in a way
that prevents the consideration of constitutionally
relevant evidence.” Underwood v. Royal, 894 F.3d 1154,
1169 (10th Cir. 2018) (quoting Boyde v. California,
494 U.S. 370, 380 (1990)), cert. denied, 139 S. Ct.
1342 (2019). We then ask whether a reasonable
likelihood exists that “arguments by the prosecutor
. . . reinforced an impermissible interpretation of [the
challenged jury instruction] and made it likely that
jurors would arrive at such an understanding.” Id.
(quoting Boyde, 494 U.S. at 384).
B. The Jury Instruction
Mr. Harris challenges Instruction Number 8,
which stated in part: “Mitigating circumstances are
those which, in fairness, sympathy, and mercy, may
extenuate or reduce the degree of moral culpability or
blame.” R. at 1607. Mr. Harris argues that this instruction improperly prevented the jury from considering
all available mitigation evidence.
We rejected this argument in Hanson v. Sherrod,
where we considered the constitutionality of the
same instruction. 797 F.3d 810 (10th Cir. 2015). When
faced with this argument, we addressed the instructions
as a whole. Id. at 851 (quoting Boyde v. California,
494 U.S. 370, 378 (1990)). Viewing them as a whole,
we noted that three other jury instructions had
in the text) determines whether a constitutional violation took
place, not whether an error was harmless. See Calderon v.
Coleman, 525 U.S. 141, 146 (1998) (stating that Boyde ’s test of
“reasonable likelihood” is used to determine whether a constitutional error took place, not to determine harmlessness).

App.65a
suggested that the jury would recognize its ability to
consider all of the defendant’s mitigation evidence:
1.

The trial court had instructed the jury that
it was to decide which “circumstances [were]
mitigating . . . under the facts and circumstances of this case.”

2.

Another jury instruction had identified many
mitigating circumstances, and some did not
involve moral culpability.

3.

The trial court had also instructed the jury
that it “may decide that other mitigating circumstances exist, and if so, [the jury] should
consider those circumstances as well.”

Id. Given these instructions, we concluded in Hanson

that a jury would not “have felt precluded from
considering any mitigation evidence, including the
testimony of the four testifying witnesses.” Id.
The same three instructions were given here. So
under Hanson, we conclude that the OCCA reasonably
determined that the jury would have understood its
ability to consider all of Mr. Harris’s mitigation evidence. Hanson, 797 F.3d at 851; see Simpson v.
Carpenter, 912 F.3d 542, 578 (10th Cir. 2018).
Mr. Harris argues that the OCCA has


expressed concern about the way that Oklahoma prosecutors have used the jury instruction
and



ordered revision of the jury instruction to
minimize future abuses.

Harris v. State, 164 P.3d 1103, 1114 (Okla. Crim. App.
2007). But we have twice rejected the same argument,

App.66a
reasoning that the OCCA’s concern over the wording
of the instruction did not suggest that it was unconstitutional. Hanson v. Sherrod, 797 F.3d 810, 851
(10th Cir. 2015); Grant v. Royal, 886 F.3d 874, 934–
35 (10th Cir. 2018). Given these prior decisions, we
conclude that the OCCA’s concern over the instruction did not render its constitutional holding unreasonable.
C. The Prosecutors’ Closing Arguments
Mr. Harris argues that even if the jury instruction
itself had been constitutional, one of the prosecutors
improperly exploited the jury instruction to urge disregard of Mr. Harris’s mitigation evidence, violating
the Eighth and Fourteenth Amendments. The OCCA
rejected this argument. The court acknowledged that
the first prosecutor’s arguments had been improper;
however, the court considered the impropriety harmless
because the jury instructions on mitigating circumstances were proper and the second prosecutor had
invited the jury to consider all of the mitigating circumstances. Harris v. State, 164 P.3d 1103, 1113 (Okla.
Crim. App. 2007).33 In the OCCA’s view, the “second

33 At oral argument, the State defends the first prosecutor’s
arguments, stating that they invited the jury to consider mitigation
evidence and to give it little weight. For example, the first
prosecutor acknowledged that the jury


could consider “sympathy or sentiment for the defendant” and



needed to determine the importance of the mitigating
circumstances.

2005 Tr., v. 6, at 909. And this prosecutor acknowledged the jury’s
need to balance the mitigating and aggravating circumstances.

App.67a
prosecutor invited jurors to consider all Harris’s mitigation evidence, weigh it against the aggravating circumstances, and find that the death penalty was
appropriate.” Id. Mr. Harris contends that the OCCA
acted unreasonably in finding facts and applying
Supreme Court precedents. We disagree because


the OCCA could reasonably view this part of
the closing argument as an invitation to
consider all of the evidence on mitigation and
find it overridden by the horrific nature of the
crime and



Mr. Harris has not shown that the OCCA based
its decision on an erroneous interpretation of
the prosecutor’s closing argument.
1. Applicability of 28 U.S.C. § 2254(d)

The threshold issue is whether § 2254(d) applies.
It ordinarily would apply if the OCCA adjudicated
the merits of Mr. Harris’s constitutional claim. See pp.
3–4, 10, above. The OCCA wasn’t explicit. It characterized the first prosecutor’s closing argument as
improper, but didn’t say whether this impropriety
rose to the level of a constitutional violation. Regardless
of the basis for characterizing the argument as impropId. at 940–41. But the OCCA found that the first prosecutor’s
arguments had been improper:

One prosecutor did consistently argue in closing that
jurors should not consider Harris’s second stage evidence as mitigating, since it did not extenuate or
reduce his guilt or moral culpability. This argument
improperly told jurors not to consider Harris’s
mitigating evidence.

Harris v. State, 164 P.3d 1103, 1113 (Okla. Crim. App. 2007).

App.68a
er, the OCCA ultimately regarded the impropriety as
harmless. Harris, 164 P.3d at 1113–14.
The district court characterized the OCCA’s
reasoning as an adjudication on the merits, triggering
§ 2254(d). D. Ct. Dkt. 77 at 49. In his appeal briefs,
Mr. Harris doesn’t question this characterization. We
thus decline to sua sponte revisit the district court’s
application of § 2254(d). See Grant v. Royal, 886 F.3d
874, 931–32 n.20 (10th Cir. 2018) (concluding that
the Court should not sua sponte reject the applicability
of the AEDPA on a claim involving the prosecutor’s
improper exploitation of a jury instruction defining
the proper use of mitigating evidence).
2. Unreasonable Determination of Fact
In his rebuttal argument, the second prosecutor
told the jury:
I’m asking you to make a decision that I
believe is based upon principal [sic], to
examine the evidence, determine whether
you believe beyond a reasonable doubt one
or both of these aggravators are in existence,
and I submit to you, and then to make a determination of whether these—these mitigation issues that [Mr. Harris’s attorney] has
brought up really override the day of terror,
and a day that took a couple of weeks to
think through.
2005 Tr., v. 6, at 982–83. In our view, the OCCA could
reasonably construe this statement as an invitation
to weigh all of the mitigation evidence against the
aggravation evidence and decide that the death
sentence was appropriate.

App.69a
The prosecutor did contend that the defense’s
arguments on mitigation would not “override the day
of terror.” The term “override” refers to the act of
weighing one item against another. See Override,
Oxford English Reference Dictionary 1038 (Judy
Pearsall & Bill Trumble eds., 2d ed. rev. 2006) (providing a primary definition of “override” as “have a
claim precedence or superiority over”). Given this
meaning of “override,” the OCCA could reasonably
conclude that the second prosecutor had urged the
jury to consider all of the mitigation evidence and to
find that it paled in comparison to the terrible nature
of the crime itself. Under this interpretation, the
second prosecutor’s rebuttal argument would not
have restricted the universe of circumstances that
could be considered mitigating. Grant v. Royal, 886
F.3d 874, 938 (10th Cir. 2018), cert. denied, 139 S.
Ct. 925 (2019).
Mr. Harris notes that the second prosecutor also
referred to moral culpability: “Do not reward this
man for the things that he claims are somehow
supposed to not make this as blameful, if you will,
these things that he says somehow lessen his blame,
lessen his moral responsibility.” 2005 Tr., v. 6, at
983. According to Mr. Harris, this statement reflects
further efforts to restrict mitigating circumstances to
those bearing on moral culpability. This argument
bears defects that are both procedural and substantive.
The argument is procedurally defective because


in the state-court appeal, defense counsel
never criticized the second prosecutor’s reference to moral culpability and

App.70a


in our appeal, defense counsel did not criticize
this statement in their opening brief.

Defense counsel instead referred to this excerpt only
in their reply brief, when the State no longer had an
opportunity to respond. Making the argument in the
reply brief was too late. See Byrd v. Workman, 645
F.3d 1159, 1166 n.8 (10th Cir. 2011).
Even if we were to consider the second prosecutor’s reference to moral culpability, however, it
would not render the OCCA’s interpretation unreasonable. The second prosecutor was responding to
what defense counsel had argued. Defense counsel
had argued that Mr. Harris was not a cold-blooded
terrorist and was reacting to setbacks involving divorce
and unemployment. The second prosecutor characterized this argument as an effort to minimize blame
and moral culpability. With this characterization, the
prosecutor attributed the statement about blame and
moral culpability to defense counsel, arguing that
“the [defense counsel] says [these things] somehow
lessen [Mr. Harris’s] blame, lessen his moral responsibility.” 2005 Tr., v. 6, at 983. The prosecutor himself
was not suggesting that the universe of mitigating
circumstances should be limited to those that diminish
blame or moral culpability; he was saying that
defense counsel’s argument involved an effort to
downplay blame and moral culpability. We thus do
not regard the OCCA’s interpretation of the rebuttal
argument as objectively unreasonable.
Even if the OCCA had unreasonably interpreted
the rebuttal argument, however, § 2254(d)(2) would
prevent the district court from reaching the merits.
Under § 2254(d)(2), the habeas court can consider the
merits only if the petitioner shows that the OCCA

App.71a
based its decision on the factual error. 28 U.S.C.
§ 2254(d)(2); see Lott v. Trammell, 705 F.3d 1167,
1177 (10th Cir. 2003) (stating that “the burden rests
on [the petitioner] to establish that the OCCA’s analysis was ‘based on an unreasonable determination of
the facts’” (quoting 28 U.S.C. § 2254(d)(2))).
In deciding that the first prosecutor’s improper
arguments were harmless, the OCCA gave two reasons:
1.

The second prosecutor told the jury to
consider all of Mr. Harris’s mitigating circumstances and find that the death penalty
was appropriate based on the greater
strength of the aggravating circumstances.

2.

The trial court properly instructed the jury
on the definition of mitigation evidence, Mr.
Harris’s evidence, and the jurors’ duties.

Harris v. State, 164 P.3d 1103, 1113 (Okla. Crim. App.
2007).

Mr. Harris challenges the first reason, but not the
second. Let’s assume, for the sake of argument, that
the first reason was objectively unreasonable. Given
this assumption, the OCCA’s second reason would
remain valid and provide sufficient support for the
OCCA’s finding of harmlessness:
[E]ven if a state court’s individualized factual
determinations are overturned, what factual
findings remain to support the state court
decision must still be weighed under the
overarching standard of section 2254(d)(2).

Lambert v. Blackwell, 387 F.3d 210, 235–36 (3d Cir.

2004). Indeed, the OCCA has elsewhere found improper
closing arguments harmless when the jury was

App.72a
properly instructed. E.g., Miller v. State, 313 P.3d 934,
977 (Okla. Crim. App. 2013); Ake v. State, 663 P.2d
1, 9 (Okla. Crim. App. 1983), rev’d on other grounds,
470 U.S. 68 (1985). So even if the OCCA had unreasonably interpreted the second prosecutor’s closing
argument, Mr. Harris would have failed to show that
the decision itself had been based on this factual
error.
[* * *]
In sum, Mr. Harris has not satisfied his burden
of showing that the OCCA based its decision on an
unreasonable factual determination. The OCCA could
reasonably interpret the second prosecutor’s argument as an invitation to consider all of the mitigation
evidence and find it overridden by the aggravating
circumstances. The second prosecutor did mention
moral culpability, but Mr. Harris did not address this
statement in the state-court appeal or in his opening
appellate brief. And the second prosecutor referred to
moral culpability only when he paraphrased defense
counsel’s argument. In these circumstances, Mr. Harris
has not overcome § 2254(d)(2).
3. Unreasonable Application of Supreme
Court Precedent
Mr. Harris also argues that the OCCA’s decision
entailed an unreasonable application of Supreme
Court precedent. See 28 U.S.C. § 2254(d)(1). We reject
this argument.
Like Mr. Harris and the OCCA, we view the first
prosecutor’s comments as improper. The first prosecutor told the jury that a mitigating circumstance
was something that “extenuates or reduces the degree

App.73a
of moral culpability or blame of [Mr.] Harris for
murdering Merle Taylor.” 2005 Tr., v. 6, at 929. The
prosecutor then pointed to each alleged mitigating
circumstance and asked if it reduced or extenuated
Mr. Harris’s moral culpability. Id. at 929–40. The
prosecutor then proposed a two-part test:
One, is it true? Is what they have listed here
true? Did it really happen? And, two, if it is
true, does it make a difference? Does it
extenuate or reduce his culpability for the
murder of Merle Taylor? Because it’s got to
be both.

Id. at 930 (emphasis added). Through these statements,

the prosecutor effectively told the jury that the mitigation evidence mattered only if it tended to reduce
Mr. Harris’s culpability, creating a risk that one or
more jurors believed that they could not consider
constitutionally relevant evidence of mitigation. See
Underwood v. Royal, 894 F.3d 1154, 1169 (10th Cir.
2018), cert. denied, 139 S. Ct. 1342 (2019).
We thus inquire whether “the OCCA could reasonably conclude that it was not reasonably likely that
the [first] prosecutor’s comment[s] precluded the jury
from considering mitigation evidence, in light of the
jury instructions and the other unchallenged comments
of the prosecution.” Grant v. Royal, 886 F.3d 874, 939
(10th Cir. 2018), cert. denied, 139 S. Ct. 925 (2019).
Under this inquiry, a court could grant habeas relief
only if “no fairminded jurist would agree with the
OCCA’s conclusion that the jury was not precluded
from considering the evidence offered by [the petitioner] in mitigation.” Simpson v. Carpenter, 912 F.3d
542, 582 (10th Cir. 2018). In our view, fair-minded
jurists could have agreed with the OCCA’s conclusion

App.74a
in light of the jury instructions and the second prosecutor’s rebuttal argument.
When the petitioner argues that a prosecutor
exploited a jury instruction to improperly restrict
what could be mitigating, we consider the extent to
which the jury was properly instructed. See, e.g.,
Grant, 886 F.3d at 939; Hanson v. Sherrod, 797 F.3d
810, 852 (10th Cir. 2015). The jury at the 2005 retrial
received virtually all of the jury instructions that we
have regarded as curative. For example, the trial
court instructed the jury that


“the determination of what circumstances are
mitigating is for you to resolve under the facts
and circumstances of this case” and



evidence had been introduced on a long list of
mitigating circumstances (many of which bore
no relationship to moral culpability).

See pp. 66–67, above. In detailing the mitigating circumstances, the trial court reminded the jury of evidence that Mr. Harris


had a “sister and a brother who love him” and
“daughters who love[d] and need[ed] him,”



had a “low I.Q.,”



had been addicted to drugs and alcohol, and
had lost his mother to cancer when he was
young.

R. at 1608–10. These instructions served to broaden
the first prosecutor’s language, suggesting to the jury
that it could consider all of the mitigation evidence
regardless of whether it related to moral culpability.
Hanson, 797 F.3d at 851; see Brown v. Payton, 544

App.75a
U.S. 133, 144 (2005) (“[F]or the jury to have believed
it could not consider Payton’s mitigating evidence, it
would have had to believe that the penalty phase
served virtually no purpose at all.”).
In similar circumstances, we have often held
that prosecutors’ improper arguments on mitigation
evidence are ameliorated by the jury instructions.
E.g., Grant v. Royal, 886 F.3d 874, 939–42 (10th Cir.
2018); Underwood v. Royal, 894 F.3d 1154, 1171–73
(10th Cir. 2018); Simpson v. Carpenter, 912 F.3d
542, 581–82 (10th Cir. 2018); Cuesta-Rodriguez v.
Carpenter, 916 F.3d 885, 911–12 (10th Cir. 2019);
Johnson v. Carpenter, 918 F.3d 895, 907–08 (10th
Cir. 2019); Harmon v. Carpenter, 936 F.3d 1044,
1074–77 (10th Cir. 2019). For example, in CuestaRodriguez v. Carpenter, the trial court instructed the
jury on numerous mitigating circumstances, told the
jury that it was to determine what was mitigating, and
stated to the jury that it could consider sympathy for
the defendant. Cuesta-Rodriguez, 916 F.3d at 911–
12. Given these instructions, we held that the OCCA
had reasonably applied Supreme Court decisions in
rejecting a similar constitutional claim. Id. at 912.
All of these instructions were given here.
Mr. Harris contends that in one of our prior cases,

Grant v. Royal, the trial court had given two instructions that were omitted here:
1.

that the jury instructions contained all of
the law and rules for the jury to follow and

2.

that the prosecutor’s closing arguments were
arguments only and for purposes of persuasion.

We reject these contentions.

App.76a
Mr. Harris contends that the Grant panel found
it “critically ameliorative” that the trial court had
told the jury that the instructions contained all of the
law and rules to be followed. Appellant’s Reply Br. at
32. Though the Grant panel did consider this instruction, along with others, the panel did not suggest that
this instruction was “critical” to the outcome. Instead,
the Grant panel simply mentioned this instruction
“[i]n addition” to others. Grant, 886 F.3d at 941. Indeed,
many of our opinions recognize the ameliorative
impact of other jury instructions with no indication
that the jury had been told that the instructions
constituted all of the law and rules to be followed.
E.g., Simpson, 912 F.3d at 581–82; Cuesta-Rodriguez,
916 F.3d at 911–12; Johnson, 918 F.3d at 907–08.
But even if this instruction had been critical, it

was given to Mr. Harris’s jury. Just after voir dire,

the trial court instructed Mr. Harris’s jury that its
responsibility was “to follow the law as stated in the
instruction that [the trial court] will give [the jury].”
2005 Tr., v. 2, at 427. The trial court returned to the
subject later, explaining what would likely happen if
the jury were to ask questions during its deliberations. 2005 Tr., v. 6, at 984. The court explained
that it would likely answer that the jury has “all the
law and evidence necessary to reach a verdict.” Id.
The court explained that this answer would mean
that all of the necessary information is in the jury instructions or the evidence. Id. at 984–85. Thus, Mr.
Harris’s jury was ultimately told that all of the
applicable law was in the instructions.
Mr. Harris also observes that the jury in Grant had
been told that the prosecutor’s remarks constituted
only argument and were offered only for persuasion.

App.77a
886 F.3d at 941–42. Mr. Harris says that this instruction was “critical” in Grant. Appellant’s Reply
Br. at 32. We are not sure why Mr. Harris regards
this instruction as critical, for the Grant panel attached
no particular importance to this instruction. In any
event, Mr. Harris’s jury was instructed to confine
itself to the evidence and reminded that “[n]o statement or argument of the attorneys [was] itself evidence.” 2005 Tr., v. 2, at 428.
Along with the ameliorating jury instructions,
some of the second prosecutor’s arguments also mitigated the risk from the first prosecutor’s improper
arguments. For example, the second prosecutor told
the jury to weigh the defense’s evidence against the
aggravating evidence to see if the mitigation evidence
outweighed the aggravating evidence.34 And both
prosecutors spent considerable time rebutting the
34 Mr. Harris insists that the second prosecutor did not suggest
to the jury that it consider any of the mitigation evidence.
According to Mr. Harris, the absence of such a suggestion
distinguishes Simpson v. Carpenter and Grant v. Royal. We
disagree. As noted above, the OCCA reasonably concluded that
the second prosecutor had invited the jury to consider all of the
evidence, both mitigating and aggravating. See pp. 71–74,
above. But this factor was not present in Simpson. There we
described the prosecutor’s improper arguments as “pervasive,”
“extensive,” and “recurring.” 912 F.3d 542, 581, 588 (10th Cir.
2018), petition for cert. filed (U.S. July 24, 2019) (No. 19-5298).
Nowhere did we rely on arguments inviting the jury to weigh
the mitigation evidence. See id. at 585–87. The same is true in
Grant. 886 F.3d 874, 943 (10th Cir. 2018) (“To be sure, unlike
Hanson, there were no further statements from the prosecution—i.e., Ms. Elliott—in rebuttal closing that could reasonably
suggest that ‘the prosecutor encouraged the jury to consider all
sorts of mitigating evidence.’” (quoting Hanson v. Sherrod, 797
F.3d 810, 852 (10th Cir. 2015))).

App.78a
defense’s mitigation evidence even when it had not
involved moral culpability. The prosecutors attacked
this evidence not only because it bore no relationship
to moral culpability but also on grounds that the evidence lacked reliability or trustworthiness. For
example, the first prosecutor attacked the reliability of
Mr. Harris’s evidence on an intellectual impairment.
From this attack, the jury could “logically infer from
this presentation that the evidence actually did
legally qualify as mitigating evidence, and that the
question before them” involved the accuracy, credibility, and weight of this evidence. Grant v. Royal, 886
F.3d 874, 943 (10th Cir. 2018) (emphasis in original).
Mr. Harris underscores the repeated nature of
the first prosecutor’s improper comments. But we’ve
upheld the reasonableness of a similar conclusion by
the OCCA even when the prosecutor had made at least
“nine separate statements which either generally
defined mitigating evidence as reducing moral culpability or blame or specifically compared [the petitioner’s]
mitigating factors to that definition.” Simpson v.
Carpenter, 912 F.3d 542, 578 (10th Cir. 2018). And
there the prosecutor had not said anything to encourage consideration of all mitigating factors. Id. at 580;
see note 34, above.
Given the ameliorating jury instructions and the
closing arguments as a whole, fair-minded jurists
could agree with the OCCA’s conclusion that the jury
had understood its ability to consider Mr. Harris’s
mitigation evidence. We thus conclude that the OCCA
did not unreasonably apply Supreme Court precedent.

App.79a
III. Victim-Impact Testimony
Mr. Harris also contends that the prosecution
improperly elicited victim-impact testimony. Though
some of the testimony was unconstitutional, the constitutional violation was harmless.
A. The Constitutional Limit on Victim-Impact
Testimony
Mr. Harris’s contention stems from the interplay
between two Supreme Court opinions: Booth v. Maryland and Payne v. Tennessee. In Booth v. Maryland,
the Supreme Court held that the introduction of
victim-impact testimony at a capital-sentencing proceeding violated the Constitution. 482 U.S. 496, 509
(1987). In Payne v. Tennessee, the Supreme Court
overruled part of Booth, holding that “evidence and
argument relating to the victim and the impact of
the victim’s death on the victim’s family are []admissible at a capital sentencing hearing.” 501 U.S. 808,
830 n.2 (1991). But the Payne Court did not overrule
Booth’s recognition that the Constitution forbids “the
admission of a victim’s family members’ characterizations and opinions about the crime, the defendant,
and the appropriate sentence.” Id. Thus, Booth continues to ban the families of murder victims from
requesting a particular sentence. Bosse v. Oklahoma,
580 U.S. ___, 137 S. Ct. 1, 2 (2016) (per curiam).
B. The Victim-Impact Testimony and the Issue
of Harmlessness
In Mr. Harris’s case, two of Mr. Taylor’s family
members requested the death penalty. Mr. Harris
argues that allowing this testimony violated the Constitution. The OCCA rejected this argument. Harris v.

App.80a

State, 164 P.3d 1103, 1110 (Okla. Crim. App. 2007).

The OCCA was wrong: Introduction of this testimony
was unconstitutional under Booth and Payne, and
the OCCA’s decision was contrary to clearly established Supreme Court precedent. Dodd v. Trammell,
753 F.3d 971, 996 (10th Cir. 2013).
The remaining question is whether the constitutional error was prejudicial or harmless. On this
question, we engage in de novo review. Lockett v.
Trammell, 711 F.3d 1218, 1238 (10th Cir. 2013). We
regard the improper testimony as prejudicial only if
it had a substantial and injurious effect or influence
in determining the jury’s verdict. Id.
Mr. Taylor’s son testified for the State, asking
for the death penalty: “On behalf of myself, my entire
family, I respectfully ask that you impose the maximum allowable punishment and, in my mind, the
only acceptable punishment, and sentence [Mr.] Harris
to death.” 2005 Tr., v. 4, at 891. Mr. Taylor’s widow
also testified, asking the jury to impose the death
penalty: “It grieves me that my husband went to his
grave not knowing why he had to die. My sons,
grandchildren, and I ask you to sentence [Mr.] Harris
to death.” Id. at 901.
In her closing argument, the first prosecutor did
not refer to the family members’ requests for the
death penalty. She instead urged the jury: “Do not be
guilted into making your decision because . . . the
Taylors are going to be upset, frankly. Make your
decision because it is right, it is just, it is what is
appropriate.” 2005 Tr., v. 6, at 935. Similarly, the
second prosecutor did not explicitly mention the
family members’ requests for the death penalty. But
this prosecutor did quote extensively from the family

App.81a
members’ testimony, urging the jury not to reward
Mr. Harris by sparing his life. Right after asking the
jury one more time not to “reward [Harris],” the
second prosecutor continued, “Toby Taylor [the son]
and Carolyn Taylor [the widow] said this.” Id. at 979.
The prosecutor then summarized the family members’ testimony on how they were affected by the
murder.
C. Structural or Harmless Error
The threshold issue is whether a habeas court
can review for harmlessness when the trial court
improperly allows victim-impact testimony. Mr. Harris
opposes review for harmlessness and urges us to
treat the requests for the death penalty as structural
error, contending that


Oklahoma prosecutors regularly elicit family
requests for the death penalty and



the OCCA has improperly tolerated this
pattern of improper conduct.35

But we have rejected the same arguments in Underwood v. Royal, holding that erroneous introduction of
victim-impact testimony is reviewable for harmless-

35 Until 2017, the Oklahoma Court of Appeals had interpreted
Payne to overrule Booth in its entirety. Bosse v. State, 360 P.3d
1203, 1226 (Okla. Crim. App. 2015). The Supreme Court expressly
rejected the OCCA’s view in Bosse v. State, reiterating that
Payne had left intact Booth’s prohibition against a family
member’s request for a particular sentence. Bosse v. Oklahoma,
580 U.S. ___, 137 S. Ct. 1, 2 (2016) (per curiam). On remand,
the OCCA overruled its prior cases and held that the Constitution forbids victim-impact testimony recommending a particular sentence. Bosse v. State, 400 P.3d 834, 855 (Okla. Crim.
App. 2017).

App.82a
ness. 894 F.3d 1154, 1177 (10th Cir. 2018). We are
bound by this precedent. Leatherwood v. Albaugh,
861 F.3d 1034, 1042 n.6 (10th Cir. 2017). Given this
precedent, we consider whether the error was harmless.36
D. Harmlessness
We regard the erroneous introduction of victimimpact testimony as harmless.
For harmlessness, we consider whether the constitutional error “had substantial and injurious effect
or influence in determining the jury’s verdict.” Brecht
v. Abrahamson, 507 U.S. 619, 623 (1993) (quoting
Kotteakos v. United States, 328 U.S. 750, 776 (1946)).
On one occasion, we concluded that improper victim36 The Supreme Court has noted that an unusual case might
involve a pattern of prosecutorial misconduct so egregious that
habeas relief might be appropriate even without prejudice.
Brecht v. Abrahamson, 507 U.S. 619, 638 n.9 (1993). But when
the 2005 retrial took place in an Oklahoma courtroom, Oklahoma’s
highest criminal court had held that the Constitution did not
forbid victim testimony requesting a particular sentence. E.g.,
Murphy v. State, 47 P.3d 876, 885 (Okla. Crim. App. 2002),
overruled in part on other grounds by Blonner v. State, 127
P.3d 1135, 1139 (Okla. Crim. App. 2006). We had said the
opposite. Hooper v. Mullin, 314 F.3d 1162, 1174 (10th Cir.
2002). But Oklahoma prosecutors were simply following what
Oklahoma’s highest criminal court had said on the issue.
Even if we were to regard the prosecutor’s conduct as egregious,
however, a habeas court could avoid the issue of harmlessness
only if the victim-impact testimony had rendered the trial fundamentally unfair. Underwood v. Royal, 894 F.3d 1154, 1178
(10th Cir. 2018). As discussed elsewhere, the improper testimony
consisted of two sentences in a five-day trial. Though the two
sentences were emotional and powerful, they did not render the
entire trial fundamentally unfair.

App.83a
impact testimony had a substantial and injurious effect
or influence. Dodd v. Trammell, 753 F.3d 971, 997
(10th Cir. 2013). There we relied on three factors:
1.

The prosecution had elicited a “drumbeat”
consisting of six to seven witnesses requesting the death penalty.

2.

The jury had rejected the State’s arguments
for aggravating circumstances involving a
“heinous, atrocious, or cruel” murder or the
existence of a “continuing threat.”

3.

The case for the defendant’s guilt had not
been clear-cut.

Id. at 997–98. None of these factors are present here.

Only two testifying witnesses requested death, far
from a “drumbeat.”37 The jury also found the aggravator of a continuing threat, and Mr. Harris has not
challenged his guilt.
Other factors also point to harmlessness, including
the ameliorating influence of the jury instructions,
the brevity of the improper testimony, and the absence
of any mention in the prosecutors’ closing arguments.
For example, the trial court instructed the jury that
37 Even when the prosecution presents a “drumbeat” of
improper victim testimony, the constitutional violation may be
harmless. In Bush v. Carpenter, for example, “sentence recommendations were lengthy [and] egregious.” 926 F.3d 644, 668
(10th Cir. 2019); see also id. at 680 (“[T]he victim impact statements were numerous, emotional, and in at least one instance,
egregious. . . . ”). Still, we held that the constitutional violation
was harmless “given the circumstances of the murder, the
presence of the aggravating factors, and the substantial evidence presented in support of those aggravating factors.” Id. at
681.

App.84a
it could consider the evidence “in determining an
appropriate punishment,” but only as “a moral inquiry
into the culpability of the defendant” and not based
on an “emotional response to the evidence.” R. at
1616. The jury was also told that it could consider
“sympathy or sentiment for the defendant.” Id. at
1618 (emphasis in original). These instructions
mitigated the prejudicial impact of the improper
victim-impact testimony. DeRosa v. Workman, 679
F.3d 1196, 1240 (10th Cir. 2012). We consider not
only the ameliorating instructions but also the brevity
of the improper testimony, which consisted of only
two sentences. See Lockett v. Trammell, 711 F.3d
1218, 1239 (10th Cir. 2013) (considering the error to
be harmless when the family’s requests for death
consisted of “a single, concise sentence”).38 And in
their closing arguments, the prosecutors did not
explicitly refer to the family members’ requests for
the death penalty.
Mr. Harris argues that the State presented a
weak case on aggravation.39 We disagree. The jury
found two aggravators:
38 Mr. Harris argues that the son’s request was expansive,
consisting of seventeen pages of argument on why the death
penalty was the only appropriate punishment. But the son’s
testimony mainly concerned the effect of the crime, which was
permissible. See Payne v. Tennessee, 501 U.S. 808, 827 (1991)
(“A State may legitimately conclude that evidence about the
victim and about the impact of the murder on the victim’s
family is relevant to the jury’s decision as to whether or not the
death penalty should be imposed.”).
39 For this argument, Mr. Harris relies on Dodd v. Trammell,
753 F.3d 971, 998 (10th Cir. 2013), where we discounted the
aggravating factors because they had added little beyond the
findings of guilt. Dodd, 753 F.3d at 998. There the jury’s finding

App.85a
1.

great risk of death to more than one person
and

2.

continuing threat.

Mr. Harris does not challenge the sufficiency of the
evidence on either aggravator, and the State presented powerful evidence on both.
First, to show a great risk of death to more than
one person, the State presented evidence that Mr.
Harris had not only killed Mr. Taylor but also fired
multiple times at Pam Harris and Jennifer Taylor.
Pam Harris testified that she had suffered a gunshot
to her hip and had seen the gun aimed at her head.
She struggled as Mr. Harris tried to reload the gun,
which he then used to smash her on the head and
face.
Second, the State presented considerable evidence
of the aggravator involving a continuing threat. This
evidence included


bar fights,



physical abuse of Pam Harris,



intimidating tactics, and



threats against Pam Harris’s family.

Given this evidence, the OCCA reasonably found “a
lifelong pattern of using violence to solve problems
and react to situations which is likely to continue.”

of an aggravator involving a prior conviction had been based on
a decades-old conviction, and the aggravator for great risk of
death to more than one person had been based on the fact that
the defendant had murdered two people. Id.

App.86a

Harris v. State, 164 P.3d 1103, 1111 (Okla. Crim. App.
2007).

Mr. Harris, of course, would have been imprisoned
for life if he had avoided the death penalty. But even
while he was in jail, Mr. Harris had assaulted a
guard. In this incident, Mr. Harris covered his cell
window and surprised the guard, repeatedly pummeling him.
Mr. Harris attributes this assault to his need for
medication. But Dr. Smith acknowledged that Mr.
Harris had probably been medicated at the time of
the assault.40
[* * *]
We conclude that the constitutional error did not
substantially affect the jury’s sentencing recommendation, so the district court acted correctly in
rejecting this habeas claim.
IV. Cumulative Error
Mr. Harris also urges cumulative error. In our
view, the district court should revisit this issue on
remand.
A cumulative-error analysis aggregates all errors
that are individually harmless, analyzing whether
40 Mr. Harris suggests that county officers might have “messed
up” his medications, stating that the Oklahoma Department of
Corrections is much more reliable in administering medication.
Appellant’s Reply Br. at 23. For this suggestion, however, Mr.
Harris relies on evidence from the 2001 trial, not the 2005
retrial involved in this appeal. In the 2005 retrial, no one
presented evidence of an error in medicating Mr. Harris before
this assault.

App.87a
the cumulative effect undermines confidence in the
fairness of the retrial and reliability of the verdict.
Workman v. Mullin, 342 F.3d 1100, 1116 (10th Cir.
2003). We consider cumulative errors to be separate
constitutional violations. Hanson v. Sherrod, 797 F.3d
810, 852 n.16 (10th Cir. 2015).
When we reject a claim of ineffective assistance
based on a lack of prejudice, we can aggregate the
prejudice from the deficient performance. Cargle v.
Mullin, 317 F.3d 1196, 1207 (10th Cir. 2003). As a
result, the claim of cumulative error would ordinarily
include the prejudice from two claims:
1.

any prejudice from counsel’s failure to seek a
pretrial hearing on an intellectual disability
and

2.

an error in admitting the victim-impact
testimony.

On the claim of cumulative error, the OCCA also
included any incremental prejudice from the first
prosecutor’s closing argument about the jury’s consideration of mitigation evidence. Harris v. State, 164
P.3d 1103, 1119 (Okla. Crim. App. 2007). We have
held that Mr. Harris failed to show an unreasonable
legal or factual determination on the constitutionality of the closing arguments. See pp. 67–81, above.
Though we have not recognized a constitutional violation involving the closing arguments, the constitutional test bears a close resemblance to the test for
harmlessness. See Boyde v. California, 494 U.S. 370,
393 (1990) (Marshall, J., dissenting) (“[T]he ‘reasonable likelihood’ standard should be understood to be
an equivalent of the ‘harmless error’ standard adopted
in Chapman v. California.”). Arguably, then, any incre-

App.88a
mental prejudice from this claim may need to be
combined with the prejudice from defense counsel’s
failure to seek a pretrial hearing on an intellectual
disability and a constitutional error in allowing the
victim-impact testimony.
But the parties have not briefed whether this
claim should be considered in the mix on the claim of
cumulative error. We thus leave consideration of this
threshold issue to the district court on remand. See

Greystone Const., Inc. v. Nat’l Fire & Marine Ins.
Co., 661 F.3d 1272, 1290 (10th Cir. 2011) (“[T]he better
practice on issues raised [below] but not ruled on by
the district court is to leave the matter to the district
court in the first instance.” (quoting Apartment Inv.
& Mgmt. Co. v. Nutmeg Ins. Co., 593 F.3d 1188, 1198
(10th Cir. 2010))).

The State also contends that in analyzing the
claim of cumulative error, the court should not include
any prejudice from the failure to request a pretrial
hearing on an intellectual disability, asserting that
the prejudice would have arisen before the trial and
could not “accumulate with trial errors.” Appellee’s
Resp. Br. at 96. But all we have are two sentences
without any explanation, authority, or response. So
we also leave this second threshold issue for the district
court to decide in the first instance. See Greystone
Const., Inc., 661 F.3d at 1290.
MOTION TO EXPAND
THE CERTIFICATE OF APPEALABILITY

Mr. Harris moves to expand the certificate of
appealability to include whether “trial counsel breached
his duty to Mr. Harris by his failure to present as
mitigation a psychological risk assessment to diminish

App.89a
the evidence presented by the State that Mr. Harris
posed a continuing threat to society.” Appellant’s Mot.
for Modification of Certificate of Appealability at 2
(text case changed).
At the 2005 retrial, the State urged an aggravating circumstance involving Mr. Harris’s continued
threat. The defense countered with Dr. Draper, who
testified that


Mr. Harris had been incarcerated for over 1800
days with only one incident,



Mr. Harris would not be dangerous in the
structured environment of a prison,



the availability of proper medication would
remove any possible danger, and



murderers are generally less likely than
others to act violently while in prison.

Mr. Harris argues that defense counsel should
have presented expert testimony of a risk assessment.
In state court, for example, Mr. Harris presented a
risk assessment by J. Randall Price, Ph.D. The OCCA
rejected this argument, concluding that defense counsel
had acted reasonably at the 2005 retrial. Harris v.
State, 164 P.3d 1103, 1118–19 (Okla. Crim. App. 2007).
We could grant a certificate of appealability on
this issue only if the district court’s ruling were debatable among reasonable jurists. Miller-El v. Cockrell,
537 U.S. 322, 338 (2003). Because the OCCA adjudicated the merits of the deficiency prong, the federal
district court would need to apply § 2254(d) on this
prong. See pp. 55–56, above. Mr. Harris could thus
obtain a certificate of appealability on this claim only by
showing that reasonable jurists could debate his

App.90a
ability to clear the hurdle of § 2254(d). See Dunn v.
Madison, 583 U.S. ___, 138 S. Ct. 9, 11 (2017) (per
curiam).
No reasonable jurist would regard this issue as
debatable. As the OCCA noted, defense counsel


had countered the prosecution with Dr. Draper,
who testified that Mr. Harris would not pose a
significant risk of future violence in a
structured environment, and



had strategic reasons to limit the evidence of
future dangerousness.

Mr. Harris contends that Dr. Price could have
provided more persuasive evidence. But Dr. Price’s
opinion created two risks:
1.

His opinion could have backfired.

2.

Dr. Price had diagnosed Mr. Harris as bipolar
with psychotic features, which could have
led to further evidence of dangerousness.

Dr. Price opined that even in a maximumsecurity prison, Mr. Harris had “an 18.8% probability
of violent conduct.” Appl. for Evid. Hearing, Exh. B-2 at
7. In stating this opinion, Dr. Price defined “violent”
conduct as an “assaultive or dangerous” act creating
an imminent threat of serious bodily injury. Id. at 6.
The OCCA could reasonably infer that defense counsel
might have regarded an 18.8% risk of future violence
as high. Indeed, Dr. Price acknowledged that this
percentage exceeded the base rate for capital
murderers (16.4%). Id. at 7.
Second, Dr. Price noted that Mr. Harris had
“been diagnosed as bipolar with psychotic features.”

App.91a

Id. at 8. An acknowledgment of psychotic features

could have led the State to present additional evidence of future dangerousness. In the 2001 trial, for
example, Dr. Smith acknowledged that bipolar disorder
and psychopathy share many of the same characteristics. 2001 Tr., v. 18, at 179–80. This sort of testimony
in the 2005 retrial could have been “devastating.” See
United States v. Barrett, 797 F.3d 1207, 1232 (10th
Cir. 2015).
Given the possibility that a risk assessment might
backfire, defense counsel could reasonably focus instead
on Mr. Harris’s difficult upbringing and on his generally positive conduct while in prison. See Lott v.
Trammell, 705 F.3d 1167, 1209 (10th Cir. 2013)
(stating that defense counsel was not ineffective for
failing to present a risk assessment because crossexamination could have yielded negative information
increasing the chances for a death sentence). “In fact,
counsel would have been ineffective if the door to the
damaging Risk Assessment Report and evidence contained therein had been opened and the State had
been able to exploit it to their advantage.” Id. We
thus deny Mr. Harris’s motion to expand the certificate
of appealability.
CONCLUSION
We reverse on Mr. Harris’s claim of ineffective
assistance in defense counsel’s failure to seek a pretrial
hearing on an intellectual disability. On remand, the
district court should revisit the issue of prejudice
after conducting an evidentiary hearing.
We also vacate the district court’s judgment on
the claim of cumulative error. On this claim, the dis-

App.92a
trict court should first consider the threshold issues
of whether it can consider the prejudice arising from


the lack of a request for a pretrial hearing on
intellectual disability and



the first prosecutor’s exploitation of the jury
instruction on Mr. Harris’s mitigation evidence.

On the claim of cumulative error, the court
should also consider the prejudice resulting from the
constitutional error in allowing victim-impact testimony
recommending the death penalty.
We affirm the district court’s ruling in all other
respects and deny Mr. Harris’s motion to expand the
certificate of appealability.

App.93a
OPINION OF THE
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA
(APRIL 19, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
________________________
JIMMY DEAN HARRIS,

Petitioner,
v.
TERRY ROYAL1, WARDEN,
OKLAHOMA STATE PENITENTIARY,

Respondent.

________________________
Case No. CIV-08-375-F

Before: Stephen P. FRIOT,
Unites States District Judge.
Petitioner, a state prisoner currently facing execution of a sentence of death, appears with counsel and
petitions for a writ of habeas corpus pursuant to 28
U.S.C. § 2254, challenging his convictions in the District Court of Oklahoma County, Case No. CF-19991 During previous proceedings, Anita Trammell was the warden
of the Oklahoma State Penitentiary. However, Terry Royal has
since assumed that office. According to Fed. R. Civ. P. 25(d)(1),
Mr. Royal is automatically substituted as a party.

App.94a
5071, of one count of first-degree murder, one count
of shooting with intent to kill, and one count of
assault and battery with a dangerous weapon. Respondent has responded to Petitioner’s Petition for a
Writ of Habeas Corpus (hereinafter “Petition”),2 and
Petitioner has replied. The State court record has been
supplied.3
PROCEDURAL HISTORY
Petitioner was convicted by a jury in the District
Court of Oklahoma County of one count of firstdegree murder, one count of shooting with intent to kill,
and one count of assault and battery with a dangerous
weapon. For the crime of first-degree murder, the
jury recommended the imposition of a sentence of
death, finding the existence of the aggravating circumstance that Petitioner knowingly created a great
risk of death to more than one person. He was also
sentenced to life in prison for shooting with intent to
kill and ten years in prison for assault and battery
with a dangerous weapon.
Petitioner appealed his convictions and sentences
to the Oklahoma Court of Criminal Appeals (hereinafter “OCCA”). The OCCA affirmed Petitioner’s convictions and the non-capital sentences, but reversed
the death sentence and remanded for a new sentencing
2 References to the parties’ pleadings shall be as follows: Petitioner’s Petition for a Writ of Habeas Corpus shall be cited as
(Pet. at __.); Respondent’s Response in Opposition to Petition
for Writ of Habeas Corpus shall be cited as (Resp. at __.); and,
Petitioner’s Reply To Respondent’s Response to Petition for
Writ of Habeas Corpus shall be cited as (Reply at __.).
3 The trial court’s original record shall be cited as (O.R. at __.).
The trial transcript shall be cited as (Tr., Vol. ___, p. __.).

App.95a
trial for the first-degree murder conviction. Harris v.
State, 84 P.3d 731 (Okla. Crim. App. 2004). At the
resentencing trial the jury found the existence of two
aggravating circumstances: (1) Petitioner knowingly
created a great risk of death to more than one person;
and (2) the existence of a probability Petitioner would
commit criminal acts of violence that would constitute
a continuing threat to society. The trial court sentenced
Petitioner to death on the jury’s recommendation.
Petitioner’s direct appeal from the resentencing trial
was denied by the OCCA. Harris v. State, 164 P.3d
1103 (Okla. Crim. App. 2007). Certiorari was denied
on March 24, 2008. Harris v. Oklahoma, 552 U.S.
1286 (2008). Petitioner filed an Application for PostConviction Relief which was denied by the OCCA in
a published opinion. Harris v. State, 167 P.3d 438
(Okla. Crim. App. 2007).
FACTUAL BACKGROUND
Under 28 U.S.C. § 2254(e), when a federal district
court addresses “an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court, a determination of a factual
issue made by a State court shall be presumed to be
correct.” 28 U.S.C. § 2254(e)(1). For the purposes of
consideration of the present Petition, the Court provides and relies upon the following synopsis from the
OCCA’s opinion summarizing the evidence presented
at Petitioner’s trial. Following review of the record,
trial transcripts, and the admitted exhibits, the Court
finds this summary by the OCCA to be adequate and
accurate. The Court therefore adopts the following
summary of the facts as its own:

App.96a
Harris, who was a skilled transmission mechanic, and his wife, Pam, worked in front office
positions in transmission shops. Throughout
their relationship the two often worked
together. Despite being business partners as
well as husband and wife, they had a stormy
relationship. This worsened significantly
when Pam was hired, but Harris was not, to
work in Merle Taylor’s AAMCO transmission
shop in Oklahoma City. Harris commuted
to work in Texas for several months, during
which time the marriage suffered. After
Harris had a work-related accident, he
returned to Oklahoma. By the summer of
1999, Pam told him the marriage was over.
While Harris agreed to a divorce, he was
angry and upset, and continued to hope
Pam would return to him. In mid-August of
1999, Harris called Pam, threatening to kill
her, her parents, their daughter, her coworkers, and Merle Taylor. Pam got a protective order against Harris and filed for
divorce. The divorce was granted on August
25, 1999, and Harris was ordered to leave
the home without removing any property.
Harris and Pam had previously taped an
agreement dividing the house property. On
the evening of the 25th, Harris moved out of
the home, taking furniture and many of
Pam’s personal possessions. He also vandalized the house. Pam discovered the damage
the next day, found out where Harris had
stored her furniture and his tools, and had
a lock put on that shed. In the succeeding
days Harris called Pam often demanding

App.97a
that she remove the lock. Each time, she
explained she could neither talk to him nor
remove the lock, and told him to call her
attorney. He refused, explicitly stating he
would talk to her. He continued to threaten
her and others. On August 31, 1999, he
threatened to kill Pam and was seen driving
by the AAMCO shop.
On the morning of September 1, 1999, Harris
called the AAMCO shop several times,
demanding that she remove the lock on the
storage shed and threatening Pam and Merle
Taylor. At approximately 9:00 a.m. Harris
arrived at the shop and asked for Pam, who
was standing with Merle Taylor and his
daughter-in-law Jessica. He shot Taylor twice
at close range, and shot at Jessica. Harris
shot Pam, chased her when she ran, and
pistol-whipped her when he ran out of bullets
and could not quickly reload his gun. When
Pam escaped, Harris fled, discarded the gun
and his van, and hid in a friend’s garage.
Harris claimed he was angry and upset, and
could not make good decisions because he was
of low intelligence, was under the influence
of alcohol and drugs, and was mentally ill
(although not legally insane).
To support the aggravating circumstances,
the State presented the evidence of the circumstances of the crimes. There was also
evidence that, during the ongoing difficulties
in mid-August, Pam had called police and
Harris had resisted arrest. The State presented evidence that Harris assaulted a

App.98a
jailer while awaiting trial, and had physically,
verbally and emotionally abused Pam
throughout their relationship. The State also
presented victim impact evidence. In mitigation, Harris presented evidence from his
family and former co-workers, as well as
expert evidence, regarding his traumatic and
abusive childhood, history of substance abuse,
low intelligence, emotional instability, and
possible mental illness.

Harris, 164 P.3d at 1106-07.
PETITIONER’S CLAIMS FOR RELIEF
STANDARD OF REVIEW
Under the Antiterrorism and Effective Death
Penalty Act of 1996 (hereinafter “AEDPA”), in order
to obtain federal habeas relief once a State court has
adjudicated a particular claim on the merits, Petitioner must demonstrate that the adjudication:
(1) resulted in a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts
in light of the evidence presented in the
State court proceeding.
28 U.S.C. § 2254(d)(1-2).
The Supreme Court has defined “contrary to” as
a State court decision that is “substantially different
from the relevant precedent of this Court.” Williams

App.99a

v. Taylor, 529 U.S. 362, 405 (2000) (O’Connor, J.,

concurring and delivering the opinion of the Court).
A decision can be “contrary to” Supreme Court precedent “if the state court applies a rule that contradicts
the governing law set forth in [Supreme Court]
cases” or “if the state court confronts a set of facts
that are materially indistinguishable from a decision
of this Court and nevertheless arrives at a result
different from [Supreme Court] precedent.” Id. at
405-06. The “unreasonable application” prong comes
into play when “the state court identifies the correct
governing legal rule from [Supreme Court] cases but
unreasonably applies it to the facts of the particular
state prisoner’s case” or “unreasonably extends a
legal principle from [Supreme Court] precedent to a
new context where it should not apply or unreasonably
refuses to extend that principle to a new context
where it should apply.” Id. at 407. In ascertaining
clearly established federal law, this Court must look
to “the holdings, as opposed to the dicta, of [the
Supreme] Court’s decisions as of the time of the
relevant state-court decisions.” Yarborough v. Alvarado,
541 U.S. 652, 660-61 (2004) (quoting Williams, 529
at 412.
The “AEDPA’s purpose [is] to further the principles of comity, finality, and federalism. There is no
doubt Congress intended AEDPA to advance these
doctrines.” Williams v. Taylor, 529 U.S. 420, 436 (2000).
“The question under AEDPA is not whether a federal
court believes the state court’s determination was
incorrect but whether that determination was unreasonable–a substantially higher threshold.” Schriro v.
Landrigan, 550 U.S. 465, 473 (2007). The deference
embodied in Section 2254(d) “reflects the view that

App.100a
habeas corpus is a ‘guard against extreme malfunctions
in the state criminal justice systems,’ not a substitute for ordinary error correction through appeal.”
Harrington v. Richter, 562 U.S. 86, 10203 (2011)
(citation omitted).
GROUNDS FOR RELIEF
Ground 1: Mental Health Rebuttal Evidence.
During the first stage of trial, and after Petitioner
had testified, the defense presented expert psychological and psychiatric testimony regarding Petitioner’s intelligence and state of mind to support his
diminished capacity defense of mental illness. Subsequent to the defense’s notice that Petitioner intended
to present such a defense, the State obtained permission to have Dr. John Call, a psychologist, interview
Petitioner to determine if he was malingering. Dr.
Call testified that Petitioner appeared to be feigning or
exaggerating cognitive, memory, and emotional disorders. He also testified that Petitioner exhibited
many traits of a psychopath.
Petitioner claims that the testimony of Dr. Call
deprived him of a fundamentally fair trial as his
testimony was a surprise and that the defense was
not presented with a report prior to the testimony,
that a prior determination was not made regarding
scientific reliability and acceptability of the substance of
Dr. Call’s testimony, that “psycopath” is not a mental
illness or disease, and as such, was only proper for
indications of future behavior and improper evidence
in the first stage of trial, that the testimony should
have been excluded as being more prejudicial than
probative, that evidence of bad character is barred

App.101a
under State law and admission of such was a violation
of Petitioner’s liberty interest, and that the OCCA’s
determination was an unreasonable determination of
the facts in light of the evidence presented. In short,
Petitioner’s claim is that the OCCA’s determination
that Dr. Call’s testimony was properly admitted is
unreasonable.
After noting that the State presented Dr. Call as
a rebuttal witness subsequent to Petitioner’s testimony and the defense presentation of expert testimony
of mental illness, the OCCA rejected Petitioner’s
claim of surprise and failure to excluded Dr. Call’s
testimony as a discovery sanction:
First, we reject Appellant’s contention that Dr.
Call’s testimony should have been excluded
as a discovery sanction. Generally, the State
need not give advance notice of rebuttal evidence, because it cannot know before trial
what evidence will be relevant in rebuttal.
Goforth v. State, 1996 OK CR 30, ¶ 3, 921
P.2d 1291, 1292. Dr. Call only interviewed
Appellant after the defense gave notice that
it intended to present a defense based on
Appellant’s mental health. Defense counsel
was present when Dr. Call interviewed
Appellant. Appellant had access to his own
mental-health experts to review Dr. Call’s
notes and testimony. After Dr. Call testified
on direct examination, the trial court granted
Appellant’s request for additional time to
prepare for cross-examination. Appellant was
not unfairly surprised by Dr. Call’s testimony.

Harris, 84 P.3d at 745.

App.102a
Dr. Call was called by the State in rebuttal to a
defense based on a claim of diminished mental health.
Defense counsel was present during Dr. Call’s examination and testing of Petitioner and during the trial
court’s in camera hearing on Dr. Call’s techniques
and the information utilized in reaching his conclusions. Counsel was given the opportunity during the
in camera hearing to question Dr. Call and was permitted to re-call him for cross-examination after the
defense expert reviewed his work. Further, as noted
by the OCCA, after Dr. Call’s testimony the trial
court granted defense counsel’s request for additional
time to prepare for cross-examination. Considering
the above, Petitioner has not demonstrated the
OCCA’s determination to be unreasonable.
Petitioner further claims it was error for the
trial court to not hold a prior hearing on the scientific
reliability and acceptability of the substance of Dr.
Call’s methods and testimony consistent with Daubert
v. Merrel Dow Pharmaceuticals, 509 U.S. 579 (1993).
Although lengthy, the OCCA’s determination denying
the claim is set forth here in its entirety to set forth the
facts and procedure regarding Dr. Call’s testimony
and to demonstrate the state court’s thorough and
well considered review:
We next consider whether the trial court erred
by not holding a hearing on the reliability of
Dr. Call’s methods consistent with Daubert
v. Merrell Dow Pharmaceuticals, 509 U.S.
579, 113 S. Ct. 2786, 125 L.Ed.2d 469 (1993).
In Daubert, the Supreme Court recognized
a trial court’s important responsibility, as
well as its broad discretion, in assessing the
admissibility of novel scientific evidence. The

App.103a
Court identified several factors which may aid
trial judges in determining whether expert
evidence is scientifically valid, and thus
reliable enough, to be admissible under the
permissive guidelines of the Federal Rules
of Evidence. The Court stressed that its list
of relevant factors was not exhaustive, and
that whether any of the factors mentioned
were applicable could only be determined on
a case-by-case basis. In essence, the Court
held that while not all evidence deemed
“scientific” had to earn general acceptance
in the scientific community before being
admissible, all such evidence should bear
some indicia of traditional scientific method.
The focus should be “solely on principles
and methodology, not on the conclusions
that they generate.” Daubert, 509 U.S. at
595, 113 S. Ct. at 2797. The Court subsequently extended Daubert’s principles to
non-scientific but otherwise technical and
specialized expert testimony in Kumho Tire
Co. v. Carmichael, 526 U.S. 137, 150–51, 119
S. Ct. 1167, 1175, 143 L.Ed.2d 238 (1999).
We adopted the Daubert analysis in Taylor
v. State, 1995 OK CR 10, ¶ 15, 889 P.2d 319,
328–29, and have likewise extended it (per
Kumho) to other types of expert testimony.
Harris v. State, 2000 OK CR 20, ¶ 9, 13
P.3d 489, 493.
Before Dr. Call testified, the trial court held
an in camera hearing on the techniques he
used and the reasonableness of his reliance
on certain information to reach his conclu-

App.104a
sions. The hearing was consistent with our
holding in Lewis v. State, 1998 OK CR 24,
¶ 21, 970 P.2d 1158, 1167, that the trial court
should determine the admissibility of expert
testimony before it is presented to the jury.
At that hearing, Dr. Call stated that the
Hare Psychopathy Checklist was “the most
widely respected technique to assess psychopathy.” He testified as to his experience in
administering the technique, and explained
that the Checklist necessarily required him
to obtain information from immediate family
which, in this case, included the surviving
victim, Mrs. Harris. Dr. Call testified that
he did not tell Mrs. Harris the purpose of
his inquiry, and that he took her potential
for bias into account. He also stated that
not all of Mrs. Harris’s observations about
Appellant were negative, and that many of
her observations were corroborated by others,
including Appellant himself. The defense
cross-examined Dr. Call about his methods,
but did not present any evidence of its own.
The trial court found Dr. Call’s methods
reliable and his testimony admissible.
Defense counsel did not claim this hearing
was insufficient under Daubert until after
Dr. Call had testified on direct examination.
Based on the information developed at the
original “Lewis” hearing, the trial court
concluded that no further Daubert inquiry
was necessary.
Appellant complains that the Lewis hearing
was not tantamount to a Daubert hearing,

App.105a
because it did not address either “relevancy or
reliability of psychopathy opinion testimony
in the guilt/innocence phase of a criminal
trial,” and claims that the Hare technique is
“clearly irrelevant and unreliable in this
context” (emphasis added). We view these
concerns as a matter of general relevance,
not affecting the soundness of Dr. Call’s
methods themselves. There was no evidence
that Dr. Call modified the Hare technique in
any way, or that he used it to assess anything but Appellant’s psychopathic tendencies. Appellant’s complaint is not that the
Hare Psychopathy Checklist is unreliable
per se, but that the Checklist did not assist
the trier of fact, see 12 O.S.2001, § 2702,
because it was not a reliable indicator of
anything relevant to Appellant’s guilt. We
conclude that it was.
Appellant correctly notes that the Hare Psychopathy Checklist is routinely used to determine whether a person poses a threat to
others generally; thus, the Checklist is often
employed in capital-sentencing proceedings
(e.g. to show the defendant is a continuing
threat to society) and civil commitment proceedings (e.g. to justify involuntarily commitment of a sexual predator). However,
merely because psychopathy evidence is
relevant for these purposes does not render
it irrelevant for any other purpose. Any ability
of the Checklist to predict future behavior
must necessarily be based on its ability to
indicate tendencies presently existing in the

App.106a
subject’s personality–which in turn is based,
in part, on an examination of the subject’s
past behavior.
Appellant’s own experts–also relying in part
on Appellant’s past behavior–testified to
support the defense theory that Appellant’s
mental functioning was impaired, and ultimately, that Appellant was (at least at the
time of the crime) unable to form a specific
intent to kill. In turn, the State was entitled
to offer alternative explanations of Appellant’s
behavior. Appellant points out that psychopathy is not a recognized mental disorder.
This, of course, is exactly why the State
introduced the evidence in question: to show
that Appellant’s behavior was not the result
of a diminished mental capacity, but rather
the product of a generally violent personality
for which he should be held accountable. We
have repeatedly held that the State may
present rebuttal evidence on mental-health
issues raised by the defense. See Lockett v.
State, 2002 OK CR 30, ¶¶ 22–25, 53 P.3d
418, 425; Van White v. State, 1999 OK CR
10, ¶ 52, 990 P.2d 253, 268–69; Maghe v.
State, 1980 OK CR 100, ¶ 7, 620 P.2d 433,
435; see also 12 O.S.2001, § 2404(A)(1)
(where accused presents evidence of a
pertinent character trait, the prosecution may
present evidence to rebut the same). Dr. Call’s
opinions, and prosecutor commentary on this
evidence as bearing on Appellant’s ability to
form an intent to kill, were not improper.

App.107a
Finally, we note that the jury was well aware
of the limitations on Dr. Call’s testimony.
Dr. Call made it clear that while Appellant
exhibited many behaviors associated with
psychopathy, he also exhibited many behaviors inconsistent with psychopathy. Dr. Call
admitted he could not conclusively state
that Appellant was a psychopath, and conceded that even a psychopath may suffer
from some other recognized mental illness.
The trial court’s limiting instruction, which
Appellant did not object to, was patterned
after the one used by the trial court in
Lewis v. State, and we find it appropriate
here as well. Proposition 2 is denied.

Harris, 84 P.3d at 744-47 (footnotes omitted).
Rather than apply Daubert to the facts in the
record, this Court must determine whether the OCCA’s
decision was an unreasonable determination that
Petitioner received a fair trial. In Wilson v. Simons,
536 F.3d 1064 (10th Cir. 2008), the Tenth Circuit
considered a claim that admission of certain DNA
results without a Daubert hearing violated the petitioner’s Eighth and Fourteenth Amendment rights.
Denying the claim, the Tenth Circuit held:
“As a general matter, federal habeas corpus
relief does not lie to review state law questions about the admissibility of evidence. . . . ”
Moore v. Marr, 254 F.3d 1235, 1246 (10th
Cir.2001) (internal citations omitted). Absent
a showing that the admission of the evidence
violated a specific constitutional guarantee,
a federal court on habeas review will not
disturb the state court’s evidentiary ruling

App.108a
unless it was “so grossly prejudicial that it
fatally infected the trial and denied the fundamental fairness that is the essence of due
process.” Fox v. Ward, 200 F.3d 1286, 1296
(10th Cir. 2000) (quoting Williamson v. Ward,
110 F.3d 1508, 1522 (10th Cir. 1997)); Milone
v. Camp, 22 F.3d 693, 702 (7th Cir. 1994).
Because Daubert does not set any specific
constitutional floor on the admissibility of
scientific evidence, the only relevant question is whether the PCR test rendered the
trial fundamentally unfair. Milone, 22 F.3d
at 702; see also Norris v. Schotten, 146 F.3d
314, 335 (6th Cir. 1998).

Id. at 1101-02.
As stated above, Dr. Call testified in camera
before his rebuttal testimony and was subjected to
defense counsel’s questioning. The trial court granted
defense counsel’s request for additional time to review
Dr. Call’s testimony and was permitted to re-call Dr.
Call for cross-examination after the defense expert
reviewed his work. The Hare checklist utilized by Dr.
Call was not novel. It was utilized to not only predict
future dangerousness but also as a diagnostic tool for
treatment and management. Dr. Call’s opinion was
based on the results of this recognized diagnostic tool
and offered to rebut the claim that Petitioner was not
capable of intending to kill Mr. Taylor. In fact, his
opinion was corroborated by Petitioner’s own second
stage expert who agreed Petitioner had many of the
traits of an individual with psychopathy or antisocial
personality disorder. (Tr., Vol. XVIII, pp. 181-82, 19293).

App.109a
Petitioner has not demonstrated the determination of the OCCA’s was contrary to, or an unreasonable application of, clearly established Supreme Court
law. Nor has Petitioner demonstrated that the admission of Dr. Call’s testimony rendered the trial
fundamentally unfair. Petitioner’s first ground for relief
is denied.
Ground 2: Mental Capacity Jury Instruction.
Petitioner next claims that the trial court erred
when it instructed the jury, over defense objection,
that mental retardation was a defense to the charged
offenses only if it rendered him incapable of knowing
the wrongfulness of the offenses because of his mental
retardation. Petitioner claims this instruction denied
him the right to present a defense to the intent
element of malice aforethought murder in violation
of his Sixth and Fourteenth Amendment rights.4
On appeal, the OCCA determined no prejudice
existed and no violation of Petitioner’s rights:
In Proposition 5, Appellant contends that the
trial court’s instructions to the jury relating
to his defense were confusing, improper, and
denied him a fair trial. Appellant offered
evidence that “low intelligence, mental illness,
and drug and alcohol induced intoxication”
combined to give him “limited control” over
his actions at the time of the crimes. The
goal of Appellant’s defense was to show that

4 Petitioner adds the absence of an instruction on second degree
depraved mind murder compounded the denial of his rights. See
Ground 3, infra.

App.110a
at the time of the shootings, he could not
have formed a specific intent to kill.
He requested and received a jury instruction on a lesser form of homicide, First–
Degree Manslaughter, arguably compatible
with his defense. However, because Appellant had attempted to show that he was at
least “borderline” mentally retarded, the
trial court also instructed the jury, over
defense objection but consistent with Oklahoma law, that mental retardation was a
complete defense to culpability if it rendered
the accused incapable of knowing the wrongfulness of his acts. See 21 O.S.2001, § 152(3).
Appellant claims the trial court’s instruction
on mental retardation as a complete exculpatory defense was not supported by the evidence. We agree. The accused is entitled to
instructions on any defense theory, whether it
be mitigating or exculpatory, if the law and
evidence reasonably support that theory.
Cipriano v. State, 2001 OK CR 25, ¶ 30, 32
P.3d 869, 876. Because, as Appellant concedes, the evidence failed to suggest he was
mentally retarded to the extent he could not
appreciate the wrongfulness of his actions, the
trial court’s instruction on mental retardation
as an exculpatory defense was unwarranted.
We fail to see how this instruction prejudiced
Appellant. The instruction actually saddled
the State with the additional preliminary
burden of proving that Appellant was not
mentally retarded before he could be convicted of any crime. Even though the outcome

App.111a
might have been unlikely, the instruction
gave the jurors the option of finding Appellant not guilty of any crime, if they believed
his intellectual capacity was so diminished
that he could not distinguish right from
wrong. Finally, the instruction in no way
discouraged the jury from fully considering
Appellant’s intellectual abilities, along with
his alleged mental illness and substance
abuse, on the issue of whether he lacked the
ability to form a specific intent to kill.
Because the instruction could only have
worked to Appellant’s benefit, we find no
violation of his substantial rights. McGregor
v. State, 1994 OK CR 71, ¶ 23, 885 P.2d
1366, 1380; Allen v. State, 1994 OK CR 13,
¶ 33, 871 P.2d 79, 93. Proposition 5 is denied.

Harris, 84 P.3d at 749-50.
A petitioner seeking collaterally to attack a state
court conviction based on an erroneous set of jury instructions “bears a heavy burden of proof.” Shafer v.
Stratton, 906 F.2d 506, 508 (10th Cir. 1990). “Habeas
proceedings may not be used to set aside a state conviction on the basis of erroneous jury instructions
unless the errors had the effect of rendering the trial
so fundamentally unfair as to cause a denial of a fair
trial in the constitutional sense,” Shafer, 906 F.2d at
508 (quotation omitted), or “so infected the entire
trial that the resulting conviction violates due process,”
Estelle v. McGuire, 502 U.S. 62, 72 (1991) (quoting
Cupp v. Naughten, 414 U.S. 141, 147 (1973)).
Petitioner has not demonstrated the trial court’s
instruction had a substantial and injurious effect or
influence on the jury’s verdict, Brecht v. Abraham-

App.112a

son, 507 U.S. 619, 631 (1993), or that the OCCA’s de-

termination was contrary to, or an unreasonable
application of, clearly established federal law as
determined by the Supreme Court. Accordingly, Petitioner’s ground for relief is denied in its entirety.
Ground 3: Failure to Instruct on Lesser Offense.
In Beck v. Alabama, 447 U.S. 625 (1980), the
Supreme Court held that the Due Process Clause of
the Fourteenth Amendment sometimes requires a
state charging a defendant with a capital offense to
permit the jury to consider alternative, lesser included
offenses that do not carry with them the prospect of a
death sentence. Id. at 627; see also Schad v. Arizona,
501 U.S. 624, 647 (1991). At the first stage of trial
the State charged Petitioner with first-degree malice
aforethought murder. The trial court denied defense
counsel’s request to instruct the jury on seconddegree depraved mind murder, but did instruct on a
lesser offense of first-degree manslaughter. Petitioner
claims here that the denial of his requested instruction on the lesser offense of second-degree depraved
mind murder violated his Sixth, Eighth, and Fourteenth Amendment rights.
In Beck, the Supreme Court held that “a sentence
of death [may not] constitutionally be imposed after
a jury verdict of guilt of a capital offense, when the
jury was not permitted to consider a verdict of guilt
of a lesser included non-capital offense, and when the
evidence would have supported such a verdict.” Id. at
627 (emphasis added). On appeal, the OCCA determined the evidence did not warrant an instruction on
second degree murder:

App.113a
In Proposition 10, Appellant claims error in
the trial court’s rejection of his proposed instructions on the lesser offense of Second
Degree (Depraved Mind) Murder, as well as
his proposed instruction attempting to define
“reasonable doubt.” As to the first claim, the
trial court was required to instruct on every
degree of homicide reasonably supported by
the evidence. Shrum v. State, 1999 OK CR 41,
¶ 10, 991 P.2d 1032, 1036. To warrant an
instruction on Second Degree (Depraved
Mind) Murder, the evidence must reasonably
support the conclusion that the defendant
committed an act so imminently dangerous
to another person as to evince a depraved
mind in disregard for human life. Williams
v. State, 2001 OK CR 9, ¶ 23, 22 P.3d 702,
712.
Appellant shot Taylor twice at close range,
immediately after pushing him down to the
ground. Appellant testified that he shot
Taylor “accidentally,” “without thinking or
knowing” what he was doing. Instructions on
depraved-mind murder are unwarranted
when the defense claims the fatal gunshots
were fired accidentally. Crumley v. State,
1991 OK CR 72, ¶ 13, 815 P.2d 676, 678–79.
Furthermore, in determining the sufficiency
of the evidence to support a lesser offense,
we look to whether the evidence might
allow a jury to acquit the defendant of the
greater offense and convict him of the
lesser. Cipriano, 2001 OK CR 25 at ¶ 14, 32
P.3d at 873. Given the substantial evidence

App.114a
that Appellant drove to the transmission
shop to do violence (see discussion of Proposition 6), we do not believe any rational trier
of fact could have found Appellant evinced a
depraved mind but lacked an intent to kill.
Cf. Young v. State, 2000 OK CR 17, ¶¶ 61–62,
12 P.3d 20, 39–40 (instructions on depravedmind murder correctly refused where defendant entered restaurant with intent to rob its
occupants with firearm, stood directly in
front of victim, raised gun, demanded money,
and fatally shot victim in the back of the
chest when victim tried to defend himself),
cert. denied, 532 U.S. 1055, 121 S. Ct. 2200,
149 L.Ed.2d 1030 (2001); Boyd v. State,
1992 OK CR 40, ¶ 11, 839 P.2d 1363, 1367–
68, cert. denied, 509 U.S. 908, 113 S. Ct.
3005, 125 L.Ed.2d 697 (1993) (instructions
on depraved-mind murder correctly refused
where defendant shot victim a second time
in the chest at close range).

Harris, 84 P.3d at 750.
In Shad v. Arizona, 501 U.S. 624, 645-48 (1991),
the Supreme Court held that Beck’s requirement is
satisfied so long as the jury is instructed on at least
one lesser included offense that is supported by the
evidence. Here, the trial court instructed on the
lesser included offense of first-degree manslaughter.
The OCCA’s determination that the evidence did
not warrant an instruction on second degree murder
was neither contrary to, nor an unreasonable application of, clearly established federal law. As detailed by
the OCCA, Petitioner’s testimony that he “accidently”
and “without thinking or knowing” what he was

App.115a
doing does not warrant an instruction on second
degree depraved mind murder under Oklahoma law.
The OCCA further determined that substantial evidence existed that Petitioner intentionally went to
the transmission shop to do violence such that no
rational trier of fact could have found Petitioner evinced
a depraved mind but lacked the intent to kill–i.e.,
that the evidence did not support the lesser instruction of second degree depraved mind murder.
As Beck’s requirements were met, and the OCCA’s
determination was not contrary to, or a unreasonable
application of, federal law, Petitioner has not demonstrated that failure to instruct on second degree
depraved mind murder rendered his trial fundamentally unfair. See James v. Gibson, 211 F.3d 543, 555
(10th Cir. 2000). Accordingly, Petitioner’s third ground
for relief is denied.
Ground 4: Impartial Jury Claim.
Petitioner claims the prosecution utilized four of its
nine peremptory challenges to remove venire persons
without sufficient race neutral reasons and that the
trial court’s acceptance of the reasons and dismissal
of those prospective jurors was a violation of his
Fifth, Sixth, and Fourteenth Amendment rights as
provided in Batson v. Kentucky, 476 U.S. 79 (1986).
In Batson, the Supreme Court held that although
a prosecutor ordinarily is entitled to exercise permitted peremptory challenges “‘for any reason at all, as
long as that reason is related to his view concerning
the outcome’ of the case to be tried, . . . the Equal
Protection Clause forbids the prosecutor to challenge
potential jurors solely on account of their race or on
the assumption that black jurors as a group will be

App.116a
unable impartially to consider the State’s case against
a black defendant.” Id. at 89 (internal citations omitted). Subsequently, the Supreme Court articulated
Batson’s three-step process for evaluating claims that
a prosecutor used peremptory challenges in violation
of the Equal Protection Clause:
First, a defendant must make a prima facie
showing that a peremptory challenge has
been exercised on the basis of race. 476
U.S., at 96-97, 106 S. Ct. 1712. Second, if that
showing has been made, the prosecution
must offer a race-neutral basis for striking
the juror in question. Id., at 97-98, 106 S.
Ct. 1712. Third, in light of the parties’
submissions, the trial court must determine
whether the defendant has shown purposeful
discrimination. Id., at 98, 106 S. Ct. 1712.

Miller-El v. Cockrell, 537 U.S. 322, 328-29 (2003).
On appeal, Petitioner raised his claim as to four
minority veniremen excused by the prosecution’s use
of its peremptory challenges. Petitioner asserts his
claim here, however, only as to one venire person,
stating “[d]ue to the limitations of the AEDPA only
the peremptory strike as to juror Carol Gray is being
pursued in this Petition.” (Pet. at 39) The OCCA
identified Batson as controlling authority and set
forth its three part inquiry, analyzed all four of Petitioner’s claims, and denied relief. Harris, 84 P.3d at
743. As to the claim raised here, the OCCA stated:
The prosecutor moved to strike Ms. Gray
because her answers to questions were unclear, and because she made several comments suggesting she would be sympathetic

App.117a
to Appellant’s defense. Appellant’s claim that
the prosecutor deliberately asked Ms. Gray
confusing questions is not supported by the
record. Ms. Gray stated that in her opinion,
people who acted under the influence of
alcohol were less responsible for their actions.
The prosecutor’s concern about Ms. Gray’s
ability to assimilate the facts and follow the
law was a plausible, race-neutral reason for
removing her. In conclusion, we find no evidence that the prosecutor’s stated reasons
for striking these panelists were so fantastic
or incredible as to warrant relief. Proposition 8 is denied.5

Harris, 84 P.3d at 743.
“The disposition of a Batson claim is a question
of fact. . . . ” Saiz v. Ortiz, 392 F.3d 1166, 1175 (10th
Cir. 2004). As long as the state court applied Batson,
Petitioner is entitled to relief only if the state court’s
rejection of his claim “was ‘an unreasonable determination of the facts in light of the evidence presented
in the State court proceeding.’’’ Black v. Workman,
682 F.3d 880, 896 (10th Cir. 2012) (quoting 28 U.S.C.
§ 2254(d)(2)).
Petitioner challenges the removal of Ms. Gray
claiming that the prosecutor utilized a peremptory
5 As an initial matter, we note that Appellant is Caucasian, his
victims were Caucasian, and that there were no identifiable
race-related issues in the trial itself; that one of the panelists
complained of here (Ms. King) was not, according to the trial
court, of a minority race; that several members of the final jury
panel were of a minority race; and that the prosecutor did not
use every peremptory challenge to remove a minority panelist.
(Footnote 8 original)

App.118a
challenge to excuse her because she was a black
woman. The prosecutor’s expressed reasons for excusing
Ms. Gray included Ms. Gray’s inability to understand
many of the questions presented to her and her multiple non-responsive answers. The prosecutor’s reasons
for exercising a peremptory challenge, and the trial
court’s acceptance of those stated reasons, are supported by review of the record. Many of Ms. Gray’s
responses to pointed questions were often confusing.
When asked what things in life caused her to think
about the death penalty, Ms. Gray’s response reflected
thought about guilt and innocence as well as statements regarding the media’s inaccurate reporting of
facts. She did not respond concerning the death
penalty. (Tr., Vol. 3, pp. 150-51) When asked whether
in her opinion Timothy McVeigh deserved the death
penalty, Ms. Gray responded: “I only know by people
that were there that told me. They would tell me
something that were actually there. They couldn’t
have seen everything, just certain. They, you know,
were here at the same time. They just tell me about
their situation.” (Id.) Ms. Gray responded to almost
every question presented to her about the whether
she could impose the death penalty as a sentence by
referring to evidence and the fact that she did not
know all the details prevented her from knowing if
any sentence of death had ever been appropriate or
justified. (Tr., Vol. 3, pp. 147-51) Ms. Gray further
stated that in her opinion people under the influence
of alcohol were less responsible for their actions
because they were not aware of what they were
doing. (Tr., Vol. 3, pp. 161-62)
The prosecutor provided several race-neutral
reasons to strike Ms. Gray from serving on the jury.

App.119a
The OCCA determined from its review that the prosecutor’s concern about Ms. Gray’s ability to assimilate
the facts and follow the law was plausible, and that
there was no evidence to support granting Petitioner’s claim for relief. Petitioner has not satisfied his
burden of demonstrating that the OCCA’s determination was either contrary to, or an unreasonable
application of, clearly established federal law, nor
has he demonstrated that the OCCA’s determination
was an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding. Accordingly, Petitioner’s claim for relief is
denied.
Ground 5: Ineffective Assistance of Appellate Counsel
in 2001 Direct Appeal.
Petitioner claims he was denied effective assistance of appellate counsel in his 2001 direct appeal
when propositions of error were not presented regarding prosecutorial misconduct in the first stage of
trial, failure to claim ineffective assistance of trial
counsel for not obtaining micro-cassette tapes, failure
by appellate counsel to interview jurors and raise the
issue of ineffective assistance of trial counsel regarding Petitioner being seen by the jury wearing
restraints, and failure to raise the claim on appeal
that the trial court did not instruct the jury the prosecution must prove beyond a reasonable doubt the
absence of heat of passion.
To prevail on a claim of ineffective assistance of
counsel under the Sixth Amendment, Petitioner must
first show that his counsel “committed serious errors
in light of ‘prevailing professional norms’” in that the
representation fell below an objective standard of

App.120a
reasonableness. See Strickland v. Washington, 466 U.S.
668, 688 (1984). In so doing, Petitioner must overcome
the “strong presumption” that his counsel’s conduct
fell within the “wide range of reasonable professional
assistance” that “‘might be considered sound trial
strategy,’” Strickland, 466 U.S. at 689, quoting Michel
v. Louisiana, 350 U.S. 91, 101 (1955). He must, in other
words, overcome the presumption that his counsel’s
conduct was constitutionally effective. United States
v. Haddock, 12 F.3d 950, 955 (10th Cir. 1993). A
claim of ineffective assistance “must be reviewed
from the perspective of counsel at the time,” Porter v.
Singletary, 14 F.3d 554, 558 (11th Cir.), cert. denied,
513 U.S. 1009 (1994), and, therefore, may not be
predicated on “‘the distorting effects of hindsight.’”
Parks v. Brown, 840 F.2d 1496, 1510 (10th Cir. 1987),
quoting Strickland, 466 U.S. at 689.
If constitutionally deficient performance is shown,
Petitioner must then demonstrate that “there is a
‘reasonable probability’ the outcome would have been
different had those errors not occurred.” Haddock, 12
F.3d at 955; citing Strickland, 466 U.S. at 688, 694;
Lockhart v. Fretwell, 506 U.S. 364, 369-70 (1993). In
the specific context of a challenge to a death sentence,
the prejudice component of Strickland focuses on
whether “the sentencer . . . would have concluded that
the balance of aggravating and mitigating circumstances did not warrant death.” Strickland, 466 U.S.
at 695; quoted in Stevens v. Zant, 968 F.2d 1076, 1081
(11th Cir. 1992), cert. denied, 507 U.S. 929 (1993).
Petitioner carries the burden of establishing both
that the alleged deficiencies unreasonably fell beneath
prevailing norms of professional conduct and that
such deficient performance prejudiced his defense.

App.121a

Strickland, 466 U.S. at 686; Yarrington v. Davies, 992
F.2d 1077, 1079 (10th Cir. 1993). In essence, “[t]he
benchmark for judging any claim of ineffectiveness
must be whether counsel’s conduct so undermined
the proper functioning of the adversarial process that
the trial cannot be relied on as having produced a
just result.” Strickland, 466 U.S. at 686. “Counsel’s
performance must be ‘completely unreasonable’ to be
constitutionally ineffective, ‘not merely wrong.’” Welch
v. Workman, 639 F.3d 980, 1011 (10th Cir. June 7,
2010) (quoting Hoxsie v. Kerby, 108 F.3d 1239, 1246
(10th Cir. 1997)). “Surmounting Strickland’s high
bar is never an easy task.” Padilla v. Kentucky, 559
U.S. 356, 371, 130 S. Ct. 1473, 1485 (2010).
Establishing that a state court’s application of
Strickland was unreasonable under § 2254(d)
is all the more difficult. The standards created
by Strickland and § 2254(d) are both “highly
deferential,” [Strickland] at 689, 104 S. Ct.
2052; Lindh v. Murphy, 521 U.S. 320, 333, n.
7, 117 S. Ct. 2059, 138 L.Ed.2d 481 (1997),
and when the two apply in tandem, review is
“doubly” so, Knowles, 556 U.S., at 123, 129 S.
Ct. at 1420. The Strickland standard is a
general one, so the range of reasonable
applications is substantial. 556 U.S., at 123,
129 S. Ct. at 1420. Federal habeas courts
must guard against the danger of equating
unreasonableness under Strickland with unreasonableness under § 2254(d). When § 2254
(d) applies, the question is not whether
counsel’s actions were reasonable. The question is whether there is any reasonable

App.122a
argument that counsel satisfied Strickland’s
deferential standard.

Harrington v. Richter, 562 U.S. 86, 105 (2011).
Demonstrating deficient performance of appellate counsel can often be more difficult:
In Jones v. Barnes, 463 U.S. 745, 103 S. Ct.
3308, 77 L.Ed.2d 987 (1983), we held that
appellate counsel who files a merits brief
need not (and should not) raise every nonfrivolous claim, but rather may select from
among them in order to maximize the likelihood of success on appeal. Notwithstanding
Barnes, it is still possible to bring a Strickland claim based on counsel’s failure to raise
a particular claim, but it is difficult to demonstrate that counsel was incompetent. See,
e.g., Gray v. Greer, 800 F.2d 644, 646 (C.A.7
1986) (“Generally, only when ignored issues
are clearly stronger than those presented,
will the presumption of effective assistance
of counsel be overcome”).

Smith v. Robbins, 528 U.S. 259, 288 (2000).
In analyzing an appellate ineffectiveness claim
based upon the failure to raise an issue on appeal,
“we look to the merits of the omitted issue,” Neill v.
Gibson, 278 F.3d 1044, 1057 (10th Cir.2001).
If the omitted issue is so plainly meritorious
that it would have been unreasonable to
winnow it out even from an otherwise strong
appeal, its omission may directly establish
deficient performance; if the omitted issue
has merit but is not so compelling, the case

App.123a
for deficient performance is more complicated, requiring an assessment of the issue
relative to the rest of the appeal, and deferential consideration must be given to any
professional judgment involved in its omission; of course, if the issue is meritless, its
omission will not constitute deficient performance. See, e.g., Smith [v. Robbins], 528 U.S.
[259], 288, 120 S. Ct. 746; Banks v. Reynolds,
54 F.3d 1508, 1515-16 (10th Cir. 1995); Mayo
v. Henderson, 13 F.3d 528, 533 (2d Cir. 1994).

Cargle v. Mullin, 317 F.3d 1196, 1202-03 (10th Cir.
2003).

1. Failure to Present a Prosecutorial
Misconduct Claim.
Petitioner claims appellate counsel was ineffective
for failing to raise a claim of prosecutorial misconduct.
He claims the prosecutor improperly denigrated the
defense, defense counsel, defense witnesses, and made
improper comments during cross-examination. Petitioner raised this claim in his 2005 post-conviction
proceeding. After the OCCA noted that appellate
counsel is not required to raise every non-frivolous
claim, the OCCA determined Petitioner’s claim did
not form the basis of a finding of ineffective assistance of appellate counsel:
Harris first argues appellate counsel should
have claimed that prosecutorial misconduct
occurred in the first stage of Harris’s trial.
A thorough review of the record does not
support Harris’s claims. He first cites
instances where, he claims, the prosecutor
denigrated the defense, defense counsel and

App.124a
witnesses, and made improper comments to
the jury. Many of the prosecutor’s statements
or questions were proper: Harris’s objections
to some improper questions were sustained;
and Harris fails to show how he was prejudiced by comments which might have crossed
the line. Harris also argues that the prosecutor attempted to incite societal alarm by
referring to the missing murder weapon.
Specific references to evidence relevant to
this case, or Harris’s own actions regarding
potential evidence, do not constitute societal
alarm. Harris suggests that the alleged misconduct in first stage closing argument
amounts to structural error. Without engaging in an analysis of structural error, the
record does not support his suggestion that
this argument contained errors which prejudiced Harris; thus, the argument certainly
could not have constituted structural error.
Harris has not demonstrated prejudice from
appellate counsel’s failure to raise first stage
prosecutorial misconduct, and this claim cannot form the basis for a finding of ineffective
assistance of appellate counsel.

Harris, 167 P.3d at 442.
The deferential standard of review under 28 U.S.C.
§ 2254(d) is required since the OCCA adjudicated
Petitioner’s prosecutorial misconduct claim on the
merits. See Walker v. Gibson, 228 F.3d 1217, 1241
(10th Cir. 2000), abrogated on other grounds by Neill
v. Gibson, 278 F.3d 1044, 1057 (10th Cir. 2001). Petitioner does not demonstrate that the asserted
prosecutorial misconduct denied him a specific con-

App.125a
stitutional right. The appropriate standard for a prosecutorial misconduct habeas claim, therefore, is “‘the
narrow one of due process, and not the broad exercise
of supervisory power.’” Darden v. Wainwright, 477
U.S. 168, 181 (1986) (quoting Donnelly v. DeChristoforo, 416 U.S. 637, 642 (1974)). Accordingly, “it is not
enough that the prosecutor’s remarks were undesirable
or even universally condemned.” Darden, 477 U.S. at
181 (citation omitted). A prosecutor’s improper remarks
require reversal of a conviction or sentence only if the
remarks “so infected the trial with unfairness as to
make the resulting conviction a denial of due process.”
Donnelly, 416 U.S. at 643, 645 (1974). The fundamental fairness inquiry requires an examination of
the entire proceedings and the strength of the evidence against the petitioner, both as to the guilt stage
and the sentencing phase. Id. at 643.
As stated by the OCCA, a majority of the
complained of questions by the prosecutor were
proper and addressed discrepancies in the testimony
of witnesses and the Petitioner. Further, as to any
comments directed toward Petitioner’s defense, experts
testified Petitioner had borderline mental functioning that would have diminished his capacity to
reason and solve problems. The jury was aware of this
testimony, and any claimed “denigration” of Petitioner’s defense by the prosecution would cause little to
no prejudice compared to the information and opinions
provided by both sides’ experts and additional facts
and testimony presented at trial. Most importantly,
Petitioner has not demonstrated the complained of
comments by the prosecutor so infected the trial with
unfairness as to rise to a denial of due process.

App.126a
Appellate counsel is not required to raise every
non-frivolous claim, and the fact appellate counsel did
raise a second stage prosecutorial claim is suggestive
of a thorough review of the record and reasoned determination in support of a strategic decision to not
include a first stage prosecutorial claim. Petitioner
has failed to demonstrate the OCCA’s determination
was contrary to, or an unreasonable application of,
clearly established Supreme Court law.
2. Trial Counsel’s Failure to Obtain MicroCassette Tapes.
Petitioner next claims ineffective assistance of
appellate counsel for failing to raise the claim of trial
counsel ineffectiveness. Petitioner claims trial counsel
was ineffective for failing to conduct pre-trial
discovery to obtain micro-cassette tapes belonging to
Petitioner. The tapes were seized out of Petitioner’s
van pursuant to a search warrant and reportedly
contained recorded conversations between Petitioner
and his wife regarding what property she agreed he
could take from their house upon their separation.
Petitioner argues the tapes were relevant to show he
was acting in conformity with their agreement and
that Ms. Harris’s failure to live up to that agreement
and the withholding of his tools was the provocation
that led to Petitioner going to Ms. Harris’s place of
business on the day of the homicide. Petitioner claims
trial counsel knew the tapes were material and was
ineffective for failing to formally request the tapes
and for failing to issue a subpoena duces tecum to
Ms. Harris.
Harris next argues that appellate counsel
failed to claim trial counsel was ineffective.

App.127a
He fails to show that he was prejudiced by
appellate counsel’s omission. None of these
separate claims of ineffective assistance of
trial counsel, which were not raised on
Harris’s direct appeal, form a basis for a
finding of ineffective assistance of appellate
counsel.
Harris first argues that counsel failed to
find or produce microcassette tapes which
he alleges were seized by the State in Harris’s
van. Harris raises the issue of these tapes
in his motion for discovery as well. He
argues the tapes, allegedly a record of his
conversations with his wife Pam concerning
what he could take from their home, would
show he was acting in accordance with her
wishes when he moved certain things from
the house. Harris suggests this would have
explained why he was so angry when Pam
locked up his tools after he moved. Even if
this were true, it completely fails to account
for the evidence showing Harris took other
things which Pam testified were not part of
that agreement, and that Harris also defaced
the home as he left. In addition, this evidence goes to Harris’s relationship with Pam
and his reason for being at the AAMCO
transmission shop. However, Harris killed a
third party, with whom he had no quarrel.
Harris fails to show how introduction of the
microcassette tapes would have resulted in
a different outcome.

Harris, 167 P.3d at 442.

App.128a
Petitioner testified he had taped several conversations between himself and Ms. Harris about the
division of their marital property. Two other witnesses, Petitioner’s daughter and Petitioner’s brother,
testified they had listened to the tapes. Petitioner’s
brother testified Ms. Harris stated on the tapes that
Petitioner could take everything in the house except
a couple of large items of furniture and her family
photographs.
Subsequent to the recording of these conversations, Ms. Harris obtained a court order giving her
the house and all of its contents. The court also
verbally ordered Petitioner not to remove anything
from the house. Petitioner took items from the house
and put them in a storage unit. Ms. Harris, thereafter, obtained a court order to lock the storage unit.
The day before, and the day of, the murder Petitioner
demanded Ms. Harris remove the lock. Petitioner
blamed the shootings on her failure release the property in the storage unit he believed to belong to him.
Petitioner has not demonstrated how trial counsel
was deficient for failing to obtain the tapes or how he
was prejudiced by their absence. Extensive testimony
was received explaining the contents of the recorded
conversations, as well as the subsequent legal proceedings regarding the marital property. Petitioner
learned of the court-ordered lock on the storage unit
five days before the murder. Although Petitioner testified he blamed the shootings on Ms. Harris’s failure
to give him his property from the storage unit, he
has not demonstrated, especially in light of the court
orders concerning the property, what additional information not presented at trial was contained on the

App.129a
tapes or how they would have supported legal provocation regarding the murder of a third person.
As the claim of ineffective assistance of trial
counsel in insufficient to warrant relief, appellate
counsel cannot be determined ineffective for failing
to raise the claim on appeal. Petitioner has not
demonstrated the OCCA’s determination to be contrary to, or an unreasonable application of, clearly
established federal law as determined by the Supreme
Court.
3. Failure to interview jurors.
Petitioner claims appellate counsel was ineffective
for failing to interview and investigate jurors from
his first trial. He contends had counsel conducted
interviews it would have been discovered that the
jurors saw Petitioner in handcuffs, and that failure
to do so was deficient performance. He asserts that
one juror stated the jurors who came to court early
would see Petitioner being escorted in handcuffs
from the elevator to the courtroom, and that upon
the pronouncement of the guilty verdict a deputy
sheriff “popped out his handcuffs and they made
such a loud noise that everyone on the jury and in
the courtroom jumped.” (Pet. at 64)
Harris argues that appellate counsel should
have claimed trial counsel was ineffective
because jurors at his first trial saw Harris
in restraints as he was escorted to and from
the courtroom and after the guilty verdict
was pronounced. While Harris likens this to
cases in which a person is tried while
shackled, the record shows that Harris was
not tried while in restraints. He fails to

App.130a
show any prejudice from any inadvertent
view of him handcuffed before trial.
Harris claims appellate counsel was ineffective for failing to interview Harris’s jurors
from the first trial. He suggests appellate
counsel would have discovered that some
jurors saw Harris in handcuffs. Harris completely fails to show how he was prejudiced
by this omission; nor does he show that, as
a matter of prevailing professional norms,
appellate counsel must interview every trial
juror.

Harris, 167 P.3d at 442-43 (footnote omitted).
Petitioner’s reliance on Deck v. Missouri, 544
U.S. 622 (2005), is misplaced.6 Deck held that the
use of visible shackles during the guilt and penalty
phase of trial was forbidden unless it was “‘justified
by an essential state interest’–such as the interest in
courtroom security–specific to the defendant on trial.”
Id. at 629. The juror’s affidavit provided by Petitioner
states Petitioner was seen coming off of the elevator
in handcuffs and that the handcuffs were never seen
being used during trial. (Petitioner’s Exhibit 9)
Secondly, securing a criminal defendant while being
transported to the courtroom serves a reasonable
state security interest.
Petitioner has not demonstrated that a juror’s
brief glimpse of a defendant in handcuffs outside of
the courtroom is fundamentally prejudicial. Nor has
6 The Supreme Court decided Deck in 2005—after Petitioner’s
trial and direct appeal–and cannot, therefore, be considered in
support of prevailing professional norms of appellate counsel.

App.131a
Petitioner demonstrated the OCCA’s determination
of the absence of both deficient performance and of
prejudice was unreasonable.
4. Failure to Instruct That State Must
Prove Absence of Heat of Passion.
Petitioner next claims appellate counsel was
ineffective for failing to assert on direct appeal that a
defense to first-degree murder is an affirmative defense
of heat of passion, and that the jury should have
been instructed that the State had the burden of
proving the absence of heat of passion beyond a reasonable doubt.
Petitioner raised his ineffective assistance of
appellate counsel claim on post-conviction:
Harris next claims that appellate counsel
was ineffective for failing to raise as error
several rulings of the trial court. He first
claims the trial court should have instructed
jurors that the affirmative defense of heat of
passion is a defense to murder in the first
degree. This jury instruction was not adopted
until 2006, several years after Harris’s trial.
Beyond claiming that he “is not guilty of
malice murder”, [Application at 35] Harris
fails to show any prejudice from the lack of
this instruction.

Harris, 167 P.3d at 443.
In Mullaney v. Wilbur, 421 U.S. 684 (1975), the
Supreme Court, construing a Maine murder statute
allowing any intentional or criminally reckless killing
to be punished as murder unless the defendant proves
that it was committed in the heat of passion on

App.132a
sudden provocation, in which case it is punished as
manslaughter, stated that “the Due Process Clause
requires the prosecution to prove beyond a reasonable doubt the absence of the heat of passion on
sudden provocation when the issue is properly
presented in a homicide case.” Id. at 704.
Two years after issuing the decision in
Mullaney, however, the Supreme Court
clarified that its holding should be narrowly
construed. In Patterson v. New York, 432
U.S. 197, 214, 97 S. Ct. 2319, 53 L.Ed.2d 281
(1977), the defendant argued that Mullaney
prohibited a state from permitting guilt or
punishment “to depend on the presence or
absence of an identified fact without assuming
the burden of proving the presence or absence
of that fact, as the case may be, beyond a
reasonable doubt.” The Court rejected that
interpretation. Although it acknowledged
that Mullaney requires a state to prove
“every ingredient of an offense beyond a
reasonable doubt” and prohibits a state
from “shift[ing] the burden of proof to the
defendant by presuming that ingredient upon
proof of the other elements of the offense,”
the Court declared it “unnecessary” to have
gone further in Mullaney. Id. at 215, 97 S.
Ct. 2319. Patterson thereby limited Mullaney
to situations where a fact is presumed or
implied against a defendant. See id. at 216,
97 S. Ct. 2319; United States v. Molina-Uribe,
853 F.2d 1193, 1203-04 (5th Cir. 1988), over-

ruled in part on other grounds by United
States v. Bachynsky, 934 F.2d 1349 (5th

App.133a
Cir. 1991) (en banc). Because the written instructions did not permit the jury to presume malice aforethought, required the State
to prove malice aforethought beyond a reasonable doubt, and defined malice and heat
of passion as mutually exclusive, the instructions provided to the jury in Mr. Bland’s
case did not violate Patterson. See Davis v.
Maynard, 869 F.2d 1401, 1406-07 (10th Cir.
1989) (rejecting a Mullaney challenge to substantially similar jury instructions), vacated
sub nom., Saffle v. Parks, 494 U.S. 484, 110
S. Ct. 1257, 108 L.Ed.2d 415 (1990), opinion
reinstated in part, 911 F.2d 415 (10th Cir.
1990) (per curiam).

Bland v. Sirmons, 459 F.3d 999, 1013 (10th Cir. 2006).
Petitioner relies on U.S. v. Lofton, 776 F.2d 918
(10th Cir. 1985), to support his claim that in state
court, as in federal criminal trials, a defendant is
entitled to an instruction on heat of passion as a
defense. This claim was also raised in Bland, supra,
and rejected by the Tenth Circuit, stating:
If this Court’s decision in Lofton were
controlling, Mr. Bland might well be entitled
to relief. Under the AEDPA standard of
review, however, a habeas petition shall not
be granted unless the state-court decision
“was contrary to, or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States.” 28 U.S.C.
§ 2254(d)(1) (emphasis added). The decisions
of lower federal courts applying Supreme
Court precedent are not determinative, see

App.134a

Williams, 529 U.S. at 406, 120 S. Ct. 1495,

and in this case the lower federal courts
have in fact divided as to the proper scope of
Mullaney after Patterson. Compare Lofton,
776 F.2d at 920-21, with Molina-Uribe, 853
F.2d at 1203-04. Because the OCCA’s decision reasonably applies the correct legal
rule from Mullaney, as the Supreme Court
construed that rule in Patterson, the OCCA
decision is neither contrary to, nor an unreasonable application of, clearly established
Supreme Court precedent, notwithstanding
the interpretation of that rule in this Circuit.

Bland, 459 F.3d at 1014.
Petitioner had failed to demonstrate the OCCA’s
determination to be contrary to, or an unreasonable
application of, clearly established federal law as
determined by the Supreme Court. Petitioner’s fifth
ground for relief is denied in its entirety.
Ground 6: Cumulative Error.
Petitioner next claims that more than one constitutional error occurred in the first stage of his trial
and this Court should consider those errors cumulatively and grant habeas relief.
It is true as a general principle of law that “[t]he
cumulative effect of two or more individually harmless
errors has the potential to prejudice a defendant to
the same extent as a single reversible error.” United
States v. Oberle, 136 F.3d 1414, 1423 (10th Cir. 1998)
(quoting United States v. Rivera, 900 F.2d 1462,
1469 (10th Cir. 1990)). However, “‘[a] cumulativeerror analysis merely aggregates all the errors that

App.135a
individually have been found to be harmless, and
therefore not reversible, and it analyzes whether
their cumulative effect on the outcome of the trial is
such that collectively they can no longer be determined to be harmless.’ The analysis, however, ‘should
evaluate only the effect of matters determined to be
error, not the cumulative effect of non-errors.’” Id.
(quoting Rivera, 900 F.2d at 1470-71). See also Newsted
v. Gibson, 158 F.3d 1085, 1097 (10th Cir. 1998);
Castro v. Ward, 138 F.3d 810, 832-33 (10th Cir.
1998); United States v. Trujillo, 136 F.3d 1388, 1398
(10th Cir. 1998).
“In death penalty cases, we review whether the
errors so infected the trial with unfairness as to make
the resulting conviction a denial of due process, or
rendered the sentencing fundamentally unfair in light
of the heightened degree of reliability demanded in a
capital case.” Wilson v. Sirmons, 536 F.3d 1064, 1122
(10th Cir. 2008).
Upon review of the entire trial transcript and the
evidence and testimony presented, the Court does
not find the cumulation of those errors determined to
be harmless had a “substantial and injurious effect
or influence in determining the jury’s verdict.” Brecht
v. Abrahamson, 507 U.S. 619, 637 (1993). Because this
Court has concluded that no error occurred during
the first stage of trial, the only matters considered
here are the errors found by the OCCA. The error
regarding the trial court’s instruction on the defense
of mental retardation found by the OCCA does not
constitute constitutional error, but rather an error of
state law. Cumulative error analysis applies only to
constitutional errors. Young v. Sirmons, 551 F.3d 942,
972 (10th Cir. 2008). The other errors regarding com-

App.136a
ments made by the prosecutors were of minor. See
Alvarez v. Boyd, 225 F.3d 820, 825 (7th Cir. 2000)
(“courts must be careful not to magnify the significance
of errors which had little importance”). The errors
were not so egregious or numerous as to prejudice
Petitioner to the same extent as a single reversible
error. The cumulative effect of the errors, when
compared with the evidence and testimony presented
at trial, did not significantly strengthen the state’s
case or diminish Petitioner’s case. No reasonable
probability exists that the jury would have acquitted
Petitioner absent the errors. Accordingly, Petitioner’s
sixth ground for relief is denied.
Ground

7: Ineffective Assistance of Trial and
Appellate Counsel in 2005 Penalty ReTrial and First Direct Appeal.

Petitioner claims trial counsel was ineffective for
failing to investigate and then to seek a pre-trial determination that Petitioner was mentally retarded
and thus ineligible for the death penalty.7 As set
7 The Court acknowledges that “[i]n 2006, the American Association on Mental Retardation [] changed its name to the American Association on Intellectual and Developmental Disabilities
[]. ‘Intellectual disability,’ rather than ‘mental retardation,’ is
now the preferred terminology. [Citation omitted.] Also, previously enacted federal legislation known as Rosa’s Law, Pub. L.
No. 111–256, 124 Stat. 2643 (2010), mandates the use of the
term ‘intellectual disability’ in place of ‘mental retardation’ in
all federal enactments and regulations. Nonetheless, throughout
this opinion, the Court will use the old terminology because the
legal sources relevant to its analysis, including Oklahoma law,
prior opinions, and the opinions of the Supreme Court, use the
terms ‘mental retardation’ and ‘mentally retarded.’’’ Howell v.
Trammell, 728 F.3d 1202, 1206 n.1 (10th Cir. 2013), quoting
Hooks v. Workman, 689 F.3d 1148, 1159 n. 1 (10th Cir. 2012).

App.137a
forth in Ground 5, to prevail on a claim of ineffective
assistance of counsel, Petitioner must overcome the
strong presumption of reasonable professional assistance and demonstrate both deficient performance
and resulting prejudice viewed in light of prevailing
professional norms. See Strickland, 466 U.S. at 689.
In the instant case, Petitioner must also demonstrate
the determination of the OCCA to be contrary to, or
an unreasonable application of, clearly established
federal law as determined by the Supreme Court. 28
U.S.C. § 2254(d).
Petitioner raised this issue on appeal from his
resentencing trial. After setting forth the requirements of Strickland and its progeny for evaluating
an ineffectiveness claim, the OCCA determined that
no prejudice resulted from counsel’s failure to request
a pre-trial determination of mental retardation:
A capital defendant who wishes to claim
mental retardation must raise that claim
with the trial court before the trial begins.
A threshold requirement for such a claim is
one IQ test of 70 or below; such a test will
not itself guarantee a finding of mental
retardation but may begin the process by
which the court determines whether a
defendant is mentally retarded. Harris had
two IQ test scores, obtained during the
pretrial process, of 66 and 68. He complains
that counsel did not use these scores to
initiate this process and attempt to determine whether he was mentally retarded
before trial began. Harris argues that, given
his test scores, if counsel had asked for a
hearing to determine mental retardation

App.138a
the trial court would have been required to
hold that hearing. At that hearing Harris
might or might not have been found mentally
retarded, but if he were found to be retarded,
he would avoid the death penalty. Thus,
Harris claims, he had nothing to lose and
everything to gain by raising the issue, and
counsel was ineffective for failing to do so.
Harris cannot show he was prejudiced by
counsel’s failure. To prevail on a pretrial
claim of mental retardation, Harris would
have to show (1) significantly subaverage
intellectual functioning; (2) manifested before
the age of 18; (3) accompanied by significant
limitations in adaptive functioning in at
least two of nine enumerated skill areas. All
the evidence in the record, including the
evidence from the first trial and competency
hearing, indicates that Harris could not
meet this test. Despite these two IQ scores,
all Harris’s other IQ scores were over 70. All
Harris’s experts, including the ones who
testified at his first trial and competency
hearing, considered these scores along with
Harris’s other characteristics and concluded
he was not mentally retarded.8 Harris’s
expert, Dr. Draper, testified at his trial that
he was not mentally retarded. She and
other experts stated in this and other pro8 “One expert did testify at the competency hearing that, based
on the two low scores, he believed he had to say Harris was
mildly mentally retarded, but that was not his conclusion after
examining Harris and he found the scores surprising.” (n. 55 in
original).

App.139a
ceedings that Harris was “slow” or of low
intelligence, but all agreed that his employment history, aptitude as a transmission
mechanic, and other characteristics were
not those of a mentally retarded person.
Harris argues that this Court cannot dispose
of this claim using the prejudice analysis
above. He admits the test for ineffective
assistance of counsel is whether there is a
reasonable probability that, but for counsel’s
unprofessional errors, the results of the trial
would have been different. Regarding this
claim, the different result would have been
a finding of mental retardation and ineligibility for the death penalty. Thus, the Court
is required to review the record to see
whether, had counsel requested a hearing,
Harris would have prevailed on his claim of
mental retardation. There is no support in
the record for such a conclusion. However,
Harris argues that only a jury, not this
Court, may make a determination of a
defendant’s possible mentally retarded status
under any circumstances. Harris has
misunderstood this Court’s jurisprudence
on this issue. In a series of cases involving
retroactive capital post-conviction procedures,
this Court has declined to make an initial
finding of fact regarding mental retardation,
remanding for jury determination the question of whether a capital defendant, convicted and currently on Death Row, is
mentally retarded. That is not the issue
here. The issue is whether, on this record,

App.140a
Harris’s counsel was ineffective for failing
to ask for a pretrial determination of mental
retardation. Nothing in this record shows
that, had counsel made that request, evidence would have shown by a preponderance
of the evidence that Harris was mentally
retarded. There is a great deal of evidence
in the record to show otherwise, including
the opinion of several experts who testified
that Harris was not mentally retarded. We
cannot conclude there was a reasonable
probability that, but for counsel’s omission,
the results of this resentencing proceeding
would have been different.

Harris, 164 P.3d at 1115-16 (footnotes omitted-except
n. 55 in original).9

This Court’s review is not to determine whether
the OCCA’s determination was incorrect or wrong.
Rather, it is to determine if it was unreasonable to
find trial counsel was not ineffective. Petitioner argues
trial counsel failed to conduct a reasonable investigation and failed to request a trial to present evidence
establishing mental retardation. He claims trial counsel
should have retained a psychologist to test and
9 “We found in Propositions I and II that counsel was not
ineffective for failing to claim Harris was mentally retarded, or
for failing to present the evidence of mental status and mental
illness raised in his first trial and competency proceedings.
Relying on the issues raised in Propositions I and II, Harris
claims that counsel failed to independently investigate the case
as previously developed in order to satisfactorily conclude that
the extant evidence was viable and reliable. This appears to be
speculation, as the record does not support this allegation.” Id.
at 1118.

App.141a
assess retardation, that the psychologist would have
provided an intelligence quotient (IQ) test result
similar to the one submitted on direct appeal–an IQ
of 67-75–and would have also explained standard
errors of measurement and the “Flynn Effect” and
their impact on IQ scores. He further argues that the
second and third prong of the standard for determination of mental retardation, manifestation before
the age of 18 and significant limitations in adaptive
functioning, have been met through expert testimony
presented in his 2001 trial.10
The issue, however, is whether the OCCA was
unreasonable in concluding counsel’s performance
did not result in prejudice. Review of the record
shows Petitioner’s first IQ test at age seven resulted in
a score of 87. Although he subsequently was retested
in 2000 and 2001 with scores below 70, testimony
was presented questioning those test results as having
been influenced by decades of drug and alcohol abuse
along with the stress of incarceration and mental
10 In Atkins v. Virginia, 536 U.S. 304 (2002), the Supreme Court
declared the execution of mentally retarded individuals unconstitutional. Although the Court set out some guidelines for such
determination, it left to the states to decide what criteria to use
to determine who is mentally retarded. In Murphy v. State, 54
P.3d 556 (Okla. Crim. App. 2002), the OCCA followed the
Atkins’ guidelines and held that person is mentally retarded if
(1) he or she functions at a significantly sub-average intellectual level, (2) that such mental retardation manifested itself
before the age of eighteen, and (3) the mental retardation is
accompanied by significant limitations in adaptive functioning
in at least two of nine enumerated skill areas. The OCCA further held that no person shall be eligible to be considered
mentally retarded unless he or she has an IQ of seventy or
below as reflected by at least one scientifically recognized and
approved contemporary intelligent quotient test. Id. at 567-68.

App.142a
illness with accompanying hallucinations and delusions. One additional test administered at Eastern
State Hospital in 2001 resulted in a test score of 75.
This test was administered in a more therapeutic
environment and at a time when Petitioner was not
abusing alcohol and his psychoses were controlled.
Petitioner testified at his first trial. The record
reflects that he was coherent, responsive, and demonstrated a strong vocabulary with a good memory for
details. The OCCA found Petitioner’s testimony showed
his ability to process and understand information,
communicate well, and to engage in logical reasoning.
Howell v. State, 138 P.3d 549, 564 (Okla. Crim. App.
2006). Considerable evidence was also presented at
his first trial contrary to allegations of significant
limitations in adaptive functioning. Testimony from
both lay and expert witness was presented regarding
Petitioner’s ability to be self-directed, of his ability to
diagnose and re-build transmissions, his lengthy
work history, and his ability to care for himself and
for others.
Based on the record available to the state court,
the OCCA’s determination that Petitioner was not
prejudiced–and thus counsel was not ineffective–by
trial counsel’s failure to request a pre-trial determination of mental retardation was neither contrary to
or an unreasonable application of clearly established
federal law, nor an unreasonable determination of
facts in light of the evidence presented. Accordingly,
Petitioner’s seventh claim for relief is denied.

App.143a
Ground 8: Ineffective Assistance of Trial Counsel
Regarding Mental Illness and Impairment Evidence in 2005 Penalty Retrial.
Petitioner next claims trial counsel was ineffective for failing to present mitigating evidence that he
suffers from mental illness and for failing to present
expert testimony to rebut the continuing threat aggravating circumstance. On appeal from Petitioner’s
re-sentencing trial, the OCCA held:
In Proposition II Harris claims that trial
counsel was ineffective for failing to present
evidence of diminished mental capacity and
probable mental illness. This evidence was
available to counsel or easily discoverable,
and much of it was presented at Harris’s
first trial. Trial counsel has a duty to investigate and present relevant mitigating evidence. However, where counsel makes an
informed decision to pursue a particular
strategy to the exclusion of other strategies,
this informed strategic choice is “virtually
unchallengeable”. We have noted that among
counsel’s basic duties is “to make informed
choices among an array of alternatives, in
order to achieve the best possible outcome
for the client.” The United States Supreme
Court has found counsel ineffective where
the failure to thoroughly investigate and
present mitigating evidence “resulted from
inattention, not reasoned strategic judgment.”
At Harris’s resentencing trial, defense counsel
presented mitigating evidence through Harris’s sister, brother, former co-worker and
employer, son-in-law, and two daughters. His

App.144a
most extensive mitigating evidence was presented through Dr. Draper, an expert witness
in developmental analysis. Dr. Draper testified extensively regarding the developmental
processes that led Harris to commit these
crimes. She began by discussing his tumultuous and abusive childhood. She described
his medical problems throughout childhood as
well as his learning disabilities, low intelligence, and academic and social problems
in school, including schoolyard fights. Dr.
Draper described how, during Harris’s
teenage years, his father taught him to be a
transmission mechanic but also taught him
to use drugs and alcohol regularly. Dr.
Draper discussed the very negative effect on
Harris of his mother’s lingering death from
cancer, the death of his grandparents, and
the family’s separation. She testified regarding Harris’s brief first marriage. Dr. Draper
noted that Harris’s first wife had alleged he
was abusive and filed for a victim’s protective order and divorce, but said Harris’s
first wife told her that Harris did not abuse
her and she had said otherwise because she
wanted to leave him. Dr. Draper told jurors
of Harris’s attempt at suicide when his first
wife left him. She explained that for several
years Harris and Pam had custody of his
daughters, and described his love for his
daughters as well as his inability to engage
emotionally as a parent. She described his
relationship with Pam, including a mutual
pattern of verbal and emotional abuse. Dr.

App.145a
Draper showed jurors how Harris depended
on Pam emotionally and professionally.
Throughout her testimony Dr. Draper emphasized that Harris’s chaotic and troubled
background resulted in extreme emotional
instability. She discussed how his low
intelligence and chronic substance abuse
contributed to his inability to handle stress
or resolve problems. She described Harris’s
reliance on Pam, and his feelings of despair
and devastation when Pam left him. Dr.
Draper also emphasized Harris’s anger at
his situation, and at the loss of his tools,
and his inability to control or appropriately
express his anger. She testified that this
inability was caused by Harris’s immaturity,
emotional instability, poor judgment, and
confusion. She noted his expressions of
remorse for Merle Taylor’s death, while
agreeing that Harris still blamed Pam for
leaving him and causing him to commit the
crimes. She discussed psychological methods
of predicting future violence, and testified
that in a controlled environment, medicated,
without access to controlled substances and
without a romantic partner, she did not
believe Harris would be dangerous. Dr.
Draper testified that Harris had been diagnosed as mentally ill and was on psychotropic
medications in jail. She stated that she did
not further explore the area of mental
illness because those diagnoses had been
made after the crimes occurred, and her
focus was on explaining Harris’s actions and

App.146a
symptoms of underlying difficulties which
led to the crimes. However, her observations
of Harris’s behavior were consistent with
the diagnoses.
After Dr. Draper testified, counsel attempted
to have a representative from the jail testify
regarding the medications Harris took for
his mental conditions. Counsel failed to give
notice of this testimony to the State. The trial
court noted that mere evidence Harris was
on medication would encourage jury speculation regarding Harris’s mental condition.
Harris argues that this attempt shows
counsel realized he had erred in failing to
present evidence of mental illness.
Harris complains that counsel failed to present extensive evidence regarding his mental
state and diagnoses of mental illness. Most
of this evidence was presented at Harris’s
first trial or his competency proceedings,
and was readily available to counsel. A significant portion of this evidence was presented
at the first stage of Harris’s original trial, to
argue his mental state could not support a
finding of malice, rather than as evidence in
mitigation. After the crimes, questions were
raised regarding Harris’s competency. At
one point he was sent to Eastern State Hospital, received treatment and medication,
and was declared competent. Doctors representing the court, the State, and the defense
examined Harris throughout the pretrial
proceedings. He received several diagnoses of
mental illness: bipolar disorder with psychotic

App.147a
features, schizo-affective disorder, depressive
with psychotic features. Experts agreed at
the very least Harris was clinically depressed.
They all also noted his low intelligence. One
expert for the State, and the doctors at
Eastern State Hospital, suspected Harris
was either malingering or exaggerating his
mental condition. One defense expert testified that, based on his contact with Harris
shortly after the crimes, Harris was probably
suffering from mental illness at the time of
the crimes. Nobody believed that Harris’s
mental illness, even if present when the
crimes were committed, rendered him legally
insane; the experts agreed that Harris knew
right from wrong and understood the
consequences of his actions. Harris’s experts
described the connection his mental illness
and chronic substance abuse may have had
with the crimes. They testified that as a
consequence of his mental state, Harris was
low functioning and emotionally unstable,
unable to solve problems or take action
towards goals, highly agitated and angry.
At the first trial, Harris’s expert on future
dangerousness testified that he could not
say Harris would not be a danger to society;
he did say that, in a controlled environment
and with medication, Harris would present
less danger than otherwise.
After thoroughly considering the evidence
which was presented at Harris’s resentencing trial, and the evidence which was presented earlier and could have been presented,

App.148a
this Court concludes that counsel was not
ineffective. Counsel was aware of the evidence of mental condition and status. Rather
than rely on it to persuade jurors that
Harris’s mental state and after-diagnosed
mental condition were mitigating circumstances, counsel chose a different path. He
called Dr. Draper to testify regarding Harris’s
development over his life. This evidence was
comprehensive. It included Harris’s troubled
and abusive childhood, his low IQ and
trouble in school, his difficulty with marital
relationships, his relationships with his
family and daughters, his dependency on
Pam, the mutually abusive nature of that relationship. Dr. Draper also discussed Harris’s
chronic substance abuse which began when
he was a teenager with his father, his poor
judgment, anger and inability to solve problems, and his extreme emotional instability.
She also discussed the likelihood that, based
on his past behavior and mental state, Harris
would be a danger in the future. While Harris’s specific diagnoses of mental illness were
not presented to the jury, jurors were told
he had been diagnosed as mentally ill. Those
diagnoses were made after the crimes, and
Dr. Draper did describe the highly emotional
mental state Harris was in at the time of
the crimes. Dr. Draper used all this evidence
to explain why Harris could not accept his
circumstances and resorted to murder.
Harris claims that the prejudice from this
decision is evident. At the first trial, jurors

App.149a
heard much of this evidence. During deliberations, they asked a question about the
type of prison in which Harris might serve a
sentence of imprisonment. The trial court’s
answer to this question, which was inaccurate
as a matter of law, resulted in the case’s
reversal and this resentencing trial. Harris
contends this indicates that his first jury
seriously considered imposing a sentence of
less than death, and claims that, had the
evidence been presented again, his resentencing jury would have done the same.
This Court cannot speculate as to why
Harris’s first jury asked their question, or
what its sentencing intent might have been.
Counsel chose to provide Harris’s resentencing jury with a thorough picture of his life,
intelligence, and emotional state, including
his anger, grief and despair immediately
preceding the crimes. Through Dr. Draper,
jurors heard evidence which encompassed
or incorporated some of the evidence presented at the first trial. We will not secondguess counsel’s reasoned strategic judgment.
Counsel’s choice of mitigating evidence did
not amount to ineffective assistance.

Harris, 164 P.3d at 1116-18 (footnotes omitted).
As set forth previously, Petitioner must demonstrate deficient performance and resulting prejudice
to prevail on a claim of ineffective assistance of counsel,
and demonstrate the determination of the state court
was contrary to, or an unreasonable application of,
clearly established federal law as determined by the
Supreme Court. Petitioner claims that evidence of

App.150a
his mental deficiencies presented in his 2001 trial
and his competency trial, along with evidence of his
mental retardation, should have been presented to
his re-sentencing jury as mitigating evidence to explain
his violent behavior the day of the murder. Petitioner
admits trial counsel’s use of Dr. Draper to introduce
evidence of his developmental and life paths was a
sound strategic decision. He claims, however, that
trial counsel recognized that mental illness was a
valuable mitigating tool but his plan to use Dr.
Draper to the exclusion of other mental health experts
was unreasonable.
Petitioner’s claim is myopic and ignores the
totality of the evidence and testimony presented in
his first trial. Expert testimony was presented that
none of the possible mental health issues developed
until after the crimes. The evidence presented was
conflicting and did not with any certainty provide a
reason for any possible mental illness to be a
contributor to the crimes.11 As the OCCA identified,
counsel presented mitigating evidence through Petitioner’s sister, brother, former co-worker and employer,
son-in-law, and two daughters. Most extensively, he
presented testimony and evidence through Dr. Draper–
an expert in developmental analysis–that not only
described and explained Petitioner’s development
process but also incorporated opinions of other experts
that had previously testified in other proceedings. By
avoiding the conflicting diagnoses offered in his first
trial of possible mental illness–discovered after the
crimes–and preventing the introduction of Petition11 Additionally, by not claiming mental illness as a mitigating
factor, the jury was not informed that two experts had previously considered Petitioner to be a psychopath.

App.151a
er’s violent tendencies, trial counsel’s presentation of
a more sympathetic explanation of his life history
was reasonable, as was the OCCA’s conclusion on
this point.
As set forth previously regarding claims of ineffective assistance of counsel, counsel’s performance
must be not merely wrong, but constitutionally unreasonable. “The question is whether there is any reasonable argument that counsel satisfied Strickland’s
deferential standard.” Harrington v. Richter, 562 U.S.
86, 105 (2011). Here, Petitioner has failed to meet his
burden of demonstrating the requirements of
Strickland, and failed to demonstrate the determination of the OCCA was contrary to, or an unreasonable
application of, clearly established Supreme Court law.
Review of the underlying issue of the performance of
trial counsel demonstrates a lack of merit in Petitioner’s claim. As such, appellate counsel’s decision to not
include the claim in the appeal, given the necessary
deferential consideration, does not constitute deficient
performance.
As to his claim of ineffective assistance of counsel
for failure to present expert testimony to rebut the
continuing threat aggravating circumstance, the OCCA
held:
Harris also claims that counsel failed to
present evidence directly bearing on the
continuing threat aggravating circumstance.
In fact, Dr. Draper did discuss methods for
predicting future dangerousness, and gave
her opinion that Harris would not be a
future danger to society. Harris argues that
counsel should have presented an expert on
risk assessment, who could have provided

App.152a
an accurate and scientifically sound analysis of the exact likelihood that Harris would
be a future danger. The experts who testified at Harris’s first trial, and Dr. Draper,
all testified that he was in fact likely to pose
a risk of future danger. Harris’s experts testified that, under particular circumstances
likely to be found in prison, that risk was
significantly lessened, but they all agreed
that Harris posed more risk to the general
population than the average person. Given
this evidence, we will not say counsel was
unreasonable for choosing not to stress the
issue of Harris’s potential for danger to
society by using risk assessment evidence.
This proposition is accompanied by an
Application for Evidentiary Hearing. To
support his claim that counsel did not
conduct a thorough independent investigation, Harris provides an affidavit with a
psychological evaluation conducted after the
trial ended. As he notes in his brief, this
evaluation is consistent with other psychological evaluations which were available to
counsel. To support his claim that counsel
failed to present evidence bearing on the
continuing threat aggravating circumstance,
Harris offers an affidavit containing a risk
assessment profile. This profile reaches a
similar conclusion to that of Dr. Draper and
other experts-in a controlled, structured
environment, medicated, without access to
controlled substances, and without a romantic
relationship such as that with Pam, Harris

App.153a
poses little threat to society. The application for evidentiary hearing and supplemental materials do not contain sufficient
information to show this Court by clear and
convincing evidence there is a strong
possibility trial counsel was ineffective for
failing to use or identify the evidence. Harris’s
Application for Evidentiary Hearing is denied.

Id. at 1118-19 (footnotes omitted).
As identified by the OCCA, the risk assessment
provided by Petitioner in support of his Application
for Evidentiary Hearing in state court contains an
opinion regarding future dangerousness consistent
with evidence and expert opinion presented at trial.
The consensus opinion was that although Petitioner
did present a risk of future dangerousness, the threat is
lessened in a controlled and structured environment,
free from the influences of a relationship like that
with his ex-wife and free of controlled substances
and alcohol. Considering the strength of the State’s
case and the overwhelming evidence supporting the
continuing threat aggravating circumstance–evidence
of a history of fighting, destruction of family member’s
property, physical and mental abuse of his spouse,
threats against other individuals, resisting arrest,
and an altercation with detention officer while in
jail–the OCCA’s determination was not unreasonable. Petitioner has failed to demonstrate counsel
was ineffective and failed to demonstrate the determination of his claims by the OCCA was contrary to,
or an unreasonable application of, clearly established
Supreme Court law. Accordingly, this claim and Petitioner’s entire ground for relief is denied.

App.154a
Ground 9: Oklahoma’s Uniform Jury Instruction on
Mitigating Circumstances.
In his ninth ground for relief, Petitioner claims
the definition of mitigating circumstances contained
in the Oklahoma Uniform Jury Instructions (OUJI)
impermissibly limits consideration of mitigating evidence and fails to make consideration of mitigating
evidence mandatory in violation of the Eighth and
Fourteenth Amendments. He argues that the first
sentence of the instruction on mitigating circumstances–“Mitigating circumstances are those which,
in fairness, sympathy, and mercy, may extenuate or
reduce the degree of moral culpability or blame”–is
grammatically flawed in that it only applies to the
extent the mitigating circumstances extenuate or
reduce the defendant’s moral culpability.
The OCCA determined the instruction did not
unconstitutionally limit the jury’s ability to consider
mitigating evidence:
Harris argues that the plain language of the
uniform instruction’s first sentence itself
limits the jury’s consideration of mitigating
evidence. That sentence reads: “Mitigating
circumstances are those which, in fairness,
sympathy, and mercy, may extenuate or
reduce the degree of moral culpability or
blame.” Harris admits this Court has rejected
this line of argument. However, he suggests
that the language is ambiguous at best,
and, combined with prosecutorial argument,
foreclosed the jury’s consideration of mitigating evidence. He failed to object to either
the instruction or argument at trial. Reviewing for plain error, we find none. We do not

App.155a
find that the current uniform jury instruction
prohibits jurors from considering mitigating
evidence. One prosecutor did consistently
argue in closing that jurors should not
consider Harris’s second stage evidence as
mitigating, since it did not extenuate or
reduce his guilt or moral culpability. This
argument improperly told jurors not to
consider Harris’s mitigating evidence. However, in final closing a second prosecutor
invited jurors to consider all Harris’s mitigating evidence, weigh it against the aggravating circumstances, and find that the death
penalty was appropriate. The jury was properly instructed on the definition of mitigating evidence, the evidence Harris presented, and its duties. For that reason, the
initial prosecutorial argument was harmless.
This Court is troubled, however, by the
consistent misuse of the language in this
instruction in the State’s closing arguments.
This Court noted in Frederick v. State that
the prosecutor could argue mitigating evidence did not reduce a defendant’s moral
culpability or blame. However, we did not
intend to suggest that prosecutors could further argue that evidence of a defendant’s
history, characteristics or propensities should
not be considered as mitigating simply
because it does not go to his moral culpability
or extenuate his guilt. This would be an
egregious misstatement of the law on
mitigating evidence. After careful consideration, this Court has determined that an

App.156a
amendment to the language of the instruction will clarify this point, and discourage
improper argument. We emphasize that the
language of the current instruction itself is
not legally inaccurate, inadequate, or unconstitutional. Cases in which the current
OUJI-CR (2d) 4-78 has been used and applied
are not subject to reversal on this basis.
In conjunction with this case, the Court will
refer this issue to the Oklahoma Uniform Jury
Instruction Committee (Criminal) for promulgation of a modified jury instruction defining
mitigating circumstances in capital cases.
To delineate the various purposes of mitigating evidence, this Court suggests including
both (a) that mitigating circumstances may
extenuate or reduce the degree of moral
conduct or blame, and separately, (b) that
mitigating circumstances are those which in
fairness, sympathy or mercy would lead jurors
individually or collectively to decide against
imposing the death penalty.
The uniform jury instruction given in this case
did not unconstitutionally limit the jury’s
ability to consider mitigating evidence. The
prosecutor’s improper argument on this issue
was cured by further argument and instruction. Harris’s claim for relief is denied.
However, this Court finds that the current
uniform jury instruction defining mitigating
circumstances, OUJI-CR (2d) 4-78, should
be modified to clarify the constitutional
scope of mitigating evidence and discourage
improper argument.

App.157a

Harris, 164 P.3d at 1113-1114 (footnotes omitted).
The burden of demonstrating that an erroneous instruction was so prejudicial that it
will support a collateral attack on the constitutional validity of a state court’s judgment is even greater than the showing required to establish plain error on direct
appeal. The question in such a collateral
proceeding is “whether the ailing instruction by itself so infected the entire trial that
the resulting conviction violates due process”,
Cupp v. Naughten, 414 U.S., at 147, 94 S. Ct.,
at 400, 38 L.Ed.2d 368, not merely whether
“the instruction is undesirable, erroneous,
or even ‘universally condemned, . . . . ’”

Henderson v. Kibbe, 431 U.S. 145, 154 (1977) (citations
omitted); see also Cummins v. Sirmons, 506 F.3d 1211,
1240 (10th Cir. 2007).
In Boyde v. California, 494 U.S. 370 (1990), the
Supreme Court considered a claim that the wording
of an instruction prevented the jury from considering
the evidence of the defendant’s character and background as such evidence did not extenuate the gravity
of the crime. The Supreme Court reiterated that the
jury must be able to consider all relevant mitigating
evidence. It held that the proper test is “whether
there is a reasonable likelihood that the jury has
applied the challenged instruction in a way that
prevents the consideration of constitutionally relevant
evidence.” Id. at 380. The Court found it unlikely that
the instruction prevented the jury from considering the
mitigating evidence:

App.158a
All of the defense evidence presented at
the penalty phase—four days of testimony
consuming over 400 pages of trial transcript—
related to petitioner’s background and character, and we think it unlikely that reasonable jurors would believe the court’s instructions transformed all of this “favorable
testimony into a virtual charade.” California
v. Brown, 479 U.S., at 542, 107 S. Ct., at
840. The jury was instructed that it “shall
consider all of the evidence which has been
received during any part of the trial of this
case,” App. 33 (emphasis added), and in our
view reasonable jurors surely would not
have felt constrained by the factor (k) instruction to ignore all of the evidence presented
by petitioner during the sentencing phase.
Presentation of mitigating evidence alone,
of course, does not guarantee that a jury
will feel entitled to consider that evidence. But
the introduction without objection of volumes
of mitigating evidence certainly is relevant
to deciding how a jury would understand an
instruction which is at worst ambiguous. This
case is unlike those instances where we have
found broad descriptions of the evidence to be
considered insufficient to cure statutes or
instructions which clearly directed the sentencer to disregard evidence. See, e.g., Hitchcock v. Dugger, 481 U.S. 393, 398–399, 107 S.
Ct. 1821, 1824–1825, 95 L.Ed.2d 347 (1987)
(“[I]t could not be clearer that the advisory
jury was instructed not to consider, and the
sentencing judge refused to consider, evidence

App.159a
of nonstatutory mitigating circumstances
. . . ”).

Id. at 383-84.
As in Boyde, the instruction complained of by
Petitioner did not limit the jury’s consideration of the
evidence presented in support of the mitigating circumstances. The jurors were instructed they should consider
any evidence they found mitigating and that they
were not required to impose a sentence of death, even
if the aggravating circumstances outweighed the
mitigating circumstances. In fact, the jurors were
instructed that they could not impose a sentence of
death unless they determined the aggravating circumstances outweighed the mitigating circumstances.
The jury was given an instruction listing thirteen
mitigating circumstances. In addition to trial counsel’s
opening statements and closing argument, Petitioner
presented six witnesses in support of the mitigating
circumstances. Petitioner has not demonstrated the
jury was prevented from considering his mitigating
evidence because of the instruction. Even if the instruction was improper, Petitioner has not shown
that the error so infected the entire sentencing trial
that it violated due process. Additionally, Petitioner
has not demonstrated the OCCA’s determination to
be contrary to, or an unreasonable application of,
clearly established Supreme Court law. Accordingly,
Petitioner’s ground for relief is denied.
Ground 10: Prosecutor’s Closing Argument Regarding
Mitigating Evidence.
Petitioner next claims that prosecutorial misconduct during closing argument prevented the jury
from considering mitigation evidence when one of the

App.160a
prosecutors argued that the jury should not consider
mitigating evidence because it didn’t reduce Petitioner’s
culpability or responsibility.12 During initial closing,
the prosecutor argued several times that the mitigating
circumstances listed by the Petitioner did not reduce
his culpability or responsibility for the crimes. The
OCCA determined the prosecutor’s comments were
improper, but that the comments were harmless in
light of later comments made in final closing arguments inviting the jury to consider all the evidence
and in light of the proper instructions submitted to
the jury. Harris, 164 P.3d at 1113.13
The deferential standard of review under 28
U.S.C. § 2254(d) is required since the OCCA adjudicated Petitioner’s prosecutorial misconduct claim on
the merits. See Walker v. Gibson, 228 F.3d 1217, 1241
(10th Cir. 2000), abrogated on other grounds by Neill
v. Gibson, 278 F.3d 1044, 1057 (10th Cir. 2001). Petitioner does not demonstrate that the prosecutor’s
misconduct denied him a specific constitutional right.
The appropriate standard for a prosecutorial misconduct habeas claim, therefore, is “‘the narrow one of
due process, and not the broad exercise of supervisory
power.’” Darden v. Wainwright, 477 U.S. 168, 181
(1986) (quoting Donnelly v. DeChristoforo, 416 U.S.
637, 642 (1974)). Accordingly, “it is not enough that
the prosecutor’s remarks were undesirable or even
universally condemned.” Darden, 477 U.S. at 181
12 This claim is closely related to Petitioner’s claim raised in
Ground 9 regarding the language of the jury instruction regarding mitigating circumstances.
13 The entire portion of the OCCA’s opinion addressing this issue
is set forth in Ground 9, supra.

App.161a
(citation omitted). A prosecutor’s improper remarks
require reversal of a conviction or sentence only if
the remarks “so infected the trial with unfairness as
to make the resulting conviction a denial of due
process.” Donnelly, 416 U.S. at 643, 645 (1974). The
fundamental fairness inquiry requires an examination of the entire proceedings and the strength of the
evidence against the petitioner, both as to the guilt
stage and the sentencing phase. Id. at 643. “Any
cautionary steps–such as instructions to the jury–
offered by the court to counteract improper remarks
may also be considered. Counsel’s failure to object to
the comments, while not dispositive, is also relevant
to a fundamental fairness assessment.” Le v. Mullin,
311 F.3d 1002, 1013 (10th Cir. 2002) (citations omitted).
Petitioner has not demonstrated that his due
process rights were violated by any or all of the
prosecutor’s statements. See Thornburg v. Mullin,
422 F.3d 1113, 1124-25 (10th Cir. 2005) (holding that
the OCCA had adjudicated the merits of a due
process claim because the OCCA’s analysis of plain
error involved the same test used to determine
whether there was a denial of due process).
Unlike in Boyde the prosecutor here argued
to jurors during his closing that they should
not consider Payton’s mitigation evidence,
evidence which concerned postcrime as
opposed to precrime conduct. Because Boyde
sets forth a general framework for determining whether a challenged instruction
precluded jurors from considering a defendant’s mitigation evidence, however, the California Supreme Court was correct to structure

App.162a
its own analysis on the premises that controlled Boyde. The Boyde analysis applies
here, and, even if it did not dictate a particular outcome in Payton’s case, it refutes the
conclusion of the Court of Appeals that the
California Supreme Court was unreasonable.
[* * *]

Boyde, however, mandates that the whole

context of the trial be considered. And
considering the whole context of the trial, it
was not unreasonable for the state court to
have concluded that this line of prosecutorial
argument did not put Payton’s mitigating evidence beyond the jury’s reach.
The prosecutor’s argument came after the
defense presented eight witnesses, spanning
two days of testimony without a single objection from the prosecution as to its relevance.
As the California Supreme Court recognized,
like in Boyde, for the jury to have believed it
could not consider Payton’s mitigating evidence, it would have had to believe that the
penalty phase served virtually no purpose
at all.

Brown v. Payton, 544 U.S. 133, 143-44 (2005).
Upon review of the entire proceedings, the Court
determines that, considered alone or together, the
prosecutor’s remarks did not so infect the trial with
unfairness as to make the resulting conviction a denial of due process. For the reasons set forth in the
previous claim for relief, and for the rationale as
articulated by the Supreme Court in Boyde and Payton,

App.163a
the jury was not prevented from considering the evidence presented in support of Petitioner’s mitigating
circumstances. Petitioner has not demonstrated that
the OCCA’s determination was contrary to, or an unreasonable application of, clearly established federal
law. Accordingly, this claim is denied.
Ground 11: Victim Impact Witnesses.
Petitioner claims that the decedent’s son and
wife both expressed their opinion that death was the
appropriate sentence in violation of his Due Process
rights to a fair and reliable re-sentencing trial and
the clearly established Supreme Court precedent of
Booth v. Maryland, 482 U.S. 496 (1987) and Payne v.
Tennessee, 501 U.S. 808 (1991). Respondent responds
recognizing previous court opinions binding this court’s
review, but asserts the recommendations of punishment were harmless in light of the evidence presented.
In Petitioner’s resentencing trial, the decedent’s
son, Toby Taylor, and the decedent’s wife, Carolyn
Taylor, both expressed their opinions that death was
the appropriate sentence. On appeal, the OCCA refused
to reconsider its position that witnesses giving a
short, straight-forward recommendation for the imposition of the death penalty was statutorily permitted.
Merle Taylor’s son and wife each gave victim
impact evidence, and asked jurors to impose
the death penalty. Harris argues in Proposition VII that this recommendation was unconstitutional and denied him his right to a
fair trial. Harris admits that this Court has
held that family members of the victim may
recommend a sentence in a capital sentencing

App.164a
trial, but urges us to reconsider. We decline
this invitation.

Harris, 164 P.3d at 1110 (by footnote basing its determination on DeRosa v. State, 2004 OK CR 19, 89
P.3d 1124, 1151-52; Conover v. State, 1997 OK CR 6,
933 P.2d 904, 920; Ledbetter v. State, 1997 OK CR 5,

933 P.2d 880, 890-91, and stating “Harris does not claim
that the victim impact evidence itself was improper,
other than the recommendation of punishment.”).

In Hooper v. Mullins, 314 F.3d 1162 (10th Cir.
2002), the Tenth Circuit considered an identical claim
where the trial court permitted three members of the
victim’s family to testify they believed the defendant
deserved to die. The OCCA, as it has here, concluded
the trial court properly admitted the testimony.
Despite that determination, the Tenth Circuit agreed
with the petitioner that the OCCA’s determination
was contrary to clearly established Supreme Court
precedent:
The Supreme Court has held that “if the State
chooses to permit the admission of victim
impact evidence and prosecutorial argument
on that subject, the Eighth Amendment
erects no per se bar.” Payne v. Tennessee, 501
U.S. 808, 827, 111 S. Ct. 2597, 115 L.Ed.2d
720 (1991). In so holding, the Court overruled
its earlier decisions in Booth v. Maryland,
482 U.S. 496, 107 S. Ct. 2529, 96 L.Ed.2d
440 (1987), and South Carolina v. Gathers,
490 U.S. 805, 109 S. Ct. 2207, 104 L.Ed.2d
876 (1989). See Payne, 501 U.S. at 811, 817,
830, 111 S. Ct. 2597. Nonetheless, we have
recognized that “ Payne left one significant
portion of Booth untouched. . . . [T]he portion

App.165a
of Booth prohibiting family members of a
victim from stating ‘characterizations and
opinions about the crime, the defendant, and
the appropriate sentence’ during the penalty phase of a capital trial survived the
holding in Payne and remains valid.’’’ Hain,
287 F.3d at 1238-39 (quoting Payne, 501
U.S. at 830 n. 2, 111 S. Ct. 2597). Therefore,
the trial court erred by admitting this victimimpact testimony during Petitioner’s capital
sentencing proceeding. See id. at 1239.
Nonetheless, this constitutional error was
harmless because it did not have a “substantial and injurious effect or influence in
determining the jury’s verdict.” Brecht, 507
U.S. at 637, 113 S. Ct. 1710 (further quotation omitted); see also Willingham, 296 F.3d
at 931 (applying Brecht’s harmless-error
analysis to similar claim).

Payne also provides that victim-impact evi-

dence that is “so unduly prejudicial that it
renders the trial fundamentally unfair”
deprives a capital defendant of due process.
501 U.S. at 825, 111 S. Ct. 2597. Because the
victim-impact evidence did not have that
effect here, however, the OCCA reasonably
denied Petitioner relief on this due-process
claim. See Willingham, 296 F.3d at 931;
United States v. Chanthadara, 230 F.3d
1237, 1273-74 (10th Cir. 2000).

Hooper v. Mullins, 314 F.3d 1162, 1174 (10th Cir.
2002).

It was error, in respect to Booth and Payne, for
the witnesses to give their opinion of an appropriate

App.166a
sentence. This error alone will not provide a basis for
habeas relief unless it can be determined the error
was not harmless. Before a harmless error analysis
can be undertaken, it must first be determined what
type of error occurred-“trial error” or “structural”
error. Here, the error complained of by Petitioner is
“trial error” and a harmless error analysis is proper:
Trial error “occur[s] during the presentation
of the case to the jury,” and is amenable to
harmless-error analysis because it “may
. . . be quantitatively assessed in the context
of other evidence presented in order to determine [the effect it had on the trial]”. . . . At
the other end of the spectrum of constitutional errors lie “structural defects in the
constitution of the trial mechanism, which
defy analysis by ‘harmless-error’ standards”.
. . . The existence of such defects--deprivation
of the right to counsel, for example-requires automatic reversal of the conviction
because they infect the entire trial process.

Brecht v. Abrahamson, 507 U.S. 619, 629-30 (1993)
(citations and footnote omitted).14

14 The Court’s decision that this error is “trial error,” not requiring automatic reversal, is supported by the list of sixteen
cases set forth as example by the Supreme Court in Arizona v.
Fulimante, 499 U.S. 279, 306-308 (1991) (Rehnquist, J.)
detailing a wide range of errors to which harmless error analysis has been applied. Cases in which constitutional rights were
so basic as to preclude harmless error include: Payne v. Arkansas,
356 U.S. 560 (1958) (coerced confession); Gideon v. Wainwright,
372 U.S. 335 (1963) (right to counsel); and Tumey v. Ohio, 273
U.S. 510 (1927) (impartial judge).

App.167a
Admission of the witnesses’ sentence recommendation of death was error and this Court must,
therefore, assess the prejudicial impact of the error
under the “substantial and injurious effect” standard
set forth in Brecht. See Fry v. Pliler, 551 U.S. 112, 12122 (2007).
In Brecht, the Supreme Court held that an error
is harmless unless it “‘had substantial and injurious
effect or influence in determining the jury’s verdict.’”
Brecht, 507 U.S. at 631(quoting Kotteakos v. United
States, 328 U.S. 750, 776 (1946)). Although improper,
it is doubtful the witnesses’ concisely stated opinions
had much inflammatory impact compared to the
nature of the murder, the strength of the state’s case,
and the extensive evidence supporting the
aggravating circumstances. Petitioner shot and
killed a man who had placed himself between Petitioner and Ms. Harris and attempted to convince Petitioner he should not be at the transmission shop.
Petitioner also shot Ms. Harris and shot at an
innocent bystander. When he ran out of bullets and
experienced difficulties reloading his gun, Petitioner
used the weapon to beat Ms. Harris. These facts,
together with evidence of Petitioner’s long history of
violence, strongly support the jury’s finding of the
two aggravating circumstances.
Here, the witnesses’ opinions regarding sentencing
did not have a substantial and injurious effect on the
jury’s determination to recommend death as the
appropriate sentence. Accordingly, Petitioner’s claim
is denied.

App.168a
Ground 12: Re-allegation of the Continuing Threat
Aggravating Circumstance.
At his re-sentencing trial, the State re-alleged
the continuing threat to society aggravating circumstance. The jury in Petitioner’s first trial did not
choose continuing threat as one of the aggravating
circumstances. Petitioner claims this re-allegation is
a violation of his double jeopardy and due process
rights.
In Proposition VIII Harris argues that the
State improperly re-alleged the continuing
threat aggravating circumstance. In Harris’s
original trial and again at resentencing, the
State alleged that Harris would constitute a
continuing threat to society. At Harris’s first
trial, jurors did not find this aggravating circumstance. Harris claims that this failure is
equivalent to an acquittal, and that the State
was barred from re-alleging that he would
be a continuing threat in the resentencing
proceedings. This Court recently considered
and rejected this claim in Hogan v. State [,
139 P.3d 907, 929-30 (Okla. Crim. App.
2006)]. We will not reconsider it in this case.

Harris, 164 P.3d at 1110 (footnote omitted).
Petitioner first claims that the OCCA’s determination is based solely on state law and its refusal to
apply Supreme Court law is, therefore, contrary to
clearly established federal law as determined by the
Supreme Court. Petitioner’s assertion is mistaken for
two reasons. First, the OCCA relied on its previous
decision in Hogan v. State, as case in which it did
discuss and rely on federal law. Second, a state court

App.169a
need not even be aware of Supreme Court precedent so
long as neither the reasoning nor the result contradicts it. Early v. Packer, 537 U.S. 3, 8 (2002).
Petitioner asserts that the first jury “acquitted”
him of the great risk of death aggravating circumstance by not checking that box on the form in his
first trial, and that when the state subsequently
sought that aggravating circumstance in his resentencing trial it violated the Eighth Amendment
Double Jeopardy clause and Petitioner’s Due Process
rights.
In Poland v. Arizona, 476 U.S. 147 (1986), the
Supreme Court rejected a claim identical to the one
Petitioner presents here:
We reject the fundamental premise of petitioners’ argument, namely, that a capital
sentencer’s failure to find a particular
aggravating circumstance alleged by the prosecution always constitutes an “acquittal” of
that circumstance for double jeopardy purposes. Bullington indicates that the proper
inquiry is whether the sentencer or reviewing
court has “decided that the prosecution has
not proved its case” that the death penalty
is appropriate. We are not prepared to
extend Bullington further and view the
capital sentencing hearing as a set of minitrials on the existence of each aggravating
circumstance. Such an approach would push
the analogy on which Bullington is based past
the breaking point.

Poland v. Arizona, 476 U.S. at 155-56 (footnote omitted)
(emphasis in original).

App.170a
Petitioner acknowledges Poland is contrary to
his claim, but argues nonetheless that the subsequent Supreme Court decisions in Ring v. Arizona,
536 U.S. 584 (2002), Apprendi v. New Jersey, 530 U.S.
466 (2000), and especially Sattazahn v. Pennsylvania,
537 U.S. 101 (2003), entitle him to relief.15 Petitioner
relies on the following passage to argue that he was
acquitted of “‘murder plus two aggravating circumstances’ and convicted of the lesser offense of ‘murder
plus one aggravating circumstance’ because the jury
found the state had not met their burden of proof
beyond the reasonable doubt and ‘double jeopardy
protections attach to that ‘acquittal’ on the offense of
murder plus [two] aggravating circumstance(s).’” (Pet.
at 189):
In the post-Ring world, the Double Jeopardy
Clause can, and must, apply to some capitalsentencing proceedings consistent with the
text of the Fifth Amendment. If a jury unanimously concludes that a State has failed to
meet its burden of proving the existence of
one or more aggravating circumstances,
double-jeopardy protections attach to that
“acquittal” on the offense of “murder plus
aggravating circumstance(s).” Thus, Rumsey
was correct to focus on whether a factfinder
had made findings that constituted an
“acquittal” of the aggravating circumstances;
but the reason that issue was central is not
that a capital-sentencing proceeding is
“comparable to a trial,” 467 U.S., at 209,
15 Petitioner recognizes, however, that the procedural facts in
Sattazahn are different than those involved here. (Pet. at 188)

App.171a
104 S. Ct. 2305 (citing Bullington, supra, at
438, 101 S. Ct. 1852), but rather that “murder
plus one or more aggravating circumstances”
is a separate offense from “murder” simpliciter.

Sattazahn, 537 U.S. at 111-12. The Supreme Court
continued, however, in the next paragraph:

For purposes of the Double Jeopardy Clause,
then, “first-degree murder” under Pennsylvania law-the offense of which petitioner
was convicted during the guilt phase of his
proceedings-is properly understood to be a
lesser included offense of “first-degree murder
plus aggravating circumstance(s).” See Ring,
supra, at 609, 122 S. Ct. 2428. Thus, if petitioner’s first sentencing jury had unanimously
concluded that Pennsylvania failed to prove
any aggravating circumstances, that conclusion would operate as an “acquittal” of the
greater offense-which would bar Pennsylvania from retrying petitioner on that greater
offense (and thus, from seeking the death
penalty) on retrial. Cf. Rumsey, supra, at
211, 104 S. Ct. 2305.

Id. (emphasis added).
Here, Petitioner was not acquitted of the death
penalty. The jury in Petitioner’s first case found one
aggravating circumstance and sentenced him to death.
Thus, the first jury found the prosecution had proven
its case that the death penalty was appropriate. Petitioner has failed to demonstrate that the determination of the OCCA was contrary to, or an unreasonable application of, clearly established Federal law as

App.172a
determined by the Supreme Court. This ground for
relief is denied.
Ground 13: Ineffective Assistance of Counsel in the
2005 Resentencing Trial and Appeal.
The authority for establishing and determining
an ineffective assistance claim is set forth in detail in
Ground 5, supra, and need not be repeated here except
to reiterate that it is difficult to establish ineffective
assistance of appellate counsel, because counsel should
not raise every non-frivolous claim, but select among
them to maximize the likelihood of success. Miller v.
Mullin, 354 F.3d 1288, 1298 (10th Cir. 2004); see also
Smith v. Robbins, 528 U.S. 259, 288 (2000) (only when
ignored claims are clearly stronger than those raised
will the presumption of effective performance be overcome).
1. Appellate counsel effectiveness regarding Atkins’ claim.
Petitioner claims appellate counsel was ineffective for failing to claim that Petitioner’s Equal Protection and Due Process rights were violated when he
was “arbitrarily” denied a jury determination regarding his mental retardation.
Finally, Harris argues in Proposition I that
resentencing appellate counsel was ineffective for failing to claim that his denial of a
jury determination of mental retardation
denied him equal protection and due process.
Harris’s appeal after resentencing contained a
claim that resentencing counsel was ineffective for failing to seek a determination that
he was mentally retarded. We found that

App.173a
this decision did not support a finding of
ineffective assistance because, as nothing in
the record suggested Harris is retarded and
much suggests he is not, Harris failed to
show he was prejudiced by counsel’s omission.
Harris argues on post-conviction that resentencing appellate counsel should have
separately raised the constitutional claims.
He argues that he is similarly situated to
other defendants who have been granted
jury determination of this issue. As in his
direct resentencing appeal, Harris again misunderstands the Court’s jurisprudence on
this issue. He cites cases in which post-conviction defendants already on Death Row,
with no other recourse, filed post-conviction
claims of mental retardation. These defendants had already been sentenced to death
and sought an after-the-fact determination
that they were ineligible for that sentence.
As this Court does not engage in initial factfinding, those cases were remanded for jury
determination. Harris, by contrast, had not
yet received the death penalty or any other
sentence. He had the opportunity to raise
his claim of mental retardation in the trial
court, according to the procedures in effect
at that time. Harris is not similarly situated
to the capital post-conviction defendants
and was not entitled to the procedures used
in those cases. Neither his equal protection
nor due process rights were denied by the
procedures appropriate to his case. Harris
was not prejudiced by resentencing appel-

App.174a
late counsel’s failure to raise this constitutional claim.

Harris, 167 P.3d at 444-45 (footnotes omitted).
There is debate between the parties regarding
whether this claim has been exhausted. This court
need not make that determination as the claim can
be denied on the merits. This claim is closely related
to Petitioner’s claim in Ground 7. Here, however,
Petitioner claims that when the Supreme Court
decided Atkins, it created a “class” of people–criminal
defendants charged with a capital crime who are
mentally retarded and may not be subject to execution. Petitioner makes this claim based on Cleyburne
v. Cleyburne Living Center, Inc., 473 U.S. 432 (1985),
where the Supreme Court determined that the Equal
Protection Clause “is essentially a direction that all
persons similarly situated should be treated alike.”
Id. at 439.
The OCCA’s determination that Petitioner was
not similarly situated to other inmates allowed to
return to state court to raise their Atkins’ claims is not
unreasonable. As the OCCA identified, those inmates
had already been sentenced to death and sought an
“after-the-fact” determination they were ineligible to
receive a sentence of death because of their mental
retardation. Petitioner’s resentencing occurred after
the Supreme Court’s decision in Atkins, providing
him the opportunity to raise his claim that the other
death row inmates did not have. Petitioner also was
not denied due process as he had the opportunity to
present his claim in the trial court. The fact it was
not presented is discussed in the disposition of Petitioner’s Ground 7.

App.175a
For the reasons set forth above, and those in
Ground 7, supra, Petitioner has failed to demonstrate
either deficient performance or prejudice by appellate
counsel. Additionally, he has failed to demonstrate
the decision of the OCCA was contrary to, or an unreasonable application of, clearly established Supreme
Court law.
2. Failure to present additional mitigation evidence.
Petitioner claims that appellate counsel was
ineffective for failing to raise on direct appeal that
trial counsel was ineffective for failing to present
mitigating evidence from Petitioner’s daughters that
would have humanized him and shown that his life
was worth saving. Although his daughters did testify
at the resentencing trial, Petitioner complains that
the testimony was presented in a leading fashion and
without the substance and specifics with which his
daughters testified in his first trial.
Harris suggests resentencing trial counsel
failed to conduct reasonable investigation
when he did not allow Harris’s daughters to
testify as fully as they had in the first trial.
This claim is contradictory on its face;
resentencing trial counsel was familiar with
the record of the first trial, and made a
strategic choice not to use all the testimony
used in mitigation the first time. This is not
a failure to investigate.

Harris, 167 P.3d at 443, n. 19.
The OCCA’s determination is not unreasonable.
Petitioner’s daughters testified at the resentencing

App.176a
trial that they loved their father, were never abused
by him, that he was a good father to them and provided
for them, that they would visit him in prison and
stay in touch with him, and that they had provided
information to Dr. Draper who correctly described
their home life with their father. They also asked the
jury to spare his life. Trial counsel presented the jury
with a humanizing description of Petitioner’s life and
of his relationship with his daughters. Petitioner has
not demonstrated that trial counsel was either deficient
or that his performance was prejudicial.16 As such,
appellate counsel was not ineffective for failing to
raise this issue.
3. Failure to raise additional instances of
prosecutorial misconduct.
Petitioner next claims appellate counsel was
ineffective for failing to raise additional claims–other
than that raised on direct appeal–of prosecutorial
misconduct. Petitioner claims the prosecutor made
several statements in closing argument improperly
raising societal alarm, stated facts not in evidence,
and improperly argued victim impact testimony.
Harris also claims that resentencing appellate counsel failed to raise the issue of
prosecutorial misconduct. Harris’s resentencing appellate brief has no separate proposition claiming prosecutorial misconduct, but
misconduct issues are raised in Propositions
VI. Harris offers other examples of mis16 It is noteworthy that including the extra testimony of Petitioner’s
daughters in the first trial still resulted in the jury sentencing
Petitioner to death.

App.177a
conduct which he claims resentencing appellate counsel should have raised, emphasizing
the prosecutor’s use of the victim impact
statements in argument. Harris has not
claimed in this Application or on appeal that
the victim impact evidence itself was improper, and the record does not suggest otherwise.
He has failed to show with this example or
other references that prosecutorial argument deprived him of a fair trial with reliable results, or that an objection to the
argument would have resulted in a different
outcome.

Harris, 167 P.3d at 443-44.
As set forth in Petitioner’s tenth ground for relief,

supra, a prosecutor’s improper remarks require reversal of a conviction or sentence only if the remarks “so
infected the trial with unfairness as to make the
resulting conviction a denial of due process.” Donnelly,
416 U.S. at 643, 645 (1974).

Petitioner first claims the prosecutor incited
societal alarm and argued facts not in evidence when
in his first closing argument he argued the similarities between Petitioner’s actions and a terrorist,
and stated it was fortunate Petitioner didn’t have an
automatic weapon. Petitioner does not identify any
facts improperly argued other than that there was no
evidence presented that he was a terrorist or that he
had or wanted an automatic rifle. He only describes
the prosecutor’s closing argument at satirical and
causing societal alarm. The prosecutor’s argument
was in response to defense counsel’s question to the
jury in his closing asking if they saw differences
between Petitioner and a terrorist. See Thornburg v

App.178a

Mullin, 422 F.3d 1113, 1131 (10th Cir. 2005) (argu-

ment invited or in response to defense counsel easily
falls within the wide latitude of argument allowed to
prosecutors). Evidence was presented that Petitioner
emptied his pistol and then attempted to reload it. In
addition to shooting Mr. Taylor and Ms. Harris, he
also shot at a third person that happened to be in the
building. When he couldn’t reload his pistol, he
physically beat Ms. Harris. The prosecutor argued
when considering the events that it was fortunate
Petitioner didn’t have an automatic weapon. A prosecutor may comment on and draw reasonable inferences from evidence presented at trial. Hooper v.
Mullin, 314 F.3d 1162, 1172 (10th Cir. 2002).
Regarding the victim impact testimony, Petitioner claims the prosecutor’s reading almost verbatim the victim impact statements served to inflame the
passions of the jury and improperly invoke sympathy.
Victim impact is evidence properly admitted in the
trial and the prosecutor is permitted to discuss the
evidence during closing argument. Petitioner has not
demonstrated, other than summarily concluding that
the comments were improper and inflamed the jury,
the prosecutor’s arguments so infected the trial with
unfairness as to make the resulting conviction a denial of due process. He has also failed the demonstrate
the OCCA’s determination to be unreasonable.
4. Claim Regarding Handcuffs
Restraints Worn in Courtroom.

and

Petitioner claims appellate counsel was ineffective
for failing to interview jurors from his resentencing
trial and failing to present a claim that he was

App.179a
observed wearing handcuffs and restraints in the
presence of jurors in violation of his due process rights.
Harris argues that resentencing appellate
counsel should have raised the issue that
resentencing jurors saw him in handcuffs as
he was escorted into the courtroom before
trial. He fails to demonstrate any prejudice,
and this will not support a claim of ineffective
assistance of resentencing appellate counsel.

Harris, 167 P.3d at 444 (footnote omitted).
This claim is virtually identical to Petitioner’s
previous claim raised in subpart three of his fifth
ground for relief.17 The differences are minor. This
claim involves his resentencing jury and his argument involves juror statements claiming they would
arrive early to court and would see the deputy escorting
Petitioner into the courtroom with handcuffs or
restraints. This issue has been addressed in Petitioner’s fifth ground for relief and will not be repeated
here. The argument and authority set out previously
is incorporated here. Petitioner has not demonstrated
that appellate counsel was ineffective.
5. Claim regarding continuing threat
aggravating circumstance.
Finally, Petitioner claims appellate counsel was
ineffective for failing to raise the issue that the jury’s
finding of the continuing threat aggravating circumstance was not unanimous as required by Oklahoma
law. Petitioner relies on two affidavits to claim that
17 Comparison between the two reveals a majority of the argument and authority presented is an exact reproduction.

App.180a
the jury did not reach a unanimous verdict on the
aggravating circumstance.
Harris claims resentencing appellate counsel
was ineffective for failing to raise the issue
of the validity of the continuing threat
finding. The record reflects that the jury found
Harris was a continuing threat to society
and that, when polled, each juror affirmed
that finding and the sentence of death.
Harris relies on juror affidavits to suggest
that not all jurors were unanimous regarding the continuing threat aggravating circumstance. A juror may not testify to any
matter or statement made during deliberations which influenced his mental processes or verdict, other than extraneous
prejudicial information or outside influences.
We cannot consider these juror affidavits,
and this claim cannot support a finding of
ineffective assistance of resentencing appellate counsel.

Harris, 167 P.3d at 444 (footnote omitted).
Petitioner claims the OCCA’s determination of
each juror’s affirmation of the verdict was an unreasonable determination in light of the record. The
record reveals, however, that the trial court asked
the foreperson if the verdict was unanimous as to both
aggravating circumstances and as to the sentence of
death. The trial court then asked each individual
juror if that was their verdict. Petitioner has not
demonstrated that the OCCA’s factual determination
that the jurors were polled regarding the aggravating circumstances was unreasonable.

App.181a
Petitioner has also not demonstrated the OCCA’s
inability under state law to consider the affidavits to
be unreasonable. Tit. 12 O.S. 2001, sec. 2606(B) precludes offering evidence regarding a juror’s mental
processes during deliberations. Petitioner asserts that
the corresponding federal rule, Fed. R. Evid. 606(b),
permits testimony about an error in entering the
verdict onto the verdict form. Reliance on the federal
evidence rule is misplaced, however, because that rule
relates only to the determination of the admissibility
of evidence in federal cases. Petitioner has provided no
Supreme Court authority requiring the consideration
of juror affidavits to impeach a verdict, nor has he
demonstrated the OCCA’s determination to be contrary to, or an unreasonable application of, clearly
established law.
For the foregoing reasons, Petitioner’s thirteenth
ground for relief is denied in its entirety.
Ground 14: Cumulative Error.
Petitioner claims that the accumulation of errors
in his resentencing trial violated his rights under the
Fifth, Sixth, Eighth and Fourteenth Amendments.
Petitioner raised this issue in his 2005 direct appeal
from his resentencing trial. The OCCA determined
the accumulation of errors did not warrant relief:
In Proposition XII Harris claims that the
accumulation of errors in the preceding propositions requires relief. In Proposition III,
we found the trial court erred in failing to
bring the jury into open court when a question
was presented in deliberations, but that error
was harmless. In Proposition VI we found that
error in argument was cured by instructions.

App.182a
Even taken together, these errors do not require relief.

Harris, 164 P.3d at 1119 (footnote omitted).
Petitioner also requested cumulative review in
his 2005 post-conviction proceedings:
Harris claims in Proposition III that the
accumulation of error on appeal and in postconviction require relief. No authority allows
this Court to consider, on post-conviction,
errors raised on direct appeal which were
not also raised as error in the post-conviction claim. We have determined that trial,
resentencing, and appellate counsel were
not ineffective. There is no cumulative error
to consider.

Harris, 167 P.3d at 445 (footnotes omitted).
Authority regarding cumulative review was set
forth in consideration of Petitioner’s sixth ground for
relief and need not be repeated here. Upon review of
the entire trial transcript and the evidence and
testimony presented, the Court does not find the
cumulation of those errors determined to be harmless
had a “substantial and injurious effect or influence in
determining the jury’s verdict.” Brecht v. Abrahamson, 507 U.S. 619, 637 (1993). In addition to the
errors found by the OCCA, the only error found by
this court was the victim impact statements making
sentence recommendations. That error was determined to be harmless. The errors were not so egregious
or numerous as to prejudice Petitioner to the same
extent as a single reversible error. The cumulative
effect of the errors, when compared with the evidence
and testimony presented at trial, did not significantly

App.183a
strengthen the state’s case or diminish Petitioner’s
case. No reasonable probability exists that the jury
would have sentenced Petitioner differently absent the
errors. Accordingly, Petitioner’s fourteenth ground
for relief is denied.
CONCLUSION
After a complete review of the transcripts, trial
records, appellate record, record on post-conviction
proceedings, briefs filed by Petitioner and Respondent, and the applicable law, the Court finds Petitioner’s request for relief in his Petition For Writ of
Habeas Corpus (Dkt. No. 32) should be denied.
ACCORDINGLY, habeas relief is DENIED on all
grounds. An appropriate judgment will be entered.
IT IS SO ORDERED this 19th day of April, 2017.

App.184a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT
DENYING PETITION FOR REHEARING
(DECEMBER 24, 2019)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
JIMMY DEAN HARRIS,

Petitioner-Appellant,
v.
TOMMY SHARP, INTERIM WARDEN,
OKLAHOMA STATE PENITENTIARY,

Respondent-Appellee.

________________________
No. 17-6109

Before: TYMKOVICH, Chief Judge,
BACHARACH, and McHUGH, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in
regular active service. As no member of the panel
and no judge in regular active service on the court
requested that the court be polled, that petition is
also denied.

App.185a
Entered for the Court
/s/ Elisabeth A. Shumaker
Clerk

App.186a
OPINION OF THE COURT OF CRIMINAL
APPEALS OF OKLAHOMA
(JULY 19, 2007)
COURT OF CRIMINAL APPEALS OF OKLAHOMA
________________________
JIMMY DEAN HARRIS,

Appellant,
v.
STATE OF OKLAHOMA,

Appellee.

________________________
No. D-2005-117
Before: CHAPEL, Judge.
CHAPEL, Judge

¶ 1. Jimmy Dean Harris was tried by jury and
convicted of Murder in the First Degree in violation
of 21 O.S. 1991, § 701.7, in the District Court of Oklahoma County, Case No. CF-1999-5071. On appeal,
this Court reversed the punishment of death recommended by the jury and imposed by the trial court,
and remanded the case for resentencing.1 The jury at
1 Harris v. State, 2004 OK CR 1, 84 P.3d 731. Harris was also
convicted of Shooting with Intent to Kill and Assault and
Battery with a Dangerous Weapon, and sentenced to life and
ten years imprisonment. These convictions and sentences were
upheld on appeal.

App.187a
Harris’s resentencing trial found that Harris knowingly
created a great risk of death to more than one person,
and constituted a continuing threat to society. In
accordance with the jury’s recommendation, the Honorable Virgil C. Black imposed the death penalty.
Harris appeals from this sentence.
¶ 2. Harris, who was a skilled transmission
mechanic, and his wife, Pam, worked in front office
positions in transmission shops. Throughout their
relationship the two often worked together. Despite
being business partners as well as husband and wife,
they had a stormy relationship. This worsened significantly when Pam was hired, but Harris was not, to
work in Merle Taylor’s AAMCO transmission shop in
Oklahoma City. Harris commuted to work in Texas
for several months, during which time the marriage
suffered. After Harris had a work-related accident,
he returned to Oklahoma. By the summer of 1999,
Pam told him the marriage was over. While Harris
agreed to a divorce, he was angry and upset, and continued to hope Pam would return to him. In midAugust of 1999, Harris called Pam, threatening to
kill her, her parents, their daughter, her co-workers,
and Merle Taylor. Pam got a protective order against
Harris and filed for divorce. The divorce was granted
on August 25, 1999, and Harris was ordered to leave
the home without removing any property. Harris and
Pam had previously taped an agreement dividing the
house property. On the evening of the 25th, Harris
moved out of the home, taking furniture and many of
Pam’s personal possessions. He also vandalized the
house. Pam discovered the damage the next day,
found out where Harris had stored her furniture and
his tools, and had a lock put on that shed. In the

App.188a
succeeding days Harris called Pam often demanding
that she remove the lock. Each time, she explained
she could neither talk to him nor remove the lock,
and told him to call her attorney. He refused,
explicitly stating he would talk to her. He continued
to threaten her and others. On August 31, 1999, he
threatened to kill Pam and was seen driving by the
AAMCO shop.
¶ 3 . On the morning of September 1, 1999, Harris
called the AAMCO shop several times, demanding
that she remove the lock on the storage shed and
threatening Pam and Merle Taylor. At approximately 9:00 a.m. Harris arrived at the shop and asked
for Pam, who was standing with Merle Taylor and
his daughter-in-law Jessica. He shot Taylor twice at
close range, and shot at Jessica. Harris shot Pam,
chased her when she ran, and pistol-whipped her
when he ran out of bullets and could not quickly reload
his gun. When Pam escaped, Harris fled, discarded
the gun and his van, and hid in a friend’s garage.
Harris claimed he was angry and upset, and could not
make good decisions because he was of low intelligence,
was under the influence of alcohol and drugs, and
was mentally ill (although not legally insane).
¶ 4. To support the aggravating circumstances,
the State presented the evidence of the circumstances of the crimes. There was also evidence that,
during the ongoing difficulties in mid-August, Pam
had called police and Harris had resisted arrest. The
State presented evidence that Harris assaulted a
jailer while awaiting trial, and had physically, verbally
and emotionally abused Pam throughout their relationship. The State also presented victim impact evidence. In mitigation, Harris presented evidence from

App.189a
his family and former co-workers, as well as expert
evidence, regarding his traumatic and abusive childhood, history of substance abuse, low intelligence,
emotional instability, and possible mental illness.
Issues Regarding Jury Selection
¶ 5. In Proposition V Harris claims that the trial
court’s failure to provide the jury with cautionary instructions on the taking and use of notes during trial
and deliberation deprived him of his rights to a fair
trial and due process. The trial court allowed jurors
to take notes during the course of the trial and provided them with notebooks and pencils. The court
told jurors that any notes they took were for their
personal use, and would not become part of the
public record. However, the trial court did not instruct
jurors on the taking and use of notes during trial or
deliberations. Harris claims this omission deprived
him of a right to a fair trial and due process. He
neither requested these instructions at trial, nor
objected to the trial court’s failure to give them, and
has waived all but plain error. There is none.
¶ 6. In Cohee v. State we held that a trial court
may, in its discretion, allow jurors to take notes.2 While
Cohee explained why note-taking may be beneficial,
and set forth guidelines for the trial court’s
consideration, it did not promulgate or require any
specific instructions on the process of note-taking.3
The Uniform Jury Instructions include instructions
on note-taking which are based on the comments and
2 Cohee v. State, 1997 OK CR 30, 942 P.2d 211, 213.
3 Cohee, 942 P.2d at 214-15.

App.190a
guidelines in Cohee.4 The Notes on Use to the Uniform Jury Instructions (revised) note that, in keeping
with Cohee, these instructions are recommended, not
mandatory. Trial courts should use both mandatory
and recommended uniform instructions which accurately state the applicable law.5 However, the failure
to use recommended instructions does not require
reversal where the jury is accurately instructed on
the law. In Hanson v. State,6 this Court previously
considered the failure to use the recommended instructions on jury note-taking. We determined that
this omission was not plain error, where the instructions to the jury, “taken as a whole, fairly and
accurately stated the applicable law, channeling juror’s
discretion in their use of notes.”7 The trial court told
jurors that notes were for their personal use only.
Jurors were otherwise properly instructed on their
function, the definition of evidence, and the trial and
deliberations process. Taken together, these instructions properly narrowed the jury’s discretion to use
notes taken during trial. The trial court’s omission
was not plain error.
Issues Relating to the Sentencing Stage of Trial
¶ 7. Harris argues in Proposition III that the
trial court’s failure to provide a complete record of
the proceedings leading to his death sentence violated
his constitutional rights. In a capital case, the State
4 OUJI-CR (2d) 1-9, 10-8A.
5 12 O.S. 2001, § 577.2.
6 2003 OK CR 12, 72 P.3d 40, 46.
7 Hanson, 72 P.3d at 46.

App.191a
has the burden to ensure a complete record of the trial
is provided, which will enable the Court to conduct
its mandatory sentence review.8 However, failure to
provide a complete record is not per se reversible
error.9 In Pickens v. State, private conversations
with two jurors during voir dire were not recorded.
The Court found that, as no errors were alleged
during jury selection and the potential jurors were
excused for cause, no error was shown and our
ability to conduct the mandatory sentence review
was not affected.10 By contrast, in Van White the
parties completely failed to transcribe voir dire proceedings. This deprived the Court of the ability to
consider potential juror bias or other questions of
improper juror prejudice as part of our mandatory
sentence review, and required reversal.11 The defendant must show that the failure to transcribe a
portion of the trial resulted in error and affects this
8 Van White v. State, 1988 OK CR 47, 752 P.2d 814, 820-21.
9 Pickens v. State, 2001 OK CR 3, 19 P.3d 866, 881. In Pickens,
private conversations with two jurors during voir dire were not
recorded. The Court found that, as no errors were alleged
during jury selection and the potential jurors were excused for
cause, no error was shown and our ability to conduct the
mandatory sentence review was not affected.
10 Pickens, 19 P.3d at 881. See also Mooney v. State, 1999 OK
CR 34, 990 P.2d 875, 884 (failure to transcribe competency
hearing was cured when an evidentiary hearing determined
application for competency had been denied); Cannon v. State,
1998 OK CR 28, 961 P.2d 838, 848 (failure to transcribe reading
of instructions to the jury not error where written instructions
are included in record on appeal); Parker v. State, 1994 OK CR
56, 887 P.2d 290, 294 (failure to transcribe bench conferences
did not require reversal);
11 Van White, 752 P.2d at 821.

App.192a
Court’s ability to conduct a mandatory sentence
review.12 Harris fails to meet this standard. As our
discussion shows, this record is complete enough for
this Court to determine whether the jury’s verdict
was imposed under the influence of passion, prejudice,
or any other arbitrary factor, and whether sufficient
evidence supports the aggravating circumstances.13
¶ 8. During deliberations, Harris’s jury asked for
a dictionary. The trial court responded in writing by
asking what word the jury wanted defined. Jurors
replied that they wanted definitions for “probability”
and “possibility”. The trial court sent typewritten
dictionary definitions of those words to the jury room.
While this exchange of notes is physically preserved,
the trial record makes no mention of them. There is
no indication whether the trial court discussed these
requests with the parties, or if so, whether defense
counsel agreed to the trial court’s resolution of the question.14
¶ 9. Harris first claims that this Court cannot
determine whether the trial court appropriately
answered the jury by supplying the requested
dictionary definitions without knowing the context for
the jury’s request. Harris suggests that a dictionary
definition would be inappropriate for “some words”
which are legal terms of art, but fails to show that
12 Pickens, 19 P.3d at 881.
13 21 O.S. 2001, § 701.13.
14 The State argues that there is no record Harris objected to
these instructions, so the issue is waived. The lack of record is
Harris’s point. As the Court cannot determine from this record
whether Harris had an opportunity to object, we will not consider
the claim waived.

App.193a
either “probability” or “possibility” falls within that
category. The word “possibility” is found in every instruction which mentions the punishment alternatives “imprisonment for life without the possibility of
parole, or imprisonment for life with the possibility
of parole.”15 “Probability” occurs in the context of the
continuing threat aggravating circumstance, “a
probability that the defendant would commit criminal
acts of violence that would constitute a continuing
threat to society.”16 These are the only contexts in
which these words are mentioned in the jury instructions. Harris would have this Court speculate on
other contexts within which the jury might have
wanted definitions of the words, but does not show
any context in which a dictionary definition would be
improper. Harris recognizes that we have recently
warned trial courts against allowing jurors any outside reference material in deliberations, including
dictionaries.17 The trial court here acted appropriately in refusing the jury’s request to have a dictionary
in the room during deliberations. However, the trial
court attempted to be responsive to the jury’s request,
as we encourage trial courts to do,18 and provided
the exact information jurors requested. Neither the
record before us, nor Harris’s argument, suggests
that this decision was an abuse of discretion. As
counsel could not have been ineffective had counsel
15 Instructions 1, 3, 6, 10, 16; O.R. IX, 1598, 1601, 1604, 1611,
1619.
16 Instructions 2, 4, 5, 7; O.R. IX, 1599, 1602, 1603, 1605.
17 Glossip v. State, 2001 OK CR 21, 29 P.3d 597, 605.
18 Cohee, 942 P.2d at 215 (trial court should attempt to answer
juror questions as fully as the law permits).

App.194a
failed to object to this decision, the incomplete record
on this issue does not impede our ability to conduct a
review.
¶ 10. Harris also claims that the trial court
violated statutory procedures in handling the jury’s
questions. If jurors express disagreement regarding
testimony or have a question on a point of law, they
should be brought into court and the trial court
should answer their question only in the presence of
all parties, or after they have been called.19 Harris
suggests this Court must presume prejudice from the
trial court’s failure to follow this procedure, because
the circumstances surrounding the trial court’s receipt
of and answer to the questions were not transcribed.
However, the record, in the form of the written notes,
shows that the trial court did not abuse its discretion
in answering jurors by giving them what they
requested, without allowing a dictionary into the jury
room. On this record, the trial court’s failure to follow
the statutory procedure is harmless.20
¶ 11. Here, as the State notes, the appellate record
contains the written notes exchanged between trial
court and jury. The record does not show whether
defense counsel had an opportunity to object to the
trial court’s instruction defining the words “probability”
and “possibility”. However, this Court is able to
review the exchange itself.21 We have done so, and
19 22 O.S. 2001, § 894.
20 Welch v. State, 1998 OK CR 54, 968 P.2d 1231, 1245.
21 Cannon, 961 P.2d at 848 (ability to review not impeded where
Court can determine from the record what instructions were
given to jury).

App.195a
concluded that (a) the trial court did not abuse its
discretion in providing dictionary definitions to jurors,
and (b) the trial court’s failure to bring the jury into
open court upon receiving the request did not prejudice
Harris. The record is sufficient to allow this Court to
conduct its mandatory sentence review.
¶ 12. Merle Taylor’s son and wife each gave victim
impact evidence, and asked jurors to impose the
death penalty. Harris argues in Proposition VII that
this recommendation was unconstitutional and denied
him his right to a fair trial. Harris admits that this
Court has held that family members of the victim
may recommend a sentence in a capital sentencing
trial,22 but urges us to reconsider. We decline this
invitation.
¶ 13. In Proposition VIII Harris argues that the
State improperly re-alleged the continuing threat
aggravating circumstance. In Harris’s original trial
and again at resentencing, the State alleged that
Harris would constitute a continuing threat to society.
At Harris’s first trial, jurors did not find this
aggravating circumstance. Harris claims that this
failure is equivalent to an acquittal, and that the
State was barred from re-alleging that he would be a
continuing threat in the resentencing proceedings.
This Court recently considered and rejected this

22 See, e.g., DeRosa v. State, 2004 OK CR 19, 89 P.3d 1124, 115152; Conover v. State, 1997 OK CR 6, 933 P.2d 904, 920; Ledbetter
v. State, 1997 OK CR 5, 933 P.2d 880, 890-91. Harris does not
claim that the victim impact evidence itself was improper, other
than the recommendation of punishment.

App.196a
claim in Hogan v. State.23 We will not reconsider it
in this case.
¶ 14. Harris claims in Proposition IX that insufficient evidence supported the jury’s finding of the
continuing threat aggravating circumstance. The jury
found that there existed a probability that Harris
would commit criminal acts of violence which would
constitute a continuing threat to society. Harris claims
the State presented insufficient evidence that he
presented a continuing threat to society. To support
this aggravating circumstance, the State must show
that Harris’s past behavior, through convictions or
unadjudicated crimes, showed a pattern of criminal
conduct which will probably continue to exist in the
future.24 On appeal, we will uphold the jury’s finding
if, after reviewing the evidence in the light most
favorable to the State, any rational trier of fact could
find the charged aggravating circumstance beyond a
reasonable doubt.25
¶ 15. Harris admits that the State offered four
separate types of evidence to prove this aggravating
circumstance. All were admissible to show a pattern
of violence which was likely to continue. This Court
has upheld use of both the circumstances of the crime
and unadjudicated offenses to support this aggravating
23 Hogan v. State, 2006 OK CR 19, 139 P.3d 907, 929-30, cert.
denied, 549 U.S. 1139, 127 S. Ct. 994, 166 L.Ed.2d 751 (2007). I
dissented on this issue in Hogan, and yield my vote on the basis
of stare decisis.
24 Malicoat v. State, 2000 OK CR 1, 992 P.2d 383, 397.
25 Warner v. State, 2006 OK CR 40, 144 P.3d 838, 878; DeRosa,
89 P.3d at 1153; Malicoat, 992 P.2d at 397.

App.197a
circumstance.26 Common evidence used to prove that
a defendant is a continuing threat to society includes
“the defendant’s history of violent conduct, the facts
of the homicide at issue, threats made by the defendant, lack of remorse, attempts to prevent calls for
help, mistreatment of family members and testimony
of experts.”27 While Harris claims that, at best, the
State’s evidence shows he was a danger to Pam, in
fact the evidence taken as a whole shows Harris has
a lifelong pattern of using violence to solve problems
and react to situations which is likely to continue.
¶ 16. Through Pam, family members, and coworkers, the State offered evidence of ongoing domestic
violence, including Harris’s physical, verbal and mental
abuse of Pam, which lasted throughout the course of
their relationship. Among other things, Harris dislocated Pam’s jaw, kicked her in the face, slammed
her legs in a car door, and pushed and shoved her.
Due to arguments, his drinking, and the threat of
violence, Pam left Harris between eighty and 100
times during the course of their marriage, only to
return after each episode ended. Some witnesses also
testified that Pam instigated arguments with Harris,
got the better of him in verbal arguments, and even
pushed him. Harris characterizes all this as evidence
of a dysfunctional marriage. However, where the evidence conflicts, this Court will not substitute its
26 See, e.g., Hooper v. State, 2006 OK CR 35, 142 P.3d 463, and
cases cited therein. I continue to believe that evidence of unadjudicated offenses should not be admitted to support the
continuing threat aggravating circumstance. I find that, even
without this evidence, sufficient evidence supports the finding
of this aggravating circumstance beyond a reasonable doubt.
27 Malicoat, 992 P.2d at 397.

App.198a
judgment regarding the weight and credibility of the
evidence for that of the jury’s.28
¶ 17. The State also presented evidence of other
violent episodes in Harris’s life. His own expert and a
brother testified that he had been in fights as a child
and bar fights throughout his life. Harris claims without citation that this evidence was inadmissible to
support the continuing threat aggravating circumstance as no details were given regarding the fights.
He did not object to this testimony at trial and we
review for plain error only. There is none. Harris
himself told Dr. Draper that he had fought in school,
had been expelled for fighting, and got in bar fights.
Dr. Draper relied on this information in forming her
opinion, and was required to testify regarding it if
asked on cross-examination.29 His brother testified
about the beginnings of bar fights he had witnessed,
and about a particular bar fight in which Pam was
involved or present.30 Harris argues that these episodes
have no bearing on his potential for future dangerousness. On the contrary, Dr. Draper testified regarding Harris’s emotional instability and difficulty
handling stress, solving problems, and making good
28 Malicoat, 992 P.2d at 397. While the Court must independently assess the record evidence and determine that such evidence supports the jury’s finding of an aggravating circumstance, Battenfield v. State, 1991 OK CR 82, 816 P.2d 555, 565,
this merely reflects the appropriate standard of review. We will
not substitute our judgment for that of the jury’s where sufficient evidence is present.
29 12 O.S. 2001, § 2705.
30 Mark Harris testified that he had not necessarily seen Harris
commit acts of violence because “I usually leave if it gets that
bad.”

App.199a
choices when angry. Harris’s propensity for physical
fights bears directly on his probable future reactions
in these circumstances.
¶ 18. The State offered several episodes from
August, 1999, as the difficulties between Pam and
Harris escalated. On August 15, Pam called the police
from her parents’ house. She reported Harris was at
the family home, had threatened her, her family, and
her co-workers, and she believed he was armed.
When police came, Harris met them in the yard. The
officers asked him to lift up his loose shirt and turn
around, explaining they needed to check for a weapon.
He initially appeared to comply, hesitated, then ran
into the house and locked the door. The police kicked
in the door and ordered Harris to the floor. When he
refused to comply, they subdued and handcuffed him,
and arrested him for resisting an officer. Subsequently, Harris telephoned Pam several times threatening
to kill her. When he left the house on August 25, he
violated the trial court’s order by moving furniture
and Pam’s personal belongings and vandalizing the
house. The act of resisting arrest and death threats
are relevant to Harris’s future dangerousness. While
vandalism, a nonviolent crime, is not in itself indicative
of future danger, under the circumstances of this case
it reflects the pattern of escalating violence which
resulted in the crimes.
¶ 19. Harris had no prior convictions, and only
one disciplinary write-up from his years of incarceration in this case. On April 11 2001, while awaiting
his preliminary hearing in the Oklahoma County
jail, Harris was put on suicide watch. Officer Hill
was required to make visual contact with Harris
through a cell window every fifteen minutes. Harris

App.200a
blocked the window with paper, and refused to answer
when Hill knocked on the door and called his name.
As soon as Hill opened the door and stepped inside
the cell, Harris attacked him. Harris did not try to
escape the cell, but instead punched and kicked Hill
and temporarily disabled his radio. He was eventually
subdued by several jailers. Harris asserts this action
has no bearing on the probability that he constitutes a
continuing threat to society. On the contrary, Harris’s
willingness to attack a jailer, while possibly affected
by his mental state, bears directly on his propensity
for future violence.
¶ 20. In addition to the evidence above, the State
offered the circumstances of the crimes themselves.31
After explicitly threatening to kill Pam and Merle
Taylor, Harris drove to the AAMCO shop. He was
armed and carried extra ammunition. When Harris
said he needed to talk to Pam, Taylor reminded him
he was not supposed to be at the shop. Harris
knocked Taylor down and shot him twice. He pointed
the gun and shot at other workers in the area. As
they fled, Harris shot Pam, hitting her once. As he
continued to shoot she ran. When she tripped, he
attempted to shoot her in the head, grazing her scalp.
He tried unsuccessfully to reload the weapon, then
pistol-whipped her. Pam fought back, pinning Harris’s
31 I have disagreed with the use of the circumstances of the
crime to support this aggravating circumstance, but yield to the
majority. Hooper v. State, 1997 OK CR 64, 947 P.2d 1090, 1108
n. 58; Cannon v. State, 1995 OK CR 45, 904 P.2d 89, 106 n. 60.
In addition to the circumstances of the crime and unadjudicated
offenses, I find there is sufficient other evidence of continuing
threat to support the jury’s finding of this aggravating circumstance.

App.201a
arms in his shirt, and escaped. Harris then fled the
scene.
¶ 21. Evidence that Harris constitutes a
continuing threat to society included ongoing domestic
violence, fighting since childhood, resisting arrest, death
threats, an attack on a jailer, and the circumstances
of the crime. Taking the evidence in the light most
favorable to the State, any rational trier of fact could
find, beyond a reasonable doubt, a pattern of criminal
conduct which will probably continue to exist in the
future. Sufficient evidence was presented to show
there exists a probability that Harris will constitute
a continuing threat to society.
¶ 22. In Proposition X Harris claims that the
aggravating circumstance that he would constitute a
continuing threat to society is unconstitutional on its
face and as applied in Oklahoma. He argues that (a)
Oklahoma’s statutory definition does not meet standards set forth by the United States Supreme Court;
and (b) that, as applied in Oklahoma courts, the
aggravating circumstance is not easily understood
and fails to channel the jury’s discretion. Harris
admits that this Court has previously considered and
rejected this claim.32 We do not reconsider it here.
Issues Relating to Jury Instructions
¶ 23. In Proposition IV Harris argues the trial
court erred in failing to instruct the jury that, if convicted of murder and sentenced to life with the
possibility of parole, he would have to serve 85% of
32 See, e.g., Warner, 144 P.3d at 879; Myers v. State, 2006 OK
CR 12, 133 P.3d 312, 333-34; Wackerly v. State, 2000 OK CR
15, 12 P.3d 1, 16; Malicoat, 992 P.2d at 400.

App.202a
his sentence. Harris faced three potential sentences:
death, life without the possibility of parole, or life
imprisonment. By statute, any person committing an
enumerated offense on or after March 1, 2000, must
serve 85% of the latter sentence before being eligible
to be considered for parole (the 85% Rule).33 This
Court held in Anderson v. State that jurors should be
instructed on the 85% Rule in every case to which it
applies.34 The record does not indicate that Harris
asked for an instruction on the 85% Rule, but he
claims that he is entitled to relief because his jury
was not so instructed. He is mistaken. Harris’s crimes
were committed on September 1, 1999. On its face,
the 85% Rule does not apply here. This proposition is
denied.
¶ 24. In Proposition VI Harris argues that the
uniform jury instruction on mitigating circumstances,
OUJI-CR (2d) 4-78, which was given to his jury, unconstitutionally limited the jury’s ability to consider
his mitigating evidence. A capital defendant “must
be allowed to introduce any relevant mitigating evidence regarding his character or record and any of
the circumstances of the offense.”35 “It is settled that
a defendant may present in mitigation any aspect of
his record or character, and any circumstances of the
crime that could possibly convince a jury that he is
33 21 O.S. 2001, §§ 12.1, 13.1.
34 Anderson v. State, 2006 OK CR 6, 130 P.3d 273, 282.
35 California v. Brown, 479 U.S. 538, 541, 107 S. Ct. 837, 839,
93 L.Ed.2d 934 (1987) (citations omitted); Eddings v.
Oklahoma, 455 U.S. 104, 110, 102 S. Ct. 869, 874, 71 L.Ed.2d 1
(1982); Lockett v. Ohio, 438 U.S. 586, 604, 98 S. Ct. 2954, 2964, 57
L.Ed.2d 973 (1978).

App.203a
entitled to a sentence less than death. Likewise, a
defendant is also entitled to present any evidence
that may assist in rebutting an aggravating circumstance.”36 When considering whether to recommend
the death penalty, jurors must look at both the circumstances of the crime and the personal characteristics
and propensities of the defendant.37 The reference to
a defendants characteristics will necessarily include
evidence which may be mitigating in nature, but will
not extenuate or reduce his moral culpability for the
crime. Given this settled law, we must agree with the
Tenth Circuit’s conclusion that any attempt to limit a
jury’s consideration of mitigating evidence only to that
evidence which may make a defendant less guilty, or
the crime less horrible, is unconstitutional.38 This is
true whether the attempted limitation occurs through
instruction or argument.
¶ 25. Harris argues that the plain language of the
uniform instruction’s first sentence itself limits the
jury’s consideration of mitigating evidence. That
sentence reads: “Mitigating circumstances are those
which, in fairness, sympathy, and mercy, may extenuate or reduce the degree of moral culpability or
36 Fitzgerald v. State, 2002 OK CR 31, 61 P.3d 901, 903 (citation
omitted). See also Coddington v. State, 2006 OK CR 34, 142
P.3d 437, 460; Fitzgerald v. State, 1998 OK CR 68, 972 P.2d
1157, 1168; Skipper v. South Carolina, 476 U.S. 1, 4, 106 S. Ct.
1669, 1670-71, 90 L.Ed.2d 1 (1986).
37 Woodson v. North Carolina, 428 U.S. 280, 304, 96 S. Ct.
2978, 2991, 49 L.Ed.2d 944 (1976) (opinion of Stewart, Powell,
and Stevens, JJ.); Gregg v. Georgia, 428 U.S. 153, 197, 96 S. Ct.
2909, 2936, 49 L.Ed.2d 859 (1976) (opinion of Stewart, Powell, and
Stevens, JJ.).
38 Le v. Mullin, 311 F.3d 1002, 1017 (10th Cir. 2002).

App.204a
blame.”39 Harris admits this Court has rejected this
line of argument.40 However, he suggests that the
language is ambiguous at best, and, combined with
prosecutorial argument, foreclosed the jury’s consideration of mitigating evidence. He failed to object to
either the instruction or argument at trial. Reviewing
for plain error, we find none. We do not find that the
current uniform jury instruction prohibits jurors from
considering mitigating evidence. One prosecutor did
consistently argue in closing that jurors should not
consider Harris’s second stage evidence as mitigating,
since it did not extenuate or reduce his guilt or moral
culpability. This argument improperly told jurors not
to consider Harris’s mitigating evidence. However, in
final closing a second prosecutor invited jurors to
consider all Harris’s mitigating evidence, weigh it
against the aggravating circumstances, and find that
the death penalty was appropriate. The jury was
properly instructed on the definition of mitigating
evidence, the evidence Harris presented, and its duties.
For that reason, the initial prosecutorial argument
was harmless.41
¶ 26. This Court is troubled, however, by the consistent misuse of the language in this instruction in
the State’s closing arguments. This Court noted in
Frederick v. State that the prosecutor could argue
mitigating evidence did not reduce a defendant’s
moral culpability or blame.42 However, we did not
39 OUJI-CR (2d) 4-78, O.R. 1607.
40 Primeaux v. State, 2004 OK CR 16, 88 P.3d 893, 909-10;
Williams v. State, 2001 OK CR 9, 22 P.3d 702, 727
41 21 O.S. 2001, § 3001.1; Le, 311 F.3d at 1018.
42 2001 OK CR 34, 37 P.3d 908, 949.

App.205a
intend to suggest that prosecutors could further argue
that evidence of a defendant’s history, characteristics
or propensities should not be considered as mitigating
simply because it does not go to his moral culpability
or extenuate his guilt. This would be an egregious
misstatement of the law on mitigating evidence. After
careful consideration, this Court has determined that
an amendment to the language of the instruction will
clarify this point, and discourage improper argument.
We emphasize that the language of the current instruction itself is not legally inaccurate, inadequate,
or unconstitutional. Cases in which the current OUJICR (2d) 4-78 has been used and applied are not subject to reversal on this basis.
¶ 27. In conjunction with this case, the Court
will refer this issue to the Oklahoma Uniform Jury
Instruction Committee (Criminal) for promulgation
of a modified jury instruction defining mitigating circumstances in capital cases. To delineate the various
purposes of mitigating evidence, this Court suggests
including both (a) that mitigating circumstances may
extenuate or reduce the degree of moral conduct or
blame, and separately, (b) that mitigating circumstances are those which in fairness, sympathy or
mercy would lead jurors individually or collectively
to decide against imposing the death penalty.43

43 As Harris notes, OUJI-CR (2d) 4-79, describing possible mitigating circumstances, was patterned after a similar New Mexico
jury instruction. The language in the New Mexican instruction
corresponding to OUJI-CR (2d) 4-78 reads: “A mitigating circumstance is any conduct, circumstance or thing which would
lead you individually or as a jury to decide not to impose the
death penalty.”

App.206a
¶ 28. The uniform jury instruction given in this
case did not unconstitutionally limit the jury’s ability
to consider mitigating evidence. The prosecutor’s
improper argument on this issue was cured by further
argument and instruction. Harris’s claim for relief is
denied. However, this Court finds that the current
uniform jury instruction defining mitigating circumstances, OUJI-CR (2d) 4-78, should be modified to
clarify the constitutional scope of mitigating evidence
and discourage improper argument.
Ineffective Assistance of Counsel
¶ 29. Harris claims in Proposition I that trial
counsel was ineffective for failing, before trial began,
to seek a determination that he was mentally retarded
and thus ineligible for the death penalty. To prevail
on this claim, Harris must show that counsel’s performance was so deficient that he did not have counsel
as guaranteed by the Sixth Amendment, and that
the deficient performance created errors so serious as
to deprive him of a fair trial with reliable results.44
We measure trial counsel’s performance against an
objective standard of reasonableness under prevailing
professional norms.45 There must be a reasonable
probability that, without counsel’s errors, the jury
would have concluded that a death sentence was not
44 Browning v. State, 2006 OK CR 8, 134 P.3d 816, 830, cert.
denied, 549 U.S. 963,127 S. Ct. 406, 166 L.Ed.2d 288 (2006);
Wiggins v. Smith, 539 U.S. 510, 521, 123 S. Ct. 2527, 2535, 156
L.Ed.2d 471 (2003); Strickland v. Washington, 466 U.S. 668,
697, 104 S. Ct. 2052, 2069-70, 80 L.Ed.2d 674, 693 (1984).
45 Rompilla v. Beard, 545 U.S. 374, 380,125 S. Ct. 2456, 2462,
162 L.Ed.2d 360 (2005); Wiggins, 539 U.S. at 521,123 S. Ct. at
2527.

App.207a
supported by the balance of aggravating and mitigating
circumstances.46 “A reasonable probability is one
sufficient to undermine confidence in the outcome.”47
We give great deference to trial counsel’s strategic
decisions, considering the choices made from counsel’s
perspective at the time.48 We will presume counsel’s
conduct was professional and could be considered sound
strategy.49 This Court will not find counsel ineffective
if we find that Harris was not prejudiced by counsel’s
actions or omissions.50
¶ 30. A capital defendant who wishes to claim
mental retardation must raise that claim with the
trial court before the trial begins.51 A threshold requirement for such a claim is one IQ test of 70 or below;
such a test will not itself guarantee a finding of mental
retardation but may begin the process by which the
court determines whether a defendant is mentally
46 Browning, 134 R3d at 831.
47 Williams v. Taylor, 529 U.S. 362, 394,120 S. Ct. 1495, 15131514, 146 L.Ed.2d 389 (2000).
48 Rompilla, 545 U.S. at 380-81, 125 S. Ct. at 2462; Wiggins,
539 U.S. at 523, 123 S. Ct. at 2536; Strickland, 466 U.S. at 689,
104 S. Ct. at 2065; Hooks v. State, 2001 OK CR 1, 19 P.3d 294,
317.
49 Browning, 134 P.3d at 831; Ryder v. State, 2004 OK CR 2, 83
P.3d 856, 874-75.
50 Williams, 529 U.S. at 393, 120 S. Ct. at 1513 (defendant prejudiced where counsel’s actions deny him a substantive or procedural
right to which he is entitled by law); Strickland, 466 U.S. at
694, 104 S. Ct. at 2068; Hooks, 19 P.3d at 317.
51 Blonner v. State, 2006 OK CR 1, 127 P.3d 1135, 1139-40; State
ex rel. Lane v. The Hon. Jerry D. Bass, 2004 OK CR 14, 87 P.3d
629, 633; Murphy v. State, 2002 OK CR 32, 54 P.3d 556, 567.

App.208a
retarded.52 Harris had two IQ test scores, obtained
during the pretrial process, of 66 and 68.53 He
complains that counsel did not use these scores to
initiate this process and attempt to determine
whether he was mentally retarded before trial began.
Harris argues that, given his test scores, if counsel had
asked for a hearing to determine mental retardation
the trial court would have been required to hold that
hearing. At that hearing Harris might or might not
have been found mentally retarded, but if he were
found to be retarded, he would avoid the death penalty. Thus, Harris claims, he had nothing to lose and
everything to gain by raising the issue, and counsel
was ineffective for failing to do so.
¶ 31. Harris cannot show he was prejudiced by
counsel’s failure. To prevail on a pretrial claim of
mental retardation, Harris would have to show (1)
significantly subaverage intellectual functioning; (2)
manifested before the age of 18; (3) accompanied by
significant limitations in adaptive functioning in at
least two of nine enumerated skill areas.54 All the
evidence in the record, including the evidence from
the first trial and competency hearing, indicates that
Harris could not meet this test. Despite these two IQ
scores, all Harris’s other IQ scores were over 70. All
Harris’s experts, including the ones who testified at
his first trial and competency hearing, considered
52 Blonner, 127 P.3d at 1139.
53 All the experts for both the State and defense agreed that
these IQ test results, taken during pretrial proceedings and while
there were doubts raised as to Harris’s competency, were less
reliable than his other test scores, which were over 70.
54 Murphy, 54 P.3d at 566.

App.209a
these scores along with Harris’s other characteristics
and concluded he was not mentally retarded.55 Harris’s
expert, Dr. Draper, testified at his trial that he was
not mentally retarded. She and other experts stated
in this and other proceedings that Harris was “slow”
or of low intelligence, but all agreed that his employment history, aptitude as a transmission mechanic,
and other characteristics were not those of a mentally
retarded person.
¶ 32. Harris argues that this Court cannot dispose
of this claim using the prejudice analysis above. He
admits the test for ineffective assistance of counsel is
whether there is a reasonable probability that, but
for counsel’s unprofessional errors, the results of the
trial would have been different.56 Regarding this
claim, the different result would have been a finding
of mental retardation and ineligibility for the death
penalty. Thus, the Court is required to review the
record to see whether, had counsel requested a hearing,
Harris would have prevailed on his claim of mental
retardation. There is no support in the record for
such a conclusion. However, Harris argues that only
a jury, not this Court, may make a determination of
a defendant’s possible mentally retarded status under
any circumstances. Harris has misunderstood this
Court’s jurisprudence on this issue. In a series of
cases involving retroactive capital post-conviction procedures, this Court has declined to make an initial
55 One expert did testify at the competency hearing that, based
on the two low scores, he believed he had to say Harris was
mildly mentally retarded, but that was not his conclusion after
examining Harris and he found the scores surprising.
56 Strickland, 466 U.S. at 687, 104 S. Ct. at 2064.

App.210a
finding of fact regarding mental retardation, remanding for jury determination the question of whether a
capital defendant, convicted and currently on Death
Row, is mentally retarded.57 That is not the issue
here. The issue is whether, on this record, Harris’s
counsel was ineffective for failing to ask for a pretrial
determination of mental retardation. Nothing in this
record shows that, had counsel made that request,
evidence would have shown by a preponderance of the
evidence that Harris was mentally retarded. There is a
great deal of evidence in the record to show otherwise,
including the opinion of several experts who testified
that Harris was not mentally retarded. We cannot
conclude there was a reasonable probability that, but
for counsel’s omission, the results of this resentencing
proceeding would have been different.
¶ 33. In Proposition II Harris claims that trial
counsel was ineffective for failing to present evidence
of diminished mental capacity and probable mental
illness. This evidence was available to counsel or easily
discoverable, and much of it was presented at Harris’s
first trial. Trial counsel has a duty to investigate and
present relevant mitigating evidence.58 However,
57 See, e.g., Pickens v. State, 2005 OK CR 27, 126 P.3d 612, 616;
Lambert v. State, 2005 OK CR 26, 126 P.3d 646, 650; Murphy
v. State, 2005 OK CR 25, 124 P.3d 1198, 1208.
58 Rompilla, 545 U.S. at 380-81, 125 S. Ct. at 2462; Wiggins, 539
U.S. at 523, 123 S. Ct. at 2536; Williams, 529 U.S. at 393, 120
S. Ct. at 1513; Strickland, 466 U.S. at 694, 104 S. Ct. at 2052.
See also Garrison v. State, 2004 OK CR 35, 103 P.3d 590, 619
(appellate counsel’s failure to adequately participate in evidentiary hearing on ineffective assistance of trial counsel, waiving
the issue, was itself ineffective where trial counsel had failed to
investigate or present mitigating evidence).

App.211a
where counsel makes an informed decision to pursue a
particular strategy to the exclusion of other strategies,
this informed strategic choice is “virtually unchallengeable”.59 We have noted that among counsel’s
basic duties is “to make informed choices among an
array of alternatives, in order to achieve the best
possible outcome for the client.”60 The United States
Supreme Court has found counsel ineffective where the
failure to thoroughly investigate and present mitigating evidence “resulted from inattention, not reasoned
strategic judgment.”61
¶ 34. At Harris’s resentencing trial, defense counsel presented mitigating evidence through Harris’s
sister, brother, former co-worker and employer, son-inlaw, and two daughters. His most extensive mitigating
evidence was presented through Dr. Draper, an expert
witness in developmental analysis. Dr. Draper testified extensively regarding the developmental processes
that led Harris to commit these crimes. She began by
discussing his tumultuous and abusive childhood. She
described his medical problems throughout childhood
as well as his learning disabilities, low intelligence,
and academic and social problems in school, including
schoolyard fights. Dr. Draper described how, during
Harris’s teenage years, his father taught him to be a
transmission mechanic but also taught him to use
59 Jones v. State, 2006 OK CR 5, 128 P.3d 521, 535, cert. denied,
549 U.S. 963, 127 S. Ct. 404, ___ L.Ed.2d ___, quoting Strickland,
466 U.S. at 690-91, 104 S. Ct. at 2066. See also Thacker v.
State, 2005 OK CR 18, 120 P.3d 1193, 1195 (presumption of
sound trial strategy has highly deferential review).
60 Jones, 128 P.3d at 535.
61 Wiggins, 539 U.S. at 526, 123 S. Ct. at 2537.

App.212a
drugs and alcohol regularly. Dr. Draper discussed the
very negative effect on Harris of his mother’s lingering
death from cancer, the death of his grandparents,
and the family’s separation. She testified regarding
Harris’s brief first marriage. Dr. Draper noted that
Harris’s first wife had alleged he was abusive and
filed for a victim’s protective order and divorce, but
said Harris’s first wife told her that Harris did not
abuse her and she had said otherwise because she
wanted to leave him. Dr. Draper told jurors of Harris’s
attempt at suicide when his first wife left him. She
explained that for several years Harris and Pam had
custody of his daughters, and described his love for
his daughters as well as his inability to engage
emotionally as a parent. She described his relationship with Pam, including a mutual pattern of verbal
and emotional abuse. Dr. Draper showed jurors how
Harris depended on Pam emotionally and professionally.
¶ 35. Throughout her testimony Dr. Draper
emphasized that Harris’s chaotic and troubled background resulted in extreme emotional instability. She
discussed how his low intelligence and chronic substance abuse contributed to his inability to handle
stress or resolve problems. She described Harris’s
reliance on Pam, and his feelings of despair and
devastation when Pam left him. Dr. Draper also
emphasized Harris’s anger at his situation, and at
the loss of his tools, and his inability to control or
appropriately express his anger. She testified that
this inability was caused by Harris’s immaturity,
emotional instability, poor judgment, and confusion.
She noted his expressions of remorse for Merle Taylor’s
death, while agreeing that Harris still blamed Pam

App.213a
for leaving him and causing him to commit the crimes.
She discussed psychological methods of predicting
future violence, and testified that in a controlled
environment, medicated, without access to controlled
substances and without a romantic partner, she did
not believe Harris would be dangerous. Dr. Draper
testified that Harris had been diagnosed as mentally
ill and was on psychotropic medications in jail. She
stated that she did not further explore the area of
mental illness because those diagnoses had been
made after the crimes occurred, and her focus was on
explaining Harris’s actions and symptoms of
underlying difficulties which led to the crimes. However, her observations of Harris’s behavior were consistent with the diagnoses.
¶ 36. After Dr. Draper testified, counsel attempted
to have a representative from the jail testify regarding
the medications Harris took for his mental conditions.
Counsel failed to give notice of this testimony to the
State. The trial court noted that mere evidence
Harris was on medication would encourage jury speculation regarding Harris’s mental condition. Harris
argues that this attempt shows counsel realized he
had erred in failing to present evidence of mental
illness.
¶ 37. Harris complains that counsel failed to
present extensive evidence regarding his mental state
and diagnoses of mental illness. Most of this evidence was presented at Harris’s first trial or his
competency proceedings, and was readily available to
counsel. A significant portion of this evidence was
presented at the first stage of Harris’s original trial,
to argue his mental state could not support a finding
of malice, rather than as evidence in mitigation. After

App.214a
the crimes, questions were raised regarding Harris’s
competency. At one point he was sent to Eastern
State Hospital, received treatment and medication,
and was declared competent.
Doctors representing the court, the State, and
the defense examined Harris throughout the pretrial
proceedings. He received several diagnoses of mental
illness: bipolar disorder with psychotic features, schizoaffective disorder, depressive with psychotic features.
Experts agreed at the very least Harris was clinically
depressed. They all also noted his low intelligence.
One expert for the State, and the doctors at Eastern
State Hospital, suspected Harris was either malingering or exaggerating his mental condition. One defense
expert testified that, based on his contact with
Harris shortly after the crimes, Harris was probably
suffering from mental illness at the time of the
crimes. Nobody believed that Harris’s mental illness,
even if present when the crimes were committed,
rendered him legally insane; the experts agreed that
Harris knew right from wrong and understood the
consequences of his actions. Harris’s experts described
the connection his mental illness and chronic substance
abuse may have had with the crimes. They testified
that as a consequence of his mental state, Harris was
low functioning and emotionally unstable, unable to
solve problems or take action towards goals, highly
agitated and angry. At the first trial, Harris’s expert
on future dangerousness testified that he could not
say Harris would not be a danger to society; he did say
that, in a controlled environment and with medication,
Harris would present less danger than otherwise.
¶ 38. After thoroughly considering the evidence
which was presented at Harris’s resentencing trial,

App.215a
and the evidence which was presented earlier and
could have been presented, this Court concludes that
counsel was not ineffective. Counsel was aware of the
evidence of mental condition and status. Rather than
rely on it to persuade jurors that Harris’s mental state
and after-diagnosed mental condition were mitigating
circumstances, counsel chose a different path. He
called Dr. Draper to testify regarding Harris’s development over his life. This evidence was comprehensive. It included Harris’s troubled and abusive childhood, his low IQ and trouble in school, his difficulty
with marital relationships, his relationships with his
family and daughters, his dependency on Pam, the
mutually abusive nature of that relationship. Dr.
Draper also discussed Harris’s chronic substance
abuse which began when he was a teenager with his
father, his poor judgment, anger and inability to solve
problems, and his extreme emotional instability. She
also discussed the likelihood that, based on his past
behavior and mental state, Harris would be a danger
in the future. While Harris’s specific diagnoses of
mental illness were not presented to the jury, jurors
were told he had been diagnosed as mentally ill.
Those diagnoses were made after the crimes, and Dr.
Draper did describe the highly emotional mental
state Harris was in at the time of the crimes. Dr.
Draper used all this evidence to explain why Harris
could not accept his circumstances and resorted to
murder.
¶ 39. Harris claims that the prejudice from this
decision is evident. At the first trial, jurors heard
much of this evidence. During deliberations, they
asked a question about the type of prison in which
Harris might serve a sentence of imprisonment. The

App.216a
trial courts answer to this question, which was inaccurate as a matter of law, resulted in the cases reversal
and this resentencing trial.62 Harris contends this
indicates that his first jury seriously considered
imposing a sentence of less than death, and claims
that, had the evidence been presented again, his
resentencing jury would have done the same. This
Court cannot speculate as to why Harris’s first jury
asked their question, or what its sentencing intent
might have been. Counsel chose to provide Harris’s
resentencing jury with a thorough picture of his life,
intelligence, and emotional state, including his anger,
grief and despair immediately preceding the crimes.
Through Dr. Draper, jurors heard evidence which
encompassed or incorporated some of the evidence
presented at the first trial. We will not second-guess
counsel’s reasoned strategic judgment. Counsel’s choice
of mitigating evidence did not amount to ineffective
assistance.
¶ 40. In Proposition XI Harris raises several
claims of ineffective assistance of counsel. He fails to
show any prejudice from counsel’s alleged omissions,
and we will not find counsel was ineffective.
¶ 41. Harris first notes that counsel failed to
object to errors raised in previous propositions, and
asks that those be reviewed for ineffective assistance
of counsel. As we have found no error in the previous
propositions, counsel cannot be ineffective for failing
to raise objections to issues contained therein.63 Harris
also claims counsel failed to conduct a thorough and
62 Harris, 84 P.3d at 757.
63 Williams, 529 U.S. at 393, 120 S. Ct. at 1513; Strickland, 466
U.S. at 694, 104 S. Ct. at 2068.

App.217a
independent investigation of his case. We found in
Propositions I and II that counsel was not ineffective
for failing to claim Harris was mentally retarded, or
for failing to present the evidence of mental status and
mental illness raised in his first trial and competency
proceedings. Relying on the issues raised in Propositions I and II, Harris claims that counsel failed to
independently investigate the case as previously developed in order to satisfactorily conclude that the
extant evidence was viable and reliable. This appears
to be speculation, as the record does not support this
allegation.
¶ 42. Harris also claims that counsel failed to
present evidence directly bearing on the continuing
threat aggravating circumstance. In fact, Dr. Draper
did discuss methods for predicting future dangerousness, and gave her opinion that Harris would not
be a future danger to society. Harris argues that
counsel should have presented an expert on risk
assessment, who could have provided an accurate
and scientifically sound analysis of the exact likelihood
that Harris would be a future danger. The experts
who testified at Harris’s first trial, and Dr. Draper,
all testified that he was in fact likely to pose a risk of
future danger. Harris’s experts testified that, under
particular circumstances likely to be found in prison,
that risk was significantly lessened, but they all
agreed that Harris posed more risk to the general
population than the average person. Given this evidence, we will not say counsel was unreasonable for

App.218a
choosing not to stress the issue of Harris’s potential for
danger to society by using risk assessment evidence.64
¶ 43. This proposition is accompanied by an
Application for Evidentiary Hearing. To support his
claim that counsel did not conduct a thorough independent investigation, Harris provides an affidavit
with a psychological evaluation conducted after the
trial ended. As he notes in his brief, this evaluation
is consistent with other psychological evaluations
which were available to counsel. To support his claim
that counsel failed to present evidence bearing on the
continuing threat aggravating circumstance, Harris
offers an affidavit containing a risk assessment profile.
This profile reaches a similar conclusion to that of Dr.
Draper and other experts-in a controlled, structured
environment, medicated, without access to controlled
substances, and without a romantic relationship such
as that with Pam, Harris poses little threat to society.
The application for evidentiary hearing and supplemental materials do not contain sufficient information to show this Court by clear and convincing evidence there is a strong possibility trial counsel was
ineffective for failing to use or identify the evidence.65
Harris’s Application for Evidentiary Hearing is denied.
Cumulative Error
¶ 44. In Proposition XII Harris claims that the
accumulation of errors in the preceding propositions
requires relief. In Proposition III, we found the trial
64 Jones, 128 P.3d at 535; Strickland, 466 U.S. at 690-91, 104
S. Ct. at 2066.
65 Rule 3.11(B)(3)(b), Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch.18, App. (2007).

App.219a
court erred in failing to bring the jury into open court
when a question was presented in deliberations, but
that error was harmless. In Proposition VI we found
that error in argument was cured by instructions. Even
taken together, these errors do not require relief.66
Mandatory Sentence Review
¶ 45. We must determine (1) whether the sentences of death were imposed under the influence of
passion, prejudice, or any other arbitrary factor, and
(2) whether the evidence supports the jury’s findings
of aggravating circumstances.67 Upon review of the
record, we cannot say the sentences of death were
imposed because the jury was influenced by passion,
prejudice, or any other arbitrary factor.
¶ 46. The jury was instructed on and found the
existence of two aggravating circumstances: (1) the
defendant knowingly created a great risk of death to
more than one person, and (2) there existed a probability that Harris would commit criminal acts of
violence which would constitute a continuing threat
to society. Harris presented evidence that he was
abused and neglected as a child, suffered the death of
his mother as a teenager, had low intelligence, was a
chronic substance abuser, was mentally ill, and was
very dependent on Pam Harris; that he had no prior
convictions, had no misconduct citations in prison and
only one while incarcerated in jail, had a good prison
record and could live within prison society; that his
family loved and needed him and he was remorseful
for his actions. The jury was specifically instructed
66 Browning, 134 P.3d at 846.
67 21 O.S. 2001, § 701.13(C).

App.220a
on thirteen mitigating factors, and invited to consider
other mitigating evidence they might find.68 Upon
our review of the record, we find that the sentences
of death are factually substantiated and appropriate.
¶ 47. Jimmy Dean Harris was tried by jury and
convicted of Murder in the First Degree, in the District Court of Oklahoma County, Case No. CF-19995071, resentenced to death, and appeals. The Sentence
of the District Court is AFFIRMED. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2007), the MANDATE
is ORDERED issued upon the delivery and filing of
this decision.
LUMPKIN, P.J.: concur in results.
C. JOHNSON, V.P.J., A. JOHNSON and LEWIS, JJ.:
concur.

68 Harris had no prior convictions; had no reported misconduct
as a Department of Corrections inmate; had a lifelong addiction
to drugs and alcohol beginning at age 14; Harris was continuously
confined from September 9, 1999, to the date of trial, but had
only one misconduct write-up in the Oklahoma County Jail; on
the morning of the crimes Harris was overwhelmed by the
powerful emotions of anger and fear of life without Pam Harris;
was capable of living cooperatively within prison society; was
diagnosed with a low I.Q. which made it difficult for him to
solve problems; Harris has a sister and brother who love him;
has daughters who love and need him; is remorseful for what he
did and the pain he caused the Taylor family and his own family;
his mental condition, alcoholism and drug abuse combined with
strong emotions led to his decision to bring a gun to AAMCO
Transmission and murder Taylor; as a young child Harris was
beaten by his father and neglected by both parents; Harris’s
mother, the one adult who consistently loved him, died of cancer
when he was a teenager. Instruction No. 9.

App.221a
NEUROPSYCHOLOGICAL CONSULTATION
REPORT ON JIMMY DEAN HARRIS, JR. BY
JENNIFER L. CALLAHAN, PH.D.
(EVALUATION DATE MARCH 13, 2006)
Patient Name: Jimmy Dean Harris, Jr.
Date of Birth: 10/20/1956
Date of Evaluation: 03/13/2006
Examiner: Jennifer L. Callahan, Ph.D.

The following background information was obtained
via self report during clinical interview and from
records provided by Mr. Harris’ legal counsel.
Identifying Information and Reason for Referral
Mr. Harris is a 49-year-old, twice divorced, righthanded, Caucasian male in no apparent distress,
referred for evaluation by his appointed legal counsel
to assist in defining his current neurocognitive profile
in comparison to other individuals of his age and
educational level and to serve as a comparison with
results of past, and potentially future, testing.
Brief History

Social and Family History
Mr. Harris is the youngest of three children born
in an intact family unit and raised in Oklahoma City,
Oklahoma. During an evaluation in childhood, Mr.
Harris’ mother described his birth and early developmental milestone attainment as normal. Reportedly,
Mr. Harris witnessed and experienced physical abuse
perpetrated by his father and his parents divorced
when he was approximately 8 years old. Following
the divorce, Mr. Harris remained with his mother,

App.222a
who typically worked two jobs to support the children.
Both parents are now deceased. Family history is
remarkable for substance abuse (father and brother),
cancer (mother and father), and heart disease (father).
Mr. Harris married for the first time in 1977 and
this union produced two daughters, before formally
dissolving in 1981. He then had another daughter
with a woman, whom he later married (1989), though
this marriage also ended in divorce (1999).

Educational/Occupational History
Mr. Harris reportedly participated in special education services for reading, spelling, and math during
elementary school. The records are somewhat inconsistent in dating when Mr. Harris discontinued formal
education. Most records state that he dropped out
during the 11th grade and this is consistent with Mr.
Harris’ verbal self-report. However, at times it is
reported that he completed 9th or 10th grade and elsewhere it indicates that he dropped out of high school
only 2 credits short of meeting matriculation requirements earning mostly C’s and D’s in his coursework.
Since discontinuing his formal education, Mr. Harris
has worked inconsistently in the oilfields, laying carpet,
and plumbing. However, he primarily worked repairing
transmissions, a trade skill he learned from observation and informal instruction from co-workers of
his father (who was a mechanic).

Psychiatric and Medical History
Mr. Harris is status post chicken pox (1961), status
post appendectomy (1963), status post tonsillectomy
(1963), status post measles (~1964), status post left
forearm fracture (1978), and status post puncture

App.223a
wound to left hand, with resultant infection, necessitating surgery (1998). A childhood accident involving a
lawnmower resulted in a wire penetrating his abdomen
and necessitating surgery at approximately age 7.
In approximately 1978 or 1979, while his first
marriage was dissolving, Mr. Harris reportedly
attempted suicide by drinking half a gallon of whiskey
and another half a gallon of Raid, resulting in hospitalization at Oklahoma Memorial Hospital and a
diagnosis of heart arrhythmia.
Mr. Harris sustained a crushing injury on 11/28/
1984 from a transmission being dropped on the small
finger of his right hand. After two surgeries, complicated by infection, amputation was completed. Mr.
Harris evidently compensated well for any loss of
functioning with no lasting impairment of occupational
functioning ability following the procedure and recovery
period.
Mr. Harris has a history of motor vehicle accident
which allegedly resulted in concussion and injury to
neck and back (10/15/1998 in Dallas, TX), for which he
underwent treatment (11/987/99) with Dr. Bill Gentry.
On 10/12/1999, Mr. Harris was admitted to Eastern State Hospital secondary to visual and auditory
hallucinations for treatment and restoration of
competency. He was discharged 4/08/2000 with discharge diagnoses listed as: Major Depression, with
psychotic features. Competency was considered successfully restored.
Mr. Harris was readmitted to Eastern State
Hospital on 6/06/2001 due to auditory hallucinations
with a goal of restoring competency. At that time his
diagnosis was revised to Major Depression, recurrent,

App.224a
with psychotic features. Intermittent memory problems
were noted and staff considered him to be “slow” in
learning and processing information. Competency was
considered restored at discharge on 7/30/2001.
Finally, Mr. Harris reportedly has a long standing history of whiskey, marijuana, and valium abuse
dependence, with regular usage of alcohol and marijuana beginning at age 16. During his period of greatest
use, Mr. Harris was smoking 10 joints and drinking
half a bottle of NyQuil daily, in addition to a case of
alcohol weekly. Mr. Harris reportedly experienced
repeated loss of consciousness and legal involvement
(public drunkenness and several DUI incidents) as a
result of his substance abuse. He has also previously
reported experiencing seizure following ingest of valium
on at least three occasions. Finally, Mr. Harris has a
history of cigarette smoking (up to 3 packs per day
during his period of greatest use).

Evaluations to Date
Psychometric consultation on 4/20/1964 recorded
diagnostic impressions of compulsive personality,
perception disorder, and dyslexia with further evaluation recommended at that time. As a result, Mr.
Harris underwent intelligence testing (Dr. Teresa
Costiloe) for, apparently, the first time at University
of Oklahoma Hospital. Testing with the StanfordBinet Revised resulted in an estimated full scale IQ
of 87. On the WISC, he obtained a full scale IQ of 83,
with a non-significant difference between his obtained
verbal IQ of 81 and non-verbal, performance IQ of
87. He was noted to be having learning difficulties in
school as well as difficulty relating to same aged
children, communicating with family, and sleeping.

App.225a
Bipolar Disorder with psychotic symptoms was
diagnosed during serial competency evaluations by
Dr. John Smith (psychiatrist) spanning the course of
Mr. Harris’ court involvement. Dr. Smith also diagnosed Mr. Harris as having Mild Mental Retardation,
based in part on the reported test results of the
intelligence testing described below.
Intelligence testing on 10/20/2000 (Dr. Nelda
Ferguson) with the WAIS-III resulted in a full scale
IQ of 63, without a statistically significant difference
between his verbal IQ of 69 and non-verbal, performance IQ of 60. On the basis of these testing
results, Mr. Harris was deemed to evidence Mild
Mental Retardation. Achievement testing (WRAT-3)
demonstrated impaired skills in word recognition
(standard score: 66), spelling (standard score: 47), and
arithmetic (standard score: 64). Projective testing
coupled with a review of Mr. Harris’ background were
considered indicative of Bipolar Disorder and Borderline Personality Disorder. Of particular note, the
examiner observed what were thought to be several
petit mal seizures during the evaluation.
Another psychological evaluation was conducted
from 3/08 to 3/21/2001 (Dr. Martin Krimsky) while Mr.
Harris was incarcerated. Intelligence testing with the
Slossen (SIT-R) resulted in an IQ equivalency of 66,
while intelligence testing with the WAIS-R resulted in
an IQ of 68. On this basis, Mr. Harris was considered
to have Mild Mental Retardation. Symptom presentation and results of Rorschach testing were thought
to be indicative of Bipolar Disorder with psychosis.
Mr. Harris was seen on 4/8/2001 for evaluation
of symptom feigning with the SIRS. All scores fell
within the honest or indeterminate range, with no

App.226a
scales falling in the probable or definite range, which
was counter to a malingering explanation for his
symptom presentation.
Psychological evaluation was again performed
on 7/20/2001 (Kim Burke, intern and Dr. Elizabeth
Grundy) while Mr. Harris was hospitalized at Eastern
State Hospital. The MMPI-2 was considered uninterpretable due to Mr. Harris having an inadequate
reading ability. Evaluation of psychological symptom
feigning was conducted with the SIRS with all scores
falling in the “honest” to “indeterminate” range. On
the Test of Memory Malingering (TOMM) he scored
within normal limits. Cognitive testing with the
WAIS-III, revealed borderline impaired general intellectual abilities (FSIQ: 75) with no significant
discrepancy between his verbal abilities (VIQ: 79)
and non-verbal, performance abilities (PIQ: 75). A
relative strength in span of auditory attention was
noted. However, more in-depth testing of memory
(WMS-III), demonstrated borderline impaired general
memory {Scaled score: 77), with subcomponents of
memory ranging from the borderline impaired to low
average range.

Medications
Primary medications used by Mr. Harris in the
past several years, with good effect, include Risperdal,
Depakote, Celexa, Sinequan, Zoloft, Vistaril and Benadryl, Ineffectiveness of Stelazine was noted. Recent
medical records report no known medication allergies,
but earlier records indicate a codeine allergy.

App.227a

Tests Administered

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

Animal Naming
Bells Test
Boston Naming Test
Brief Visual Memory Test-Revised (BVMT-R):
Form 1
Brief Visual Memory Test-Revised (BVMT-R):
Form 2
California Verbal Learning Test-II (CLVT-II):
Standard Form
California Verbal Learning Test-II (CLVT-II):
Alternative Form
Clock Drawing and Time Setting tasks
Digit Span (from Wechsler Memory Scale—
III)
Digit Symbol-Coding (from Wechsler Adult
Intelligence Scale—III)
Finger Oscillation
Graphic Sequencing
Greek Cross
Grip Strength
Grooved Pegboard
Hooper Visual Organization Test (Hooper)
Information and Orientation (from Wechsler
Memory Scale—III)
Judgment of Line Orientation (JOLO): Form H
Letter Number Sequencing (from Wechsler
Memory Scale—III)
Line Bisection
Lurian Motor Tasks

App.228a

• Repeatable Battery for the Assessment of
•
•
•
•
•
•
•
•
•
•
•
•

Neuropsychological Status (RBANS): Form A
Rey-O Complex Figure Test (Rey-O)
Ruff Figural Fluency Test (Ruff)
Stroop Color Word Test (Stroop)
Symbol Digit Modalities Test (SDMT)
Symbol Search (from Wechsler Adult Intelligence Scale—III)
Trail Making Tests (A & B)
Wechsler Abbreviated Scale of Intelligence
(WASI)
Western Aphasia Battery (Abbreviated)
Wide Range Achievement Test—4 (WRAT-4):
Blue Form
Wide Range Achievement Test—4 (WRAT-4):
Green Form
WISC-III Mazes
Woodcock-Johnson
III:
Standard
and
Extended Cognitive Batteries (WJ:C)

Scoring Information

Raw score performances are converted to standard
scores, represented as T-distributions with M=50 and
SD=10. Lower values represent worse performance.
Thus, T-values, from 40 to 31 reflect “mild” impairment
(i.e., worse than 1 SD from the mean), and T-values

lower than 30 reflect “significant” impairment (i.e.,
worse than 2 SD from the mean).

App.229a
Results
Behavioral Observations
Mr. Harris was well groomed but appeared somewhat older than his chronological age. He was pleasant
and cooperative, both upon approach and throughout
the duration of the evaluation. He was alert through
the evaluation, which was accomplished in a single,
extended session without breaks. He ambulated without assistance or difficulty. Rate of speech rhythm and
prosody were unremarkable, but mild word finding
difficulty with occasional compensatory circumlocutions
was evident. Mr. Harris denied experiencing current
anxiety or depression and there was no indication of
hallucinations or delusional thinking at the time of
the evaluation. There was no evidence of noncompliance or symptom magnification and the results of
this evaluation are thought to be an accurate assessment of Mr. Harris’ cognitive functioning from the
point of view of effort.
Orientation
Mr. Harris was alert, with no complaints of
fatigue during the testing session. In assessing orientation his only error was in misidentifying the town as
“Oklahoma City” (instead of McAlester). Nevertheless, he was able to properly name the correctional
facility and was otherwise fully oriented. Fund of
personal knowledge was adequate for the purposes of
the evaluation.
Sensory-Perceptual Processes
Mr. Harris reportedly is prescribed corrective
lenses, but he did not have them available during the

App.230a
evaluation. However, no accommodations to testing
materials or procedures were necessary and the lack
of corrective lenses is therefore not thought to have
significantly interfered with his performance on visually
mediated tasks. On a task of line bisection he made
two omissions, both in the right visual field. On a
more visually challenging symbol cancellation task, Mr.
Harris’ performance was borderline impaired with
three omissions in the left visual field and one
omission in the central field, despite taking adequate
time for task completion and engaging in routine
self-monitoring of his performance. On a task requiring him to identify line orientations Mr. Harris performed in the impaired range, with no localization of
errors.
Attention, Concentration and Working Memory
Mr. Harris’ span of auditory attention fell within
the below average range (T=40), and the discrepancy
between his forward recall (6 digits) and reversed
recall (3 digits) borders on significance suggesting that
his attention may be adversely impacted by increases
in complexity. This conclusion is supported by his
below average WJ:C working memory index score (T38) and impaired (T=26) performance on a more
complex working memory task that requires mental
manipulation of letters and numbers. Similarly his
RBANS attention index score, which is partially
dependent on processing speed, falls into the impaired
range (T=29).
Processing Speed
On measures assessing Mr. Harris’ speed of
information processing, performances were consist-

App.231a
ently impaired. Although impaired, Mr. Harris’ best
performance was on a task of rapid color naming
(Stroup: T=32). On a similar task involving rapidly
reading three color names (red, blue, green) he performed more poorly (T=17), which is partially reflective
of his poor reading skills. On a simple visual motor
processing task requiring the connection of serial
numbers (Trails A), Mr. Harris again performed in the
impaired range (T=22). Mr. Harris also performed in
the impaired range on two different non-verbal coding
tasks (Ts-26 and 23) normed with different samples
(WAIS-III and SDMT). Similarly, he performed in
the impaired range on a task of identifying matching
symbols (T=20). Finally, Mr. Harris’ decision making
speed was impaired (T=24). His WAIS-Ill processing
speed index score falls in the impaired range (T=23),
which is identical to his index score in the WJ:C
index score for processing speed (T=23).
Motor Functions
Finger Tapping

Dominant: Impaired
Nondominant: Impaired
Grooved Pegboard

Dominant: Impaired
Nondominant: Impaired
Grip Strength

Dominant: Impaired
Nondominant: Impaired
Mr. Harris demonstrated right-hand dominance
and performed in the impaired range bilaterally on
all motor tasks presented to him, including: simple

App.232a
motor speed (Ts=24 and 28 for dominant and nondominant hands, respectively), fine motor dexterity
(Ts=33 and 28), and grip strength (Ts=27 and 22). No
abnormal laterality signs were noted. No akinetic
tendencies were evident, though mild tremor was
evident on incidental behavior. Mr. Harris noted onset
of tremor to have followed initiation of psychotropic
medications and considered the tremors to be a side
effect of his prescribed medications. Mildly tremulous
lines were apparent on some drawing tasks as a result
of his tremor.
Language Functions
Spontaneous speech was typically fluent. Though
occasional word finding difficulty was demonstrated,
Mr. Harris was able to convey relevant information
satisfactorily. Execution of simple two-and three-step
serial commands was intact, as was comprehension
of simple questions. Mr. Harris made only one minor
error (of eight) during repetition of high and low
frequency phrases. Confrontational naming was slightly
low (raw score: 51 of 60), but there were no significant
circumlocutions or paraphasic errors.
Spatial Functions
Mr. Harris’ copy of a Greek cross figure was grossly
intact, with only mild asymmetry. His uncued clock
drawing was mildly impaired due to poor spatial
placement and orientation of the numerals on the
clock face. He performed within normal limits on a
clock copy trial. Mr. Harris made no errors on a time
reading task and was also able to correctly indicate
the time during time setting tasks, though the hour

App.233a
and minute hands were indistinguishable on one trial
(of four administered).
Complex visual perception and integration was
average (T=44), after correcting Mr. Harris’ score to
accommodate his limited education. Visual-spatial
thinking, as measured on the Woodcock-Johnson III
was also average (T=48). However, his performance in
copying a complex line drawing was severely impaired.
This copy evidenced poor representation of details
and loss of appreciation for the gestalt, raising the
possibility of constructional dyspraxia.
Intellectual Functioning
Due to the possibility of practice effects or undesirable familiarity with item content stemming from
previous testing sessions the WAIS-III, a common
measure of intelligence, was not administered to Mr.
Harris during this evaluation. Instead, Mr. Harris
was administered the WASI, an abbreviated scale of
intelligence from the same publishing series as the
WAIS-III, to facilitate comparisons with those previous
evaluations. On this brief measure, Mr. Harris’ full
scale IQ was estimated to fall in the impaired to
borderline impaired range (SS: 67-75), with significantly better nonverbal abilities (T=36) than verbal
abilities (T=26).
Intelligence was more comprehensively examined
by administering both the standard and the extended
cognitive batteries from the Woodcock-Johnson III.
On this instrument, Mr. Harris’ general intellectual
abilities were found to be low (SS: 72-77), approximately equivalent to the ability level of a 6 year, 10
month old child, with broad discrepancies in the
underlying abilities.

App.234a
For example, Mr. Harris demonstrated strength
in his comprehension-knowledge (T=43) and visualspatial thinking (T=48), both of which fell within the
average range. However, his cognitive efficiency poses
a significant weakness (T=31) that undermines his
general intellectual functioning. In addition, his
cognitive abilities are also adversely impacted by his
limited phonemic awareness (T=38), and very limited
cognitive fluency (T=31), working memory capacity
(T=38), and executive processes (T=29).
Functional Academic Skills
Mr. Harris was administered two parallel forms
of the WRAT-4 at different points in the evaluation
session. Using the “blue” form of the WRAT-4, Mr.
Harris demonstrated impaired functional academic
skills in word recognition (T=22), sentence comprehension (T=23), spelling (T=20), and math computations
(T=22), Later in the evaluation, Mr. Harris demonstrated similar impairment on the “green” form for
word recognition (T=21), sentence comprehension
(T=21), spelling (T=20), and math computations (T=28).
Combining this information, Mr. Harris’ grade level
equivalency is at the 1st grade level of spelling skills
and at the 2nd grade level for word recognition, spelling
comprehension, and math computations.
Memory Functions
Although still low, Mr. Harris demonstrated
better memory ability for information presented in a
related context for both short-term (T=41) and delayed
retrieval (T=37) on the Woodcock-Johnson III than
was demonstrated on recalling a list of words. Mr.
Harris was administered two parallel forms of the

App.235a
CVLT-II, which is a verbal list learning task, at different points in the evaluation. Learning of the list
across five trials was impaired for each form (Ts=25
and 29). Spontaneous recall following a brief delay
was consequently impaired (Ts=30 and 25). Cued
recall was also impaired (Ts=20 and <20), though forced
choice recognition was acceptable (81.2% and 75%).
Mr. Harris demonstrated a clear “recency” effect with
58% and 59% of freely recalled list items coming from
the final portion of each list.
Free recall across three learning trials for line
drawings was also impaired on two parallel forms of
the BVMT-R (Ts=<20 on each form). Free recall
following a brief delay was similarly impaired (Ts=20
on each form). Mr. Harris’ scores on visual memory
testing are somewhat lower than those obtained on
his WJ:C memory performances and also the CVLTII list learning performances, and may partially
reflect his poor visuo-constructional
Self-Regulation/Executive Functions
After correcting for Mr. Harris’ limited educational background, semantic fluency (animal naming)
was impaired (T=20) as was phonemic fluency (T=25).
These scores might have been negatively impacted by
Mr. Harris’ underlying limited phonemic awareness
(WJ:CT-38), though behaviorally Mr. Harris appeared
to be experiencing more basic thought blocking. Some
support for the possibility of thought blocking is
found in Mr. Harris’ impaired score for cognitive
fluency on the Woodcock-Johnson III (T=31).
Non-verbal figural fluency was not substantially
better, despite removing the phonemic qualities of
the task, and revealed impairment (T=29). Further,

App.236a
he evidenced a loss of cognitive set during one trial of
the task. Although there was no significant verbal
perseveration, non-verbal perseveration was prominent
during both design fluency (T=31) and complex motor
programming.
Complex motor programming was broadly
impaired. He required extended modeling and verbal
mediation to acquire the necessary set to carry out
all motor programming tasks. Following acquisition,
he was prone to loss of set and within task motor
perseveration. Graphic sequencing evidenced perseverative tendencies, With clear perseveration at one
point early in the task and more pronounced, resulting in a loss of set, at the conclusion of the task.
On a planning task in which Mr. Harris was
asked to solve mazes, he performed in the impaired
range (T=19). Performance on a task requiring the
simultaneous tracking of, and alternation between,
two mental sequences (numbers and letters) was
impaired due to slowing, but Mr. Harris also loss the
cognitive set required near the end of the task,
necessitating reminding him of the task requirements
for completion. Finally, Mr. Harris demonstrated
impaired ability in executive processes (T=29) on the
Woodcock-Johnson III.
CONCLUSIONS
1. Mr. Harris obtained remarkably consistent
results during the current evaluation. This is despite
being tested using parallel forms, without warning,
at different points in the evaluation and using tests
that are normatively based and standardized on
unrelated groups of people. There is no indication

App.237a
from Mr. Harris’ behavior or the results of testing of
variable effort.
2. Comparison of the current findings with prior
evaluations does appear to indicate some variability
in scores for intellectual ability. However, closer
review of those results indicates greater consistency
than one may appreciate initially.
For example in 1964, at the age of 7, it was
reported that Mr. Harris obtained a full scale IQ of 83
on the WISC. This score report is complicated by two
issues:


First, an individual’s IQ is not truly represented by a single number. Rather, a person’s
true IQ falls within a defined possible range
and will vary under normal circumstances
while remaining within that range. For the
WISC, the IQ range for a score of 83 was from
78 to 88.



Second, Mr. Harris was administered the WISC
in 1964, which is 15 years after the test was
introduced. Since that time, scholars have
since found what is often referred to as the
“Flynn” effect. The Flynn effect refers to the
observation that the average IQ drifts upward
slightly each year, which necessitates the
development of new IQ tests on a regular
basis. The publishers of the WISC have acknowledged that for this series of tests, the
Flynn effect is most pronounced in the lower
IQ ranges. In this test series, the Flynn effect
equates to scores drifting 1/3 to 1/2 a scaled
score point annually. For Mr. Harris, this means
that a score of 83±5 in 1964 would equate to a

App.238a
score of 75.5±5 (using the more likely 1/2 point
drift estimate) had the WISC not been as
dated of a test at the time of administration to
Mr. Harris. This range is consistent with the
currently obtained findings on both the WASI
and WJ:C measures.
In late 2000 and into 2001, Mr. Harris was administered intelligence tests on several occasions over a
relatively brief period of time. Several of the tests
appeared to reflect impaired general intelligence
with a full scale IQ in the low to middle 60’s. However,
these tests were administered when Mr. Harris was
reported to be psychotic. Acute psychosis is known to
have a negative impact on one’s intellectual functioning; largely, because such individual’s are often unable
to optimally focus on the tasks presented to them
during testing. However, repeat testing in the summer
of 2001, after Mr. Harris was medicated and stabilized,
revealed a full scale IQ range that is again consistent
with the current findings.
3. The current findings, in conjunction with past
evaluations, indicate borderline intellectual functioning. However, Mr. Harris’ cognitive abilities are not
uniformly at this level and he demonstrates a range
of strengths and weaknesses. He demonstrates a
relative strength in his visual-spatial thinking abilities,
which has historically been reflected in his ability to
maintain employment repairing transmissions. Areas
of relative weakness are more common, and these
are outlined below:
● Mr. Harris’ word recognition and sentence
comprehension skills are impaired and he may
be considered functionally illiterate. He is able
to sign his name and may be vulnerable to

App.239a
exploitation by signing paperwork that others
misrepresent to him verbally. When information is presented to him verbally, it should
be presented slowly using vocabulary understandable to Mr. Harris. This may require
several repetitions due to his slowed information processing speed and poor memory (see
below). His verbal comprehension skills are a
relative strength and Mr. Harris is able to
understand verbally presented information as
long as it is put in terms that are known to
him.
● Mr. Harris’ speed of information processing
poses a significant liability in a wide range of
circumstances. People involved in his care
should be aware of this and allow him additional time to process information before
expecting him to respond.
● Mr. Harris experiences considerable difficulty
both with learning new information and with
recalling memories or previously learned
information. New information should be presented in small amounts, with much repetition
and extra time allowed for processing and
encoding before he is expected to recall and
utilize newly learned information. Memory of
unrelated information, or information not presented within a meaningful framework, is
likely to be particularly problematic.
● Further, Mr. Harris demonstrates rapid forgetting and set backs are to be expected as he
learns new information. He is able to recall
information better if provided with cues for
his response, but his best performance may be

App.240a
elicited by presenting him with forced choice
response options (e.g., did counsel say “x
option” or “y option” to you?). This format
should only be used if one of the two choices
presented is, in fact, accurate information
while the other choice is not something Mr.
Harris has ever been exposed to.
● Mr. Harris’ decision making speed and ability
to plan and organize is impaired. He is most
likely to function optimally in settings that
are clearly defined and well structured with
high levels of positive reinforcement.
4. According the available records, Mr. Harris
did not evidence any psychotic symptoms until considerably later than is typically observed in men. While
this is a somewhat unusual course, it is not incompatible with a diagnosis of mood disorder with psychotic
features (a diagnosis he presently carries) or a diagnosis
of schizoaffective disorder (a diagnosis which alternatively may account for his historical presentation and
cannot be ruled out from the information provided).
Yet, an alternative non-psychiatric explanation
merits ruling out at this time. Some seizure disorders
are strongly linked to hallucinatory experiences [e.g.,
temporal lobe epilepsy (TLE)] and this might account
for the late onset of Mr. Harris’ reported hallucinations.
During this evaluation Mr. Harris appeared to display
thought blocking, which is not uncommon in those
with significant mood disorders or psychosis. It might
be that the previous evaluator who noted what they
thought were petit mal seizures was observing similar
behaviors; however, it is also possible that the thought
blocking episodes in this evaluation are better conceptualized as absence seizures related to seizure disorder.

App.241a
In addition, mild difficulty in sensory testing and
some possibility of constructional dyspraxia are found
in this evaluation.
In general, the findings of the present evaluation are not strongly supportive of TLE, but seizure
disorder cannot be ruled out on the basis of this
evaluation alone and merits inquiry. Further evaluation by a neurologist, with consideration of possible
neuroimaging (MRI) is encouraged to facilitate conceptualizing Mr. Harris’ neurocognitive profile. Mr. Harris
is presently taking medication from the anti-seizure
class and this should be communicated to the physician prior to completing such an evaluation.
5. Based on the inconsistencies found in the
medical records with respect to medication allergies,
it is recommended that Mr. Harris avoid formulas
containing codeine.
/s/ Jennifer L. Callahan, Ph.D.
Licensed Psychologist #982

